Appendix A
Chancery Court Memorandum and
Order Dismissing Amended Petition
For Writ of Mandamus

la

IN THE CHANCERY COURT FOR THE
STATE OF TENNESSEE
TWENTIETH JUDICIAL DISTRICT,
DAVIDSON COUNTY
JOHN ANTHONY GENTRY
Petitioner,
vs.

)
)
)
)

) Case No.
) 19-0644-1
FORMER SPEAKER OF THE
HOUSE, GLEN CASADA;
SPEAKER OF THE SENATE,
LT. GOV. RANDY McNALLY;
CHIEF CLERK OF THE HOUSE,
TAMMY LETZLER;
CHIEF CLERK OF THE SENATE,
RUSSEL A. HUMPHREY, AND
SPEAKER OF THE HOUSE
ELECT, CAMERON SEXTON
Respondents,

)
)
)
)
)
)
)

MEMORANDUM AND ORDER DISMISSING
AMENDED PETITION FOR WRIT OF
MANDAMUS
This matter is before the Court on Petitioner
John Anthony Gentry's Amended Petition for Writ of
Mandamus (the "Amended Petition"). For the
reasons set forth below, the Court finds the requested
writ should be denied and this action dismissed.
I. PROCEDURAL BACKGROUND

2a

A. Original Petition for Writ of Mandamus
Petitioner filed his original petition for a writ
of mandamus, under oath, on May 21, 2019. He is
representing himself. Named as Respondents were
former Speaker of the House Glen Casada, Speaker
of the Senate Randy McNally, Chief Clerk of the
House Tammy Letzler, and Chief Clerk of the Senate
Russell A. Humphrey, all of whom are represented by
the Attorney General’s Office.
Petitioner alleges that the Tennessee
Constitution Art. I, § 23, protects the right of citizens
"to apply to those invested with the powers of
government for redress of grievances, or other proper
purposes, by address of (sic) remonstrance."1
Petitioner alleges that on January 14, 2019, he filed
with the Chief Clerk of the Tennessee Senate a
"Petition of Remonstrance." Petition, Ex. B (cover
page only).
On January 18, 2019, District Two
Representative Bud Husley filed the same Petition
of Remonstrance with the Chief Clerk of the
Tennessee House of Representatives on Petitioner’s
behalf.2 Petition, Ex. C (cover page only). Also on
January 18, 2019, the Petitions of Remonstrance
were announced on the floors of the House and the
Senate.

1 The official version of the Tennessee Constitution, Art. I, § 23
provides for "redress of grievances, or other proper purposes, by
address or remonstrance."
2 Petitioner alleges that he attempted to file his Petition of
Remonstrance with the Chief Clerk of the House, Tammy
Letzler, on January 14, 2019, but was told that "House 'policy'
required Petitioner’s Remonstrance to be filed by a member.”

3a

During the first week of February 2019,
Petitioner alleges he visited the office of the Chief
Clerk of the Senate to complain that his Petition of
Remonstrance was not "properly announced" and
was not "read at the table in violation of Senate Rule
of Order, Rule 22." Between February 18, 2019 and
March 6, 2019, Petitioner alleges that he "personally
met with approximately fifty (50) members of the
General Assembly to discuss his Petition of
Remonstrance, Rules of Order, and Legislative Rules
of Procedure," which he claims require his petition
"to be heard" by the General Assembly. Petitioner
alleges he also met with the Director of Legislation
on March 5 and Director of the Office of Legal
Services for the House and Rep. Hulsey on March 6,
2019 to discuss "hearing" his Petition of
Remonstrance. Petitioner alleges that between
December 2018 and April 2019, he "emailed the
entire General Assembly" demanding proper
hearing of his Petition of Remonstrance.3
Petitioner requested the Court to issue a
writ of mandamus and order the following relief
(i) mandate the Clerk’s Office of the Senate
to
"properly
announce"
his
Petition
of
Remonstrance and "read" the Petition "at the table
or provide Petitioner opportunity to present," (ii)
mandate the Senate to "hear and decide" the
Petition of Remonstrance, (iii) mandate the Clerk’s
Office of the House to "properly announce" his
Petition of Remonstrance and "read" the Petition
"at the table or provide Petitioner opportunity to

3 Petitioner attached as an exhibit to his petition for writ of
mandamus a ”[s]ample of one email sent to the General
Assembly."
4a

present," and (iv) mandate the House to "hear and
decide" the Petition ofRemonstrance.
B. Summary of Motions Filed
On the same date as filing the Petition for
Writ of Mandamus, Petitioner filed a motion to
refund the filing fee he paid to the Clerk & Master.
He complains that he previously attempted to file
a "petition of remonstrance" with the Clerk &
Master's Office on April 30, 2019, and was
informed the Clerk's Office must charge a filing
fee. He returned to the Clerk & Master's Office on
May 21, 2019, and filed the Petition for Writ of
Mandamus and a separate motion to refund the
filing fee. Petitioner claims that the filing fee
requirement is unlawful and suppressed his
constitutional rights. Petitioner did not initially
notice his motion for refund for hearing on the
Court's motion docket.
On June 7, 2019, Respondents filed a Motion
to Dismiss the original mandamus petition under
Rule 12.02 of the Tennessee Rules of Civil
Procedure for lack of subject matter jurisdiction
and failure to state a claim for relief, with a
memorandum in support. Respondents noticed
their motion for hearing on the Court's regular
motion docket on June 21, 2019. Approximately
20 minutes later, Petitioner filed a Motion to Issue
Show Cause Order. Petitioner did not notice his
motion to show cause for hearing, although he

5a

separately lodged a notice containing blanks for a
hearing date to be inserted.4
On June 12, 2019, Petitioner filed a Motion to
Strike Respondents’ motion to dismiss and
supporting
memorandum
claiming
that
Respondents (i) falsely stated in their memorandum
that they had provided "a copy of the full Petition of
Remonstrance" and improperly modified the cover of
the document,5 and (ii) "knowingly and intentionally
failed to comply" with Rule 26.04(b) of the Davidson
County Local Rules, requiring counsel citing to an
unreported Tennessee decision or a decision from
another state or federal jurisdiction to attach a copy
of the decision to the supporting memoranda and
provide copies to opposing counsel. Petitioner filed a
separate Notice of Hearing purporting to notice his
Motion to Strike for the Court's June 21, 2019 motion
docket (the same date as Respondents' motion to
dismiss),6 but upon nine days’ notice instead of the
fourteen days' required under Local Rule 26.03(a).

4 The Clerk & Master's Office accepted this Notice and stamped
it "Received." The Court found that Respondents’ motion to
dismiss obviated the need for issuing a show cause order.
5 Respondents attached to the memorandum in support of
their motion to dismiss a document entitled Petition of
Remonstrance that included a "cover page" that differs
from the copies of the cover pages attached to Petitioner’s
Petition for Writ of Mandamus. Petitioner attached to his
motion to strike a "full" copy of his 72-page Petition of
Remonstrance, but without "approximately 700 pages" of
appendices that were attached to the versions filed with the
General Assembly.
6 Petitioner also purported to notice his Motion to Issue
Show Cause Order and his Response to Respondent's
Motion to Dismiss for hearing on June 21, 2019.

6a

Also on June 12, 2019, Petitioner filed his response
in opposition to Respondent’s motion to dismiss.
At the June 21, 2019 hearing on Respondents'
motion to dismiss, the Court initially noted that
Petitioner had not given fourteen days' notice of
hearing on his motion to strike, and the Court would
proceed to hear Respondents' motion to dismiss
because it challenged the Court's subject matter
jurisdiction as a threshold issue. After argument on
the motion to dismiss, the Court noted several of
Petitioner's objections to Respondents' motion to
dismiss were the same objections raised in his
separate motion to strike. The Court found that
Respondents had timely and properly filed their
motion to dismiss and complied with the notice
requirements for motions under the Local Rules. The
Court advised that it would take the merits of the
motion to dismiss under advisement.
Though Petitioner's motion to strike was not
timely noticed, the Court allowed Petitioner to
address his motion to strike, without objection from
Respondents, because those same grounds had been
discussed during argument on the motion to dismiss.
In response to Petitioner’s objection to the
Respondent's failure to provide copies of unreported
and
out-of-state
decisions
cited
in
their
memorandum, Respondents' counsel stated that
Respondents relied on reported Tennessee cases in
support of the motion to dismiss, but also cited to
unreported and out-of-state decisions as additional
authority. In response to Petitioner's argument that
Respondents had falsely represented that they had
filed a full copy of the Petition of Remonstrance or
had filed an altered copy, counsel replied that the
copy of the Petition of Remonstrance attached to the

7a

memorandum was the copy provided to her by
Respondents.
The Court respectfully denied Petitioner's
motion to strike. In the interest of allowing Petitioner
a full opportunity to respond to the unreported and
out-of-state decisions cited by Respondents, the
Court requested Respondents' counsel provide
Petitioner with copies of those decisions.
Respondents' counsel offered to email copies to
Petitioner by the close of business that afternoon.
The Court allowed Petitioner one week, or until June
28, 2019, to file any supplemental response to the
motion to dismiss, limiting his discussion to the
additional decisions provided. The Court advised
that it would not rule on the motion to dismiss until
after Petitioner filed any supplemental response and
would then decide the motion to dismiss without
additional oral argument. The Court entered an
order denying the motion to strike on June 28, 2019.
On June 26, 2019, Petitioner filed a 35-page
supplemental response to the motion to dismiss,
largely re-arguing his position and his motion to
strike and raising new objections. He also made
unsupported accusations of spoliation of evidence
and conspiracy on the part of Respondents and their
counsel relating to the motion to dismiss.
On July 8, 2019, the Court entered an order
reflecting its request that Respondents provide
Petitioner with copies of the unreported and out-ofstate decisions and that Petitioner was allowed
additional time to file a supplemental response. The
order further notified the parties that Petitioner had
since filed his supplemental response, and the Court
had taken the motion to dismiss under advisement.

8a

Also on July 8, 2019 and after the Court
entered its order, Petitioner filed a motion to alter
the Court's order denying his motion to strike.
Petitioner stated in this motion that he "waived oral
argument" on the motion to alter based on his belief
that the Court "orally determined that no further
hearings in this matter would be necessary or
heard."7 The Court - entered an order on July 10,
2019, to correct Petitioner's misunderstanding and
clarify that the Court had only limited further oral
argument with respect to the motion to dismiss.
On July 15, 2019, Petitioner filed a corrected
and supplemental response to the motion to dismiss,
stating it was filed to comply with the Court's
directive that his supplemental response • be limited
to a discussion of the additional cases received from
Respondents’ counsel. Also
on July 15, 2019,
Petitioner filed a corrected and amended motion to
alter the Court's order denying his motion to strike
and noticed it for hearing on August 16, 2019.
On July 22, 2019, Petitioner filed an
application for interlocutory appeal of the Court's
order denying his motion to strike, although his
motion to alter that order had not yet been heard.
Petitioner noticed his corrected and amended motion
to alter, motion to refund filing fee, and application

7 Petitioner also complained that he was not allowed to record
proceedings at the June 21, 2019 hearing for note taking
purposes. At the June 21, 2019 hearing, Petitioner asked to
record the hearing because of
a hearing impairment. To
accommodate Petitioner, the Court offered him the use of the
courtroom’ s electronic hearing device, which Petitioner
accepted and informed the Court that the device improved hisability to hear. He did not renew his request to record for other
purposes.

9a

for interlocutory appeal for hearing on August 16,
2019.
Respondents opposed the motion to alter the
Court's order denying his motion to strike and
opposed his application for interlocutory appeal.
Respondents did not respond to the motion for refund
of filing fee, as it was not directed to them. Petitioner
filed a reply on his motion to alter, but did not file a
reply on the application for interlocutory appeal.
Instead, he filed a motion to continue hearing on his
application for interlocutory appeal, claiming he did
not have sufficient time to reply. He requested an
extension until August 19, 2019 and asked the Court
to decide the application on the written papers.
Respondents had no objection to this request and the
Court granted the motion to continue. On August 19,
2019, however, Petitioner filed a notice striking his
application for interlocutory appeal.
On August 21, 2019, Petitioner filed a motion
to reconsider the order on the June 21, 2019 hearing
(denying the motion to strike) and the order
clarifying the prior order on the June 21, 2019
hearing (regarding oral argument on motions).
He also filed a motion to
sanction
Respondents and, the next day, filed a supplemental
motion to sanction, again based on Petitioner’s
claims that Respondents had falsified, materially
altered, and spoliated the copy of. the Petition for
Remonstrance
attached
to
Respondents’
memorandum in support of their motion to dismiss.
Petitioner noticed these motions for hearing
on September 6,2019. At the September 6
hearing, Petitioner withdrew his motion to
reconsider acknowledging
that his motion was
moot based on his having filed an Amended

10a

Petition. The Court denied the motion to sanction
and
supplemental
motion
to
sanction
Respondents, and a separate order disposing of
those motions is being entered.
C. Amended Petition for Writ of
Mandamus
Petitioner filed a motion for leave to
amend his original petition on July 29, 2019, and
attached a proposed amended petition to the
motion. Petitioner sought leave to (i) add
Speaker Elect of the House Cameron Sexton as a
respondent, (ii) reflect that Petitioner had
learned since filing the original petition that
Tenn. Const. Art. I, § 23 provides for application
for redress of grievances "by address Q!
remonstrance"
rather than "by address
Qfremonstrance," (iii) request an order that the
Tennessee House and Senate "uphold and honor
Petitioner's constitutional right to petition by
address (orally)," and (iv) request an order that
Respondents "correct the PDF type-written
version of the Tennessee Constitution held out
to the public on the general assembly's website."
Respondents did not oppose Petitioner's
motion for leave to amend, and the Court • granted
the motion. Petitioner filed his Amended Petition
for Writ of Mandamus on August 19, 2019,
although it differs from the proposed amended
petition that was attached to his motion for leave
to amend. In addition, at the time of filing his
revised amended petition, Petitioner separately
filed a "Jury Demand & Written Stipulation."
II.

LEGAL PRINCIPLES

11a

A. Writ of Mandamus
Chancery courts are authorized to issue
writs of mandamus upon petition and supported
by affidavit under Tenn. Code Ann. §§ 29-25101, et seq. Mandamus is an "extraordinary" •
remedy "to be applied only when a right has
been clearly established." Paduch v. City of
Johnson City, 896 S.W.2d 767, 769 (Tenn. 1995)
(internal citations omitted). A writ of mandamus is
defined as a court’s written order "to compel a lower
court or a government officer to perform mandatory
or purely ministerial duties correctly." Black's Law
Dictionary, 7th ed. 1999, p. 973. A ministerial act or
duty is defined as one "that involves obedience to
instructions or laws instead of discretion, judgment,
or skill." Id at 1011.
Under Tennessee law, ”[i]t is the universally
recognized rule that mandamus will only lie to
enforce a ministerial act or duty and will not lie to
control a legislative or discretionary duty." State
exrel. Weaver v. Ayers, 756 S.W.2d 217,221 (Tenn.
1988) (citing Lamb v. State ex rel. Kisabeth, 338
S.W.2d 584, 586 (Tenn. I960)). "[Wlhere the law
prescribes and defines the duties to be performed
with such precision and certainty as to leave
nothing to the exercise of discretion or judgment,
the act is ministerial, but where the act to be done
involves the exercise of discretion and judgment it
is not deemed merely ministerial." 7c? (citing State
ex rel. Millers National Ins. Co. v. Fumbanks, 151
S.W.2d 148, 150*51 (Tenn. 1941). Tennessee courts
further recognize that

12a

[t]he office of mandamus is to execute, not
adjudicate. It does not ascertain or adjust
mutual claims or rights between the parties.
If the right be doubtful, it must be first
established in some other form of action;
mandamus will not lie to establish as well as
enforce a claim of uncertain merit. It follows
therefore that mandamus will not be
granted where the right is doubtful.
Peerless Construction Co. v. Bass, 14 S.W.2d
732 (Tenn. 1929) (quoting Ferris on Extraordinary
Legal Remedies § 194)).
"The writ is either alternative or
peremptory." Tenn. Code Ann. § 29'25'I02(a). An
alternative writ "commands the defendant to do
the act required to be performed or show cause
...why the defendant has not done so... "
Id. at
A
§ 29-25-102(b).
peremptory
writ
"commands the defendant to do the act..." Id.
Even in those cases where a "clear legal right" is
established, the issuance of a writ of mandamus is
within the trial court's discretion. Harris v. State, 34
S.W. 1017, 1022 (Tenn. 1896); Willis v. Johnson, No.
E2017-02225-COA-R3-CV, 2018 WL 4672928, at *4
(Tenn. Ct. App., Sept. 27, 2018).
B. Petition of Remonstrance
Article I, § 23 of the Tennessee Constitution
provides citizens with the "right, in a peaceable
manner, to assemble together for their common good,
to instruct their representatives, and to apply to
those invested with the powers of government for
redress of grievances or other proper purposes, by

13a

address or remonstrance." Tenn. Const., Art. I, § 23.
The constitutional right established is the right to
apply for redress of grievances by address or
remonstrance. The Constitution does not prescribe
the method, process, or proceedings as to how an
application is to be heard and decided.
The word "remonstrance" does not appear
elsewhere in the Tennessee Constitution. Nor do
any Tennessee statutes provide the process by
which a citizen may exercise this right before the
General Assembly.8 "Remonstrance" generally
refers to a person's right to object or protest
governmental action. Black's Law Dictionary
defines "remonstrance" as'
1. A presentation of reasons for opposition
or grievance;
2. A formal document stating reasons for
opposition or grievance;
3. A formal protest against governmental
policy, actions, or officials.
Black's Law Dictionary, p. 1298 (7th ed. 1999).
III.

AMENDED PETITION FOR WRIT OF
MANDAMUS

Only two Tennessee statutes use the word
"remonstrance." Tenn. Code Ann. § 69-5-924 addresses the
right of citizens to file remonstrances, or objections, to the
issuance of refunding bonds by water drainage and levee
districts. Tenn. Code Ann. § 7-32-104 addresses the right
of citizens to lodge "objections or remonstrances" to
ordinances passed by consolidated governments for
improvements to be funded by special assessments. :

8

14a

The Amended Petition for Writ of
Mandamus includes all of the language from the
original petition,9 and adds a new section entitled
"Statement of Facts: Abuse of Process, Conspiracy
to Deprive Constitutionally Protected Rights,"
newly-alleged "Causes of Action," and additional
requests for relief. In the new statement of facts
section, Petitioner alleges, without factual
support, that Respondents "conspired to abuse of
process" by filing their motion to dismiss in
violation of the Court’s Local Rules and the
Tennessee Rules of Civil Procedure, and that
Respondents' motion to dismiss "was backdated, in
a further effort to deny due process of law." He
further alleges that Respondents filed a
"fraudulent and materially altered, counterfeit
version" of Petitioner's Petition of Remonstrance
attached to their memorandum in support of their
motion to dismiss.
Petitioner purports to allege three "causes of
action" in the Amended Petition. The first is
brought under Art. I, § 23 and Art. X, § 1 of the
Tennessee Constitution, alleging that the last
phrase of Art. I, § 23 of the Constitution has been
"materially altered usurping the constitutionally
protected right of citizens to petition the
government for redress of grievances ... by
address," and that Respondents have a duty to
9 Other amendments include the addition of then Speaker of
the House Elect Cameron Sexton as a respondent, the
correction of the allegation regarding the text of Article I,§
23 to read "by address or remonstrance," instead of "by
address of remonstrance," and the renumbering of some
paragraphs.
15a

properly present the type written form of the
Constitution on the General Assembly's website.
The second cause of action is brought under Art. I,
§ 23 and Art. XI, § 16 of the Tennessee
Constitution, alleging that Respondents have a
duty "to receive and read Petitions at the table,"
and have conspired to - deprive Petitioner of the
free exercise of his right guaranteed by Art. I, § 23.
The third cause of action is brought under Art. I, §
17 and Art. XI, § 16 of the Tennessee Constitution,
alleging that Respondents have "conspired to deny
due course of law through abuse of process and
violation of local court and state rules of
procedure," have "tendered" a fraudulent and
materially altered,
counterfeit version
of
Petitioner's Petition of Remonstrance, and have a
duty to uphold the Constitution of the state and
not violate any rights listed in Article I.
Summarizing the relief requested in the
Amended Petition, Petitioner asks the Court to (i)
empanel a jury and try the facts of this case, (ii)
mandate the Clerk's Office of the Senate and the
Clerk's Office of the House "to properly announce"
Petitioner's Petition of Remonstrance pursuant to
Senate Rule 22 and House Rule 15, respectively,
and uphold his right "to petition by address
(orally)," (iii) mandate the Senate and the House
"to hear and decide"
Petitioner's Petition of
Remonstrance, (iv) mandate the Clerk of the
Senate "to correct" the last phrase of Art. I, § 23 of
the Tennessee Constitution in the PDF version on
the General Assembly's website, (iv) mandate
Respondents to perform their duty sworn under
oath to support the Constitution of this state and
not violate protected rights; (v) award Petitioner

16a

his costs of litigation, and (vi) award such general
and further relief to which Petitioner is entitled.
Petitioner alleges that multiple provisions of
the Tennessee Constitution create the rights and
duties he seeks to enforce. He relies most heavily
on Article I, § 23, which statesArticle I, § 23. That the citizens have a right
in a peaceable manner, to assemble together
for their common good, to instruct their
representatives, and to apply to those
invested with the powers of government for
redress of grievances, or other proper
purposes, by address or remonstrance.
Two other constitutional provisions to which
Petitioner specifically refers in his alleged causes
of action areArticle X, § 1. Every person who shall be
chosen or appointed to any office of trust or
profit under this Constitution, or any law
made in pursuance thereof, shall, before
entering on the duties thereof, take an oath
to support the Constitution of this state, and
of the United States, and an oath of office.
Article XI, § 16. The declaration of rights
hereto prefixed is declared to be a part of the
Constitution of the state, and shall never be
violated on any pretense whatever. And to
guard against transgression of the high
powers we have delegated, we declare that
everything in the bill of rights contained,
excepted out of the general powers of the

17a

government,
inviolate.

and

shall

forever

remain

Petitioner also relies on Senate Rule 22 and
House Rule 15 as establishing the duties of the
Clerks of the Senate and House to "properly
announce" and "read at the table" his Petition for
Remonstrance[Senate] Rule 22. Petitions and Memorials.
Before any petition or memorial addressed
to the Senate shall be received and read at
the table, a brief statement of the contents
of the petition or memorial shall be verbally
made by the introducer. Temporary Rules of
the Senate for the 111th General Assembly,
State of Tennessee.

[House] Rule 15. Petitions and Memorials Brief Statement. Before any petition or
memorial addressed to the House shall be
received and read at the table, a brief
statement of the contents of the petition or
memorial shall be filed with the Chief Clerk.
Tennessee House of Representatives, 111th
General Assembly, Permanent Rules of Order.
In addition, Petitioner alleges that Senate
Rule 71 and House Rule 79 reference Mason's
Manual of Legislative Procedure as governing
procedural questions that their own rules do not
address. Mason's Manual is, however, general in
nature and not specific to Tennessee's legislature.
The sections of Mason's Manual cited by Petitioner,
§§ 143, 148, and 518, provide general guidance on the

18a

way questions may come before legislative bodies,
the general right of petition, and the alternative
ways that petitions may be presented.10 None of
these sections confers any rights on Petitioner or
creates any duties on the part of the Tennessee
legislature.
IV.

ANALYSIS

As an initial matter, the Court notes that
Petitioner is representing himself. As a self *
represented litigant, he is "entitled to fair and equal
treatment by the Courts." Young v. Barrow, 130
S.W.3d 59, 62 (Tenn. Ct. App. 2003). Tennessee
courts recognize that self-represented "litigants who
invoke the complex and sometimes technical
procedures of the courts assume a ■ very heavy
burden." Irvin v. City of Clarksville, 767 S.W.2d 649,
652 (Tenn. Ct. App. 1988). Given their lack of
experience and training, courts must provide selfrepresented parties with a certain amount of leeway
in drafting their papers and pleadings. Id at 653
(internal citations omitted). Self-represented parties
are expected, however, "to comply with the same
substantive and procedural rules" that attorneys
must follow. Hessmerv. Hessmer, 138 S.W.3d 901,
903 (Tenn. Ct. App. 2003). "[Clourts cannot create
claims or defenses for pro se litigants where none
exist. Young, 130 S.W.3d at 63 (citing Rampyv. IC1

10 At least one of the provisions in Mason's Manual provides
several methods by which a legislative body may receive a
petition, including filing the petition with the legislative clerk*
which is the same method that Tennessee's House and Senate
asked Petitioner to use.
19a

Acrylics, Inc., 898 S.W.2d 196, 198 (Tenn. Ct. App.
1994)).
Petitioner has filed a series of repetitive and
factually unsupported motions, responses and
replies, followed by a series of supplemental or
amended and corrected motions, responses and
replies. Despite the multiplicity of these filings, the
Amended Petition for Writ of Mandamus supplants
the original petition and moots nearly all of the prior
filings and proceedings, including Respondents'
motion to dismiss and Petitioner's various motions
filed thereafter objecting to the motion to dismiss,
seeking sanctions related to the motion, and seeking
to alter the Court's orders
With the filing of the Amended Petition, the
questions presented to the Court are straight
forward- Is Petitioner entitled to a writ of
mandamus ordering Respondents to (i) mandate
the Clerks of the House and Senate "to properly
announce" the Petition of Remonstrance and allow
Petitioner "to petition by address (orally)," (ii)
mandate the Senate and the House "to hear and.
decide" his Petition of Remonstrance, and (ii)
mandate the Clerk of the Senate to correct the
copy of the Tennessee Constitution posted on the
General Assembly's website? None of the
questions presented are addressed to the
substance of Petitioner's underlying grievances or
the merits of the legislative reforms proposed in
his Petition of Remonstrance.
A. The Petition for Writ of Mandamus Is
Defective.

20a

Petitioner's Amended Petition, as well as his
original petition, are facially defective. The
Tennessee Constitution requires a petition for a
writ of mandamus to be prosecuted in the name of
the State on the relation of the person interested. •
Tenn. Const. Art. VI, § 12 ("All writs and other
process shall run in the name of the State of
Tennessee and bear test and be signed by the
respective clerks."); see also William H. Inman,
Gibson's Suits in Chancery, § 510 (7'h ed. 1988)
("The Complaint [for a writ of mandamus] is in the
name of the State on the relation of the person
interested"). Failure to do so may be cause for a
court to dismiss such a petition. Whitesides v.
Stewart, 20 S.W. 245, 246 (Tenn. 1892) (holding it
was error not to dismiss a mandamus petition
"[b]ecause the proceedings should be in the name
of the state, on the relation of the petitioner.").
Neither the original petition nor the
Amended Petition are prosecuted in the name of
the State on relation of Petitioner. This defect
alone is sufficient for the Court to dismiss the
Amended Petition. Id. Despite this deficiency, the
Court addresses the merits of the Amended
Petition.
See
Meighan
v.
US.
Sprint
Communications Co., 942 S.W.2d 476,479 (Tenn.
1997).
B. Petitioner Is Not Entitled to a Writ of
Mandamus.
1. Petitioner
Has
Exercised
His
Constitutional Right to Apply for
Redress of Grievances by Address or
Remonstrance.

2la

Under Tenn. Const. Art. I, § 23, Petitioner
has a clear constitutional right "to apply to those
invested with the powers of government for
redress of grievances ... by address or
remonstrance." Petitioner has fully exercised this
right and has remonstrated to both the Tennessee
Senate and the House. He filed with the Senate
and had filed on his behalf with the House his
Petition of Remonstrance, exercising his right to
apply for redress of the grievances set forth in his
Petition of Remonstrance. No other , rights are
conferred under Art. I, § 23.
Petitioner does not limit his Amended
Petition for a Writ of Mandamus to the exercise ofhis right to apply for redress of grievances by
address or remonstrance. Petitioner seeks more.
He seeks a mandate compelling the Clerks of the
Senate and House "to properly announce" his
Petition of Remonstrance and allow him "to
petition by address (orally)." He seeks a mandate
compelling the Senate and House to "hear and
decide" his Petition for Remonstrance. He seeks
a mandate compelling the Clerk of the Senate to
correct the last phrase of Art. I, § 23 of the PDF
version of the Tennessee Constitution posted on
the General Assembly's website.
The Tennessee Constitution does not confer
any of these rights on Petitioner. The relief
Petitioner seeks in his Amended Petition are not
“purely ministerial” acts of the legislature, but are
discretionary choices made by the Senate and the
House regarding their internal rules and
procedures that this Court cannot compel on a writ
of mandamus. Peerless, 14 S.W.2d at 733.

22a

Mandamus is an extraordinary remedy.
The "office of mandamus is to execute, not
adjudicate." Peerless, 14 S.W.2d 732. The only
right protected under Art. I, § 23 is the right to
apply for redress of grievances. A citizen maj^ do so
by address or remonstrance. As Petitioner
acknowledges,
he
has
"asserted
his
constitutionally protected right pursuant to Tenn.
Const. Art. I, § 23, and on January 14, 2019 filed a
Petition of Remonstrance with the Chief Clerk of the
Senate." Amended Petition, p. 3 at ^[4 and Ex. B.
Petitioner further acknowledges that "[o]n January
18, 2019, Representative Bud Hulsey, District Two
(2), on behalf of
Petitioner, filed Petitioner's
Petition of Remonstrance with Chief Clerk of the
House of Representatives." Amended Petition, p. 3 at,
1[5andEx. C. Petitioner also acknowledges that on
January 18, 2019, his Petition for Remonstrance
"was announced on the House Floor," Amended
Petition, p. 4 at *\\ 6, and "was announced on the
Senate Floor." Amended Petition, p. 4 at T[7.
Petitioner’s complaints rest entirely on the
manner by which his Petition was announced and
the General Assembly's alleged failure to hear and
decide his Petition. Petitioner also seems to claim
a right to personally address (orally) the General
Assembly. Nothing in the Tennessee Constitution
guarantees the method or procedures by which
applications for remonstrances are "announced” or
"heard and decided." Nothing in the Tennessee
Constitution confers a right on a citizen to orally
address the Senate and the House. In the absence
of any such clear rights, this Court lacks the
authority to issue the requested writ of mandamus.

23a

Both the House and the Senate are
empowered under the Constitution to establish
their own Rules. Tenn. Const. Art. II, § 12. These
internal rules are discretionary in nature and
govern each house's legislative proceedings. No
rights are granted to Petitioner under the Senate
or House Rules. This Court is without authority to
issue the extraordinary remedy of mandamus to
compel discretionary acts of the General Assembly
that are governed by internal Senate and House
Rules.
As to the second element required for a writ
of mandamus, Respondents' clear duty to perform
the acts that Petitioner seeks to compel, it
necessarily follows that if Petitioner does not have
a clear right to the relief he seeks, Respondents do
not have a clear duty to perform those acts.
Petitioner applied for redress of his grievances,
and both the House and the Senate received
Petitioner's Petition for Remonstrance. In short,
that is the extent of the relief to which Petitioner
is entitled under Art. I, §23 and the corresponding
extent of the House and Senate's duties. In
addition, the House and the Senate each
announced the Petition of Remonstrance on the
floor of its house.
In any event as discussed above, the Senate
and House Rules on which Petitioner relies are
discretionary. The Constitution provides that
"[e]ach House may determine the rules of its
proceedings." Tenn. Const. Article II, § 12.11 Each
11 Article II, § 12 of the Tennessee Constitution provides: "Each
House may determine the rules of its proceedings, punish its
members for disorderly behavior, and, with the concurrence of
two-thirds, expel a member, but not a second time for the same
24a

house has the discretion to determine and conduct
its legislative duties in the manner it deems
appropriate. Moreover, as held by the Tennessee
Supreme Court, each house is the judge of its own
rules. In State v. Cumberland Club, 188 S.W. 583
(Tenn. 1916), the Senate had passed a bill while
there was a pending motion to reconsider the bill
"on the table." The plaintiffs claimed that the
Senate passed the bill in violation of Senate rules.
The Court held that the Senate's violation of its
own rules "cannot furnish a basis for the court's
annulment of an act. The Senate has the right,
under the Constitution, to make its own rules, and
it must be the judge of those rules." Id. at 585.
The Court went on to hold that courts do not concern
themselves with whether legislative actions follow
procedural rules, so long as the legislative actions
comply with constitutional requirements.12 Id.
Because there is no constitutional requirement for
the General Assembly to "announce," "read at the
table," or "hear and decide" Petitioner's Petition of
Remonstrance, this Court cannot order the General
Assembly or the Clerks to do so, even if provided for
by Senate or House Rules.
Petitioner insists that he is not asking the
Court to order the General Assembly to "act" on his
Petition of Remonstrance. Instead, he claims that
he is asking the Court to mandate the General
Assembly to perform its "duty" to "hear and decide"
offense! and shall have all other powers necessary for a branch
of the Legislature of a free state."
12 For example, the Constitution requires that any bill passed
concern only one subject, Tenn. Const. Article II, § 17, and that a
bill be "considered and passed on three different days in each
House" before it can become law. Tenn. Const. Article II,§ 18.
25a

his Petition of Remonstrance. The Court finds that
this is a distinction without a difference. Beyond
allowing Petitioner to apply for redress of grievance
by filing the Petition of Remonstrance, it is within
the House and - Senate's legislative discretion to
determine whether, when, and how to announce,
read, and act in response. The Court cannot compel
the House or Senate or the Clerks to "properly
announce" or "hear and decide" the Petition of
Remonstrance in the manner he seeks to compel.
As to the third element necessary to support a
mandamus, the Petitioner's own allegations seem
to establish the adequacy of other available
remedies. In making his grievances known to the
legislature, he is able to complain, to lobby, to call,
to write, and to appear at his representatives’
offices to attempt to convince them that his
proposed legislative reforms are needed. He
acknowledges in his Amended Petition that he has
met with the Clerks of the House and the Senate to
discuss his grievances. He has filed or had filed on
his behalf, his written Petitions of Remonstrance
with both the Senate and the House. The Clerks of
both
houses
announced his Petition of
Remonstrance on their respective floors the day of
or the next day after filing. Petitioner has met with
legislative staff members and with more than 50
legislators about his grievances. Petitioner has
emailed "the entire General Assembly" demanding
hearing of his Petition of Remonstrance. That
Petitioner does not have a clear right, as a private
citizen, to speak on the floor of the General Assembly
or require the General Assembly to hear and decide
his legislative proposals, in no way has curtailed his
constitutional right to apply for redress of his

26a

grievances. Petitioner has actively engaged in robust
political discourse with Tennessee's elected
legislators in both the House and the Senate. He has
addressed the General Assembly. And he has
remonstrated.
The Court finds that the following
separation of power provisions of the Tennessee
Constitution are relevant to the writ of mandamus
issue presented in this case:
Article II, § 1. The powers of the government
shall be divided into three distinct
departments: legislative, executive and
judicial.
Article II, § 2. No person or persons belonging
to one of these departments shall exercise any
of the powers properly belonging to either of
the others, except in the cases herein directed
or permitted.
The separation of powers doctrine was
explained by the Court of Appeals in State v. King:
In general, the "legislative power" is the
authority to make, order, and repeal law; the
"executive power" is the authority to
administer and enforce the law; and the
"judicial power" is the authority to interpret
and apply law. The Tennessee constitutional
provision prevents an encroachment by any of
the departments upon the powers, functions
and prerogatives of the others. The branches
of government, however, are guided by the
doctrine of checks and balances; the doctrine
of separation of powers is not absolute.

27a

973 S.W.2d 586, 588 (Tenn. Ct. App. 1998) (citing
State v. Brackett, 869 S.W. 2d 936, 939 (Tenn. Crim.
App. 1993)). While courts may remedy an
unconstitutional legislative action or be called upon
to construe and apply statutes, the separation of
powers doctrine precludes the court from deciding
"purely political questions" because they are non*just
iciable. See Mayhew v. Wilder, 46 S.W.3d 760, 773
(Tenn. Ct. App. 2001); Baker v. Carr, 369 U.S.
. 186,217 (1962).
Petitioner seems to suggest that any citizen
who wishes to personally address and present
political grievances on the floor of the General
Assembly has a constitutional right to do so.
Tennessee's Constitution, however, commits to the
legislature the power to determine policy, to "hear
and decide" proposed bills, and to enact legislation.
The legislature's internal rules govern how those
bills wend their way through the legislative process
and whether they come to the floor for a vote by its
members. The judicial branch interprets and applies
existing law, but cannot mandate to the legislature
what policies, proposals, bills, or grievances it must
consider.
The Senate and House have exercised their
discretion and not acted on Petitioner’s demand
that they "hear and decide" his Petition for
Remonstrance. The Clerks of each house have
declined Petitioner's demand to orally address the
General Assembly. These are decisions vested
within their discretion. For the Court to insert
itself into this legislative process would
contravene the separation of powers established by
the Constitution. Mayhew, 46 S.W.3d at 773.

28a

2. Petitioner Has No Clear Right to
Demand the General Assembly to
Display or Correct Its Copy of the
Constitution on Its Website.
Petitioner claims that the General Assembly
has posted a copy of the Tennessee Constitution
containing a typographical error on its website, and
this action amounts to a "constructive fraud upon all
citizens of the State of Tennessee." He alleges that
Respondents' "duty" to support the Tennessee
Constitution " requires that the type-written form of
the Tennessee Constitution be properly presented to
the public." Petitioner has cited to no constitutional
or statutory provision naming Respondents as the
“official” repository of the Tennessee Constitution,13
or requiring them to display the Constitution on
the General Assembly's website. Because
Respondents have no duty to display the
Constitution, this Court cannot order Respondents
to correct the version voluntarily posted on the
General Assembly's website. The Court further
rejects
Petitioner's
accusations
that
any
typographical error in the currently posted version
somehow evidences the General Assembly's
nefarious intent or conspiracy to deprive
Tennessee citizens of their constitutional rights.
B.

Petitioner Is Not Entitled to a Jury

13 The official version of Tennessee's laws is compiled in the
volumes of Tennessee Code Annotated, as certified by the
Tennessee Code Commission. See Tenn. Code Ann. §§ 1-1110, 1-1*111, and 1-2-114. The Tennessee Constitution,
adopted in 1870, appears in Volume 1A of Tennessee Code
Annotated.
29a

(sic subT[3?).
At the time of filing his Amended Petition,
Petitioner filed a separate "Jury Demand & •
Written Stipulation." This "stipulation" purports
to set forth the "specific issues of fact to be
determined by jury."
1.

Do' Respondents have a duty to ensure
that the type written version of the
Constitution of the State of Tennessee is
properly presented to the public, and
have they violated or failed to perform
that duty?

2.

Do Respondents have a duty under
sworn oath to uphold the constitution,
and have they violated that duty?

3.

Do Respondents have a duty to not
violate constitutionally protected rights,
and have they violated or failed in their
duty
to
uphold
constitutionally
protected rights?

4.

Do Respondents have a duty [to] receive
and read petitions at the table, and have
they violated or failed to perform that
duty?

5.

Does Petitioner have a constitutionally
protected right to petition for redress of
grievance or other proper purpose by
address, and has his right been violated?

6.

Did Respondents violate their oath of
office and duty to uphold • the
Constitution of the state by tendering

30a

falsified and counterfeit documents to
this court?14
7.

Did Respondents conspire to violate due
process of law through intentional
violation of Local Rules and Tennessee
Rules of Civil Procedure, or through
exploitation of unconstitutional Local
Rule and violate or fail to perform their
duty to uphold the Constitution of the
state?15

Petitioner cites to Article I, § 6 of the
Tennessee Constitution ("the right of trial by jury
shall remain inviolate"), and Rule 38.01 of the
Tennessee Rules of Civil Procedure ("[t]he right of
trial by jury as declared by the Constitution or
existing laws of the State of Tennessee shall be
preserved to the parties inviolate") in demanding
a jury.
Tenn. Code Ann. § 29-25-107, governing
writs of mandamus, provides that when an answer
is filed in response to a petition for a writ of
mandamus denying "any material facts stated in
the petition, the court may determine the issues
upon evidence, or cause them to be submitted to a
jury." Whether to permit a jury to determine facts
on a petition for writ of mandamus is "in the
discretion of the trial judge, and no constitutional

14 As noted above, this "Stipulation" addresses Respondents'
motion to dismiss, which motion became moot when Petitioner
filed his Amended Petition.
15 As with the prior "Stipulation," this question also
addresses Respondents' motion to dismiss and is not
relevant to the Amended Petition for Writ of Mandamus.
31a

objection can be interposed."
S.W. 447, 448 (Tenn. 1906).

Marler v. Wear, 96

While our Constitution declares that "the
right of trial by jury shall remain inviolate"
(article 1, § 6), yet it has been held too often
to need citation of authorities here, that the
purpose of this provision was to protect the
right as it existed at common law. But at
common law, no jury was impaneled in
mandamus cases, since the return was
treated as conclusive.
Id Here, Respondents have not filed an answer
denying any facts contained in
the Amended
Petition. Further, a court's interpretation of the
Tennessee Constitution to determine whether it
creates clear duties on the part of the legislature
or bestows clear rights on Petitioner presents
questions of law, and not issues of fact. In re
Bentley D., 537 S.W.3d 907, 910 (Tenn. 2017)
("Issues
of
statutory
and
constitutional
interpretation are questions of law"). Accordingly,
Petitioner has no right to a jury trial on his
Amended Petition for Writ of Mandamus.
VI.

CONCLUSION (sic Sect. V)

The Court concludes that Petitioner has
exercised the clear right he is granted under Art.
I, § 23 to apply for redress of his grievances by
address or remonstrance. He filed his Petition of
Remonstrance with both houses of the General
Assembly. Petitioner has no clear right to compel
the specific manner in which his remonstrance is
"announced" on the floors of the House and Senate,

32a

to allow Petitioner to orally address the
legislature, or to compel the General Assembly to
"hear and decide" his Petition. Douglas, 2015 WL
4484352 at *1. The Court concludes, conversely,
that Respondents do not have a clear duty to
perform the acts that Petitioner seeks to compel.
Each house is empowered under the Tennessee
Constitution to determine its own rules, within its
discretion, to govern legislative proceedings. Id.
The Court further concludes that Respondents
have no clear duty to publicly display the
Tennessee Constitution or correct the • version of
the Constitution voluntarily posted on the General
Assembly's website. The Court further concludes
that Petitioner has available to him and has, in
fact, pursued other remedies to engage in political
discussions with and express his grievances to
members of the General Assembly and their staff.
Id.
It is, accordingly, ORDERED, ADJUDGED
and DECREED that Petitioner is not entitled to
the issuance of a writ of mandamus.
The
Amended Petition for Writ of Mandamus is
DENIED
and the Amended Petition is
DISMISSED, with prejudice.
It is further ORDERED, ADJUDGED and
DECREED that any other requests for relief in
this cause not specifically granted or denied are
hereby DENIED.
It is further ORDERED, ADJUDGED and
DECREED that the Clerk & Master is directed to
enter final judgment in this matter pursuant to
Rule 58 of the Tennessee Rules of Civil Procedure.

33a

It is further ORDERED, ADJUDGED AND
DECREED that, in accordance with Tenn. Code
Ann. § 29-25-108(b), the costs of this cause are
taxed to Petitioner, for which execution may issue.

PATRICIA HEAD MpSKAL
CHANCELLOR, PART I

RULE 58 CERTIFICATION OF SERVICE BY
THE CLERK
I hereby certify that I have forwarded a true
and exact copy of the foregoing via U.S. Mail,
postage pre-paid, with a courtesy copy by email, to
the parties and/or their counsel listed below.
John A. Gentry
Petitioner
208 Navajo Court
Goodlettsville, Tennessee
37072
iohn.a.gentrv@comcast.net
Janet M. Kleinfelter Attorney
for Respondents Deputy
Attorney General Public
Interest Division
Office of Tennessee
Attorney General
P.O. Box 20207 Nashville,
Tennessee 37202
ianet.kleinfelter@ag.tn.gov
i

fre.cS________
Deputy Clerk & Master

34a

Appendix B

TENNESSEE COURT OF APPEALS
AT NASHVILLE ORDER DENYING
MOTION FOR ALL APPELLATE
COURT JUDGES TO RECUSE OR
DISQUALIFY

35a

IN THE COURT OF APPEALS OF TENNESSEE
AT NASHVILLE
FILED
01/27/2020
Cferk of tne
Appellate Courti

JOHN ANTHONY GENTRY v. FORMER
SPEAKER OF THE HOUSE GLEN CASADA ET
AL.
Chancery Court for Davidson County No. 19-644*1

No. M2019-02230-COA-R3-CV

ORDER
Petitioner,
John
Anthony
Gentry
(“Petitioner”), filed a motion pursuant to Rule 10B,
§ 3.01 of the Rules of the Tennessee Supreme
Court seeking to have all members of this Court
recuse themselves from this appeal. This case
originated when petitioner filed suit in the
Chancery Court for Davidson County (“the Trial
Court”) against the Former Speaker of the House
Glen Casada, Speaker of the Senate Lt. Gov.
Randy McNally, Chief Clerk of the House Tammy
Letzler, and Chief Clerk of the Senate Russell A.
Humphrey (“Respondents”). Petitioner later
amended his petition to add Speaker of the House
Elect Cameron Sexton as a respondent. Petitioner
sought a writ of mandamus ordering the
Tennessee House of Representatives and Senate to
announce, hear, and decide a petition for

36a

remonstrance filed by Petitioner. Respondents filed
a motion to dismiss.
In September of 2019, the Trial Court entered
its order dismissing Petitioner’s amended petition
after finding that the petition was facially defective
as it was not prosecuted in the name of the State,
because Petitioner was not entitled to the relief
sought since the acts were within the discretion of the
House and Senate with regard to their internal rules
and procedures and could not be compelled by the
courts, and because Petitioner had exercised his right
to apply for redress of grievance by address or
remonstrance and had no clear right to compel the
manner in which his remonstrance was announced,
heard, or decided by the House and Senate.
After the Trial Court entered its final order
dismissing the amended petition, Petitioner filed a
motion seeking to have the Trial Court judge recuse
pursuant to Rule 10B and a motion to alter or amend
the final order pursuant to Tennessee Rule of Civil
Procedure 59. The Trial Court denied the Rule 10B
motion to recuse, and Petitioner did not appeal that
order. The Trial Court then found that the Rule 59
motion raised many of the same arguments as the
Rule 10B motion, and denied the Rule 59 motion to
alter or amend.
Petitioner appealed the Trial Court’s order
denying his Rule 59 motion to alter or amend to this
Court. After filing his notice of appeal, Petitioner
filed a document titled “Appellant’s Notice of Non
Consent,” seeking the “voluntary recusal of the entire
judiciary without the need or necessity of a Rule 10B
motion.” By Order entered on January 6, 2020, this
Court denied Petitioner’s request for recusal because
the recusal of appellate judges is governed by Rule

37a

10B, § 3 and Petitioner’s “Notice” failed to comply
with the requirements of that rule.
Petitioner then filed the instant motion titled
“Motion For All Appellate Court Judges To Recuse or
Disqualify” (“the Motion”) pursuant to Rule 10B, § 3.
Petitioner’s motion alleges that recusal or
disqualification of the judges on this Court is
required by Art. VI, § 11 of the Tennessee
Constitution, which providesNo Judge of the Supreme or Inferior Courts
shall preside on the trial of any cause in the
event of which he may be interested, or where
either of the parties shall be connected with
him by affinity or consanguinity, within such
degrees as may be prescribed by law, or in
which he may have been counsel, or in which
he may have presided in any inferior Court,
except by consent of all the parties. In case all
or any of the Judges of the Supreme Court
shall thus be disqualified from presiding on
the trial of any cause or causes, the Court, or
the Judges thereof, shall certify the same to
the Governor of the State, and he shall
forthwith specially commission the requisite
number of men, of law knowledge, for the trial
and determination thereof. The Legislature
may by general laws make provision that
special Judges may be appointed, to hold any
Courts the Judge of which shall be unable or
fail to attend or sit; or to hear any cause in
which the Judge may be incompetent.
Tenn. Const, art. VI, §11. Also, as pertinent,
Tennessee Code Annotated § 17-2-101 provides-

38a

§ 17*2*101. Grounds of incompetency. **
No judge or chancellor shall be competent,
except by consent of all parties, to sit in the
following cases:
(1)
Where the judge or chancellor is
interested in the event of any cause;
(2)
Where the judge or chancellor is
connected with either party, by affinity or
consanguinity, within the sixth degree,
computing by the civil law;
(3)
Where the judge or chancellor has been
of counsel in the cause;
(4)
Where the judge or chancellor has
presided on the trial in an inferior court; or
(5)
In criminal cases for felony, where the
person upon whom, or upon whose property,
the felony has been committed, is connected
with the judge or chancellor by affinity or
consanguinity within the sixth degree,
computing by the civil law.
Tenn. Code Ann. § 17*2*101 (2009).
In the Motion, Petitioner asserts that “the
Appellate Court Judges presiding over this matter”
have an interest in this case because Petitioner’s
remonstrance demands reform of the Tennessee
judiciary and demands “the impeachment of all
members of the Tennessee Court of Appeals,” and
that “the members of this Court have an interest to
not be reformed.” Petitioner also asserts that “this
court has an affinity of consanguinity, with ‘brothers
and sisters of the robe,’ and, therefore, pursuant to
the Tennessee Constitution cannot preside over this

39a

matter without the consent of all parties, which
Petitioner asserts that he refuses to give. Petitioner
bases his assertion about “affinity of consanguinity”
upon a statement in the Motion, which reads: “Based
upon the recent statement by Justice Gorsuch that
‘any criticism of his brothers and sisters of the robe
is an attack or a criticism on everybody wearing the
robe as a judge.”1 (emphasis in original).
A review of Petitioner’s remonstrance solely to
determine whether the undersigned judges2 have an
interest in this case shows that in the remonstrance
Petitioner alleges: “Incident to their position as
appellate court judges, the Tennessee Court of
Appeals judges have engaged in criminal and
unconstitutional conduct with respect to all appellate
court litigants that is incompatible with the trust and
confidence placed in them as a judge . . . Petitioner
1 ‘Affinity’ is defined by Black’s Law Dictionary as“A close agreement,” or “The relation that one spouse has to
the blood relatives of the other spouse; relationship by
marriage,” or “Any familial relation resulting from a
marriage.” Black’s Law Dictionary 59 (7th ed. 1999).
‘Consanguinity’ is defined as- “The relationship of persons of
the same blood or origin.” Black’s Law Dictionary 299 (7th
ed. 1999). As the Judges of this Court have neither a blood
nor a marital relationship with any of the parties to this suit,
neither consanguinity nor affinity present any infirmity
mandating disqualification or recusal. See Hume v.
Commercial Bank, 78 Tenn. 1 (Tenn. 1882) (providing
explanation of affinity and the method of calculating degrees
of affinity). Justice Gorsuch was employing the words
“brothers and sisters of the robe” rhetorically, not literally.
2 The undersigned judges comprise the panel of
judges assigned to this appeal. As the other judges on the
Court of Appeals are not assigned to this appeal, Petitioner’s
motion to recuse those judges is moot.

40a

then asserts- “Appellate Court judges are guilty of
crimes and should be removed from office.”
Given the allegations in Petitioner’s
remonstrance, we conclude that we the undersigned
judges have an interest in the underlying case to the
extent that it seeks to impeach the judges of this
Court. The interest in this case, however, does not
mandate recusal, as we find that the Rule of
Necessity applies.
The Rule of Necessity was explained by the
United States Supreme Court in United States v.
Will, which statesIn federal courts generally, when an
individual judge is disqualified from a
particular case by reason of § 455, the
disqualified judge simply steps aside and
allows the normal administrative processes of
the court to assign the case to another judge
not disqualified. In the cases now before us,
however, all Article III judges have an interest
in the outcome; assignment of a substitute
District Judge was not possible. And in this
Court, when one or more Justices are recused
but a statutory quorum of six Justices eligible
to act remains available, see 28 U.S.C. § 1, the
Court may continue to hear the case. Even if
all Justices are disqualified in a particular
case under § 455, 28 U.S.C. § 2109 authorizes
the Chief Justice to remit a direct appeal to the
Court of Appeals for final decision by judges
not so disqualified. However, in the highly
unusual setting of these cases, even with the
authority to assign other federal judges to sit
temporarily under 28 U.S.C. §§ 291-296 (1976
ed. and Supp. Ill), it is not possible to convene

41a

a division of the Court of Appeals with judges
who are not subject to the disqualification
provisions of § 455. It was precisely
considerations of this kind that gave rise to the
Rule of Necessity, a well-settled principle at
common law that, as Pollack put it, “although
a judge had better not, if it can be avoided, take
part in the decision of a case in which he has
any personal interest, yet he not only may but
must do so if the case cannot be heard
otherwise.” F. Pollack, A First Book of
Jurisprudence 270 (6th ed. 1929).
***

The Rule of Necessity had its genesis at
least five and a half centuries ago. Its earliest
recorded invocation was in 1430, when it was
held that the Chancellor of Oxford could act as
judge of a case in which he was a party when
there was no provision for appointment of
another judge. Y.B. Hil. 8 Hen. VI, f. 19, pi. 6.
Early cases in this country confirmed the
vitality of the Rule.
The Rule of Necessity has been
consistently applied in this country in both
state and federal courts. In State ex rel.
Mitchell v. Sage Stores Co., 157 Kan. 622, 143
P.2d 652 (1943), the Supreme Court of Kansas
observed“[I]t is well established that actual
disqualification of a member of a court of
last resort will not excuse such member
from performing his official duty if failure
to do so would result in a denial of a
litigant’s constitutional right to have a

42a

question, properly presented to such court,
adjudicated.” Id., at 629, 143 P.2d, at 656.
Similarly, the Supreme Court of Pennsylvania
held“The true rule unquestionably is that
wherever it becomes necessary for a judge
to sit even where he has an interest* where
no provision is made for calling another in,
or where no one else can take his place-it
is his duty to hear and decide, however
disagreeable it may be.” Philadelphia v.
Fox, 64 Pa. 169, 185 (1870).
Other state and federal courts also have
recognized the Rule.
The concept of the absolute duty of
judges to hear and decide cases within their
jurisdiction revealed in Pollack, supra, and
Philadelphia v. Fox, supra, is reflected in
decisions of this Court.
***

The declared purpose of § 455 is to guarantee
litigants a fair forum in which they can
pursue their claims. Far from promoting this
purpose, failure to apply the Rule of Necessity
would have a contrary effect, for without the
Rule, some litigants would be denied their
right to a forum. The availability of a forum
becomes especially important in these cases.
As this Court has observed elsewhere, the
Compensation Clause is designed to benefit,
not the judges as individuals, but the public
interest in a competent and independent

43a

judiciary. Evans v. Gore, supra, at 253, 40
S.Ct., at 553. The public might be denied
resolution of this crucial matter if first the
District Judge, and now all the Justices of this
Court, were to ignore the mandate of the Rule
of Necessity and decline to answer the
questions presented.
United States v. Will, 449 U.S. 200, 212-17, 101 S.Ct.
471, 479*82 (1980) (footnotes omitted).
Giving us some guidance, our Supreme Court
discussed, in dicta, the Rule of Necessity in Hooker v.
Haslam, statingIn Gayv. City ofSomerville, 878 S.W.2d 124,
128 (Tenn. Ct. App. 1994), our Court of
Appeals recognized that the “Rule of
Necessity permits an adjudicative body to
proceed in spite of its possible bias” if no one
else is authorized to act. This rule allows an
otherwise disqualified judge to participate “if
the case cannot be heard otherwise.” Citizen’s
Protecting Mich/s Constitution, 755 N.W.2d
at 149 (internal quotation marks omitted).
Our Supreme Court rules acknowledge the
viability of the rule and recognize that it may,
under certain circumstances, potentially
“override the rule of disqualification”For example, a judge might be required to
participate in judicial review of a judicial
salary statute, or might be the only judge
available
in a
matter requiring
immediate judicial action, such as a
hearing on probable cause or a temporary
restraining order. In matters that require

44a

immediate action, the judge must disclose
on the record the basis for possible
disqualification and make reasonable
efforts to transfer the matter to another
judge as soon as practicable.
Tenn. Sup. Ct. R. 10, Canon 2.11,
Comment [3]; see also Citizen’s Protecting
Mich.’s Constitution, 755 N.W.2d at 151-52
(recognizing
a
disqualifying
“economic
interest” as to a constitutional initiative to
reduce judicial salaries, but declining to recuse
based upon the “rule of necessity”).
In
Fent
v.
Oklahoma
Capitol
Improvement Authority, 984 P.2d 200, 203,
218 (Okla. 1999), one justice, observing that
the Governor was a named defendant, pointed
out that the rule of necessity applied because
of the “venerable common law adage that no
litigant can appoint his own judges.” Id. at 218.
“The rule of necessity governs this case not
because there is no replacement mechanism
but because the exercise of that mechanism,
controlled by one who is a party to the lawsuit,
would be clouded by grave fundamental [ ]
infirmity.” Id. (footnote omitted). The justice’s
reasoning was that because “there existted] no
constitutionally credible provision for postrecusal filling of vacant seats, the justices
ha[d] a duty to decide the controversy
notwithstanding their imputed lack of
impartiality.” Id. (emphasis omitted).
Further, in White v. Priest, 348 Ark. 135,
73 S.W.3d 572, 575 (2002), a case involving a
proposal to cap the salaries of all state
employees, the Arkansas Supreme Court

45a

recognized the applicability of the rule of
necessity because the Governor, who would
have otherwise appointed their successors,
“would have [had] the same or similar conflict
... the justices ha[d].”
Hooker v, Haslain, 393 S.W.3d 156, 167 n.8 (Tenn.
2012).
We have determined that the Rule of Necessity
applies based upon a review of Petitioner’s
remonstrance, which allegesThis
Petition
of
Remonstrance
essentially; (l) challenges unconstitutional
conduct of the judiciary and legal profession,
(2) challenges statutes as unconstitutional
that grant emolument,
provide false
immunity, or confound due process, and (3)
demands protections be provided THE
PEOPLE from unconstitutional conduct of the
judiciary and legal profession.
It is common sense that attorneys and
members of the BAR have a clear conflict of
interest pertaining to this remonstrance and
should willingly disqualify.
* 4e *

Make no mistake, the usurpation of
fundamental rights of due process and equal
protection have been usurped due to the
pecuniary interests of the legal profession. It is
common sense that statutes enacted that grant
emolument and unconstitutional immunity to
the legal profession were enacted for the

46a

pecuniary interests of the legal profession and
judiciary. This Petition of Remonstrance
demands correction of these unfortunate
circumstances, and attorneys and members of
the BAR have a clear conflict of interest and
should voluntarily disqualify.3
Petitioner’s remonstrance further alleges that*
In routine practice, throughout the courts
of Tennessee, judges in collusion with
attorneys and other agents and agencies of the
state, conspire to deprive rights and
perpetrate crimes under color of law with
impunity...
Compound the unconstitutional judicial
oversight of the judiciary - by the judiciary,
with the fact that the BAR and judiciary have
sole oversight of attorneys licensed by the
state, and who maintain seats in both
legislative houses, then there exists control of
two branches of government by a fraternity of
lawyers and judges in collusion.
Although our Supreme Court declined to apply
the Rule of Necessity in Hooker v. HasJam because
“Tennessee has constitutional and statutory
provisions which allow the Governor to appoint
‘special judges’ who would have no economic interest
in the subject matter of the litigation,” the facts in
the underlying case are distinguishable from those in
Hooker v. Haslam. Id, 393 S.W.3d at 168. In Hooker
3 These assertions in the remonstrance concern Petitioner’s
allegations with regard to grounds that Petitioner claims
require the recusal of any attorney who may be a member of the
House or Senate from deciding his remonstrance.
47a

v. Haslam, it was possible for the Governor to appoint
a special supreme court of persons not subject to the
infirmity alleged in that case. In the instant case,
Petitioner’s remonstrance does not merely call for the
impeachment of all judges. Rather, Petitioner’s
remonstrance alleges that all judges and attorneys
must be “reformed.” Given the allegations in
Petitioner’s remonstrance, there is no qualified pool
from which either the Chief Justice or our Governor
could appoint special judges to hear this appeal. As
such, we find that the Rule of Necessity applies, and
we the undersigned judges individually have decided
to decline to recuse from this appeal.4
D. MICHAEL SWINEY, CHIEF JUDGE
FRANK G. CLEMENT, JR., P.J., M.S.
ANDY D. BENNETT, J.

4 Pursuant to Rule 10B, § 3.02: “If a motion is filed seeking
disqualification, recusal, or determination of constitutional or
statutory incompetence of more than one judge of the
intermediate appellate court (“recusal motion”), and if the
recusal motion is denied by the judges in question, the
movant, within twenty-one days of entry of the order, may file
a motion for court review to be determined promptly by three
other judges of the intermediate appellate court who were not
subjects of the recusal motion, upon a de novo standard of
review. If there are not three judges of the intermediate
appellate court who were not subjects of the recusal motion,
then a motion for court review pursuant to this section
3.02(b) is not available; under such circumstances, the order
denying the recusal motion may be appealed pursuant to
section 3.02(c).” R. Sup. Ct. 10B, § 3.02(b).

48a

Appendix C
TENNESSEE COURT OF APPEALS
AT NASHVILLE OPINION
UPHOLDING CHANCERY COURT
MEMORANDUM & ORDER

49a

IN THE COURT OF APPEALS OF TENNESSEE
AT NASHVILLE
August 6, 2020 Session
FILED
09/17/2020
Clerk of trie
Appellate Courts

JOHN ANTHONY GENTRY V. FORMER
SPEAKER OF THE HOUSE GLEN CASADA ET
AL.
Appeal from the Chancery Court for Davidson
County No. 19-644-1 Patricia Head Moskal,
Chancellor
No. M2019-02230-COA-R3-CV

A citizen filed a petition of remonstrance with the
Tennessee General Assembly and then filed a
petition for writ of mandamus in chancery court
requesting that the legislative chambers be ordered
to hear and consider his petition of remonstrance.
The trial court dismissed the petition for writ of
mandamus on the basis that the petitioner was not
entitled to mandamus relief. We affirm.
Tenn. R. App. P. 3 Appeal as of Right* Judgment of
the Chancery Court Affirmed
ANDY D. BENNETT, J., delivered the opinion of the
Court, in which FRANK G. CLEMENT, JR., P.J.,
M.S., and W. NEAL MCBRAYER, J., joined.

50a

John Anthony Gentry, Goodlettsville, Tennessee,
pro se.
Herbert H. Slatery, III, Attorney General and
Reporter, Andree Blumstein, Solicitor General, and
Janet Irene M. Kleinfelter, Deputy Attorney
General, for the appellees, House Speaker, Senate
Speaker, Chief Clerk of the House, and Chief Clerk
of the Senate.
OPINION

FACTUAL AND PROCEDURAL BACKGROUND
In January 2019, John Anthony Gentry, a
Tennessee citizen, filed a petition of remonstrance
with the Chief Clerk of the Tennessee Senate and
the Chief Clerk of the Tennessee House of
Representatives (“the House”). The petition was
announced on the floor of both chambers on January
18, 2019, but the entire petition was not read before
either chamber. During February and March 2019,
Mr. Gentry met with various legislators and officers
of the General Assembly to discuss the petition and
his claim that he was entitled to have the petition
heard by the General Assembly. He also emailed a
copy of the petition to every member of both
legislative houses.
In May 2019, Mr. Gentry filed a petition for
writ of mandamus in the chancery court against
Former Speaker of the House Glen Casada,
Lieutenant Governor McNally, and the chief clerks
of the House and the Senate. The petition sought an
order mandating that the House and Senate clerks
“properly announce” the petition of remonstrance in
accordance with Senate Rule 22 and House Rule 15

51a

and an order requiring the Senate and House “to
hear and decide” the petition of remonstrance
pursuant to article 1, sections 1, 23, and 35 of the
Tennessee Constitution. The defendants filed a
motion to dismiss for lack of subject matter
jurisdiction and failure to state a claim upon which
relief can be granted.
Mr. Gentry subsequently filed an amended
petition for writ of mandamus asserting three causes
of action- (l) violation of a duty, pursuant to article
1, section 23, and article 10, section 1 of the
Tennessee Constitution, to properly present the
typewritten form of the Constitution to the public;
(2) violation of a duty, pursuant to article 1, section
23, and article 11, section 16 of the Tennessee
Constitution, to “receive and read Petitions at the
table”; and (3) pursuant to article 1, section 17 and
article 11, section 16 of the Tennessee Constitution,
conspiracy “to deny due course of law through abuse
of process and violation of local court and state rules
of procedure” and by tendering to the court “a
fraudulent and materially altered, counterfeit
version” of the petition of remonstrance. In addition
to the relief requested in the original petition, Mr.
Gentry asked that the Clerk of the Senate correct
the last phrase of article 1, section 23 of the
Tennessee Constitution on the General Assembly’s
website “to properly read ‘by address or
remonstrance.”’ Mr. Gentry later requested that the
case be tried before a jury.
In a memorandum and order entered on
September 11, 2019, the trial court denied Mr.
Gentry’s amended petition and dismissed the action.
The court ruled that Mr. Gentry was not entitled to
mandamus relief. He had “exercised the clear right

52a

he is granted under Art. I, § 23 to apply for redress
of his grievances by address or remonstrance.” As
the court explained, Mr. Gentry did not satisfy the
elements required to obtain a writ of mandamus.
Mr. Gentry had “no clear right to compel” the specific
acts he requested, and the General Assembly had no
“clear duty to perform the acts” he sought to compel.
Mr. Gentry filed a Tenn. R. Civ. P. 59 motion
to alter or amend and a motion to recuse the
chancellor, both of which the trial court denied. Mr.
Gentry then filed a motion to reconsider under Tenn.
R. Civ. P. 60, and the trial court denied that motion
on December 18, 2019.
On appeal, Mr. Gentry raises a number of
issues, which we restate as follows1.

2.

3.
4.

5.

Whether article 1, section 23 of the
Tennessee Constitution requires the
General Assembly to hear and decide a
petition of remonstrance filed by a citizen of
the state of Tennessee.
Whether Supreme Court Rule 10B, House
Rule of Order 15, and Senate Rule of Order
22 are repugnant to the state constitution
and violate or oppress constitutionally
protected rights.
Whether Mr. Gentry was denied due process
as a result of gross procedural errors.
Whether it was an abuse of discretion by the
trial court to involuntarily dismiss the case
while there was no operating motion to
dismiss before the court.
Whether the defendants and their counsel
can falsify evidence and make false
statements to a chancery court with
impunity.

53a

6.

Whether the state government has a duty to
present an accurate version of the
Tennessee Constitution to the public.
ANALYSIS

Mr. Gentry is representing himself on appeal,
as he did at the trial level. As a pro se litigant with
no legal training, Mr. Gentry is “entitled to fair and
equal treatment by the courts.” Young v. Barrow,
130 S.W.3d 59, 62 (Tenn. Ct. App. 2003) (citing
Whitaker v. Whirlpool Corp., 32 S.W.3d 222, 227
(Tenn. Ct. App. 2000); Paehler v. Union Planters
Natl Bank, Inc., 971 S.W.2d 393, 396 (Tenn. Ct.
App. 1997)). The following principles apply to pro se
litigants'
The courts should take into account that many
pro se litigants have no legal training and little
familiarity with the judicial system. However,
the courts must also be mindful of the
boundary between fairness to a pro se litigant
and unfairness to the pro se litigant’s
adversary. Thus, the courts must not excuse
pro se litigants from complying with the same
substantive and procedural rules that
represented parties are expected to observe.
Young, 130 S.W.3d at 62-63 (citations omitted); see
also Hessmer v. Hessmer, 138 S.W.3d 901, 903
(Tenn. Ct App. 2003). We grant pro se litigants “a
certain amount of leeway” in the preparation of their
appellate briefs. Hessmer, 138 S.W.3d at 903 (citing
Whitaker, 32 S.W.3d at 227; Paehler, 971 S.W.2d at
397). This means that courts “measure the papers
prepared by pro se litigants using standards that are

54a

less stringent than those applied to papers prepared
by lawyers.” Id. (citing Hughes v. Rowe, 449 U.S. 5,
9-10 (1980); Baxter v. Rose, 523 S.W.2d 930, 939
(Tenn. 1975); Winchester v. Little, 996 S.W.2d 818,
824 (Tenn. Ct. App. 1998)).
I.

Article 1, section 23—the right of petition.

The basis of Mr. Gentry’s petition of remonstrance
is article 1, section 23 of the Tennessee Constitution,
which statesThat the citizens have a right, in a
peaceable
manner,
to
assemble
together for their common good, to
instruct their representatives, and to
apply to those invested with the powers
of
government
for
redress
of
grievances, or other proper purposes,
by address or remonstrance.1

1 In Courtyard Manor Homeowners’ Ass’n, Inc. v. City of
Pelham, 295 So. 3d 1061, 1065 (Ala. 2019), the Alabama
Supreme Court interpreted a similar provision, § 23 of that
state’s constitution, which gave citizens the right “to apply to
those invested with the power of government for redress of
grievances or other purposes, by petition, address, or
remonstrance.” In that context, the Court stated: (footnote
continued next pg.)
Black’s Law Dictionary defines “remonstrance” as “[a] formal
document stating reasons for opposition or grievance.” Black’s
Law Dictionary 1549 (llth ed. 2019). Garner’s dictionary
defines “address,” a verb, as “to direct (a question, etc.) to
(someone).” Garner’s Dictionary of Legal Usage 20 (3d ed. 2011).
The use of the words “address” and “remonstrance” in § 25
merely denotes various methods of applying to the government
for the redress of grievances; this Court is not at liberty to

55a

As Mr. Gentry points out, Tennessee caselaw
contains little discussion of the right of petition
embodied in article 1, section 23—the right “to apply
to those invested with the powers of government for
redress of grievances ... by address or
remonstrance.” The right of petition is, however, “an
ancient right” and “the cornerstone of the AngloAmerican constitutional system.” Norman B. Smith,
“Shall Make No Law Abridging . .
An Analysis of
the Neglected, But Nearly Absolute, Right of
Petition, 54 U. CIN. L. REV. 1153 (1986).
Under Magna Carta, noblemen petitioned the
king to secure their rights. Smith, supra, at 1153.
Parliament used the Petition of Right to “gain
popular rights from the king,” and the people
eventually “used petitioning as the means to secure
their own rights against parliament.” Id. Thus,
“[t]he development of petitioning is inextricably
linked to the emergence of popular sovereignty.” Id.
The drafters of the United States Constitution
guaranteed the right of petition in the First
broaden the meaning of those words to impose on the government
a duty to hold a hearing or otherwise to respond, as Courtyard
Manor suggests. The right to petition or complain about
governmental action or inaction is clearly within the Alabama
Constitution! nothing can prevent citizens from asking their
government to consider a request. But, requiring a response, or
in this case mandating that a city hold a hearing, imposes a duty
that does not exist under our law. We must respect the
legislative function of governments and not intrude on their
separate, but coequal, power to decide when, where, and
whether to conduct hearings or respond to petitions. Legislative
inaction in this case is cured not by court intervention, but at the
ballot box.
Courtyard Manor, 295 So. 3d at 1065.

56a

AmendmentCongress shall make no law . . .
abridging . . . the right of the people
peaceably to assemble, and to petition
the Government for a redress of
grievances.
It should also be noted that “[vligorous
exercise of the right to petition has been associated
with forward strides in the development of speech,
press, and assembly.” Smith, supra, at 1179.
Mr. Gentry asks this court to determine
whether the right of petition includes the right to
have the legislature hear or consider his petition.
This question has been answered in the negative by
the United States Supreme Court. In Smith v.
Arkansas State Highway Employees, Local 1315,
441 U.S. 463 (1979), the state highway commission
refused to consider grievances by employees of the
Arkansas highway department unless the
employees submitted their complaints directly to a
designated employer representative. ,The district
court held that this procedure violated the First
Amendment by denying the employees’ union the
ability to submit grievances effectively on behalf of
the employees. Smith, 441 U.S. at 463. The Eighth
Circuit affirmed. Id. The Supreme Court granted
certiorari and reversed the judgment of the court of
appeals. Id. at 464. While recognizing that
procedures bypassing the union “might well be
unfair labor practices” if federal statutes applied,
the Court found no constitutional violation. Id. In
reaching this conclusion, the Court reasonedThe First Amendment right to associate and
to advocate “provides no guarantee that a

57a

speech will persuade or that advocacy will be
effective.” [Hanover Twp. Fed’n of Teachers v.
Hanover Cmty. School Corp., 457 F.2d 456,
461 (1972)]. The public employee surely can
associate and speak freely and petition
openly, and he is protected by the First
Amendment from retaliation for doing so ... .
But the First Amendment does not impose
any affirmative obligation on the government
to listen, to respond or, in this context, to
recognize the association and bargain with it.
Id. at 464-65 (citations and footnote omitted). The
union’s complaint was that the commission “refuses
to consider or act upon grievances when filed by the
union rather than by the employee directly.” Id. at
465. The Court concluded that the Constitution did
not prohibit such an “impairment.” Id. at 466. In the
Court’s view, “all that the Commission has done in
its challenged conduct is simply to ignore the union.
That it is free to do.” Id.i see also Minn. State Bd. for
Cmty. Colls, v. Knight, 465 U.S. 271, 286-87 (1984)
(citing Smith and upholding state public
employment labor statute restricting participation
in “meet and confer” sessions to union
representative).
In the Tennessee case of Vincent v. State, No.
01A-01-9510-CH-00482, 1996 WL 187573, at *1
(Tenn. Ct. App. Apr. 19, 1996), Ms. Vincent filed a
mandamus action to force state officials to include
on the ballot for the November 1994 election “a
question concerning the process of ‘initiation and
referendum’ (I & R).” The trial court granted the
defendants’ motion to dismiss for failure to state a
claim upon which relief can be granted. Vincent,

58a

1996 WL 187573, at *1. On appeal, the court found
no statutory or constitutional authority for citizens
to require that an issue be placed on a ballot. Id. at
*2. Responding to Ms. Vincent’s reliance upon
article 1, section 23 of the Tennessee Constitution as
a source of authority, the court stated that this
provision “guarantees the right of peaceable
assembly, to Instruct representatives, to ‘appfy to
officials for redress of grievances, or other purposes
‘by address or remonstrance.’” Id. Thus, the court
concluded, article 1, section 23 did not empower a
group of citizens to compel officials to place a certain
question on a ballot. Id.
This court addressed the right of petition
again in State ex rel. Potter v. Harris, No. E2007*
00806-COA-R3-CV, 2008 WL 3067187, at *1 (Tenn.
Ct. App. Aug. 4, 2008), a case involving a petition
for referendum to repeal a local options sales tax.
The relators circulated the petition for signatures
and submitted it to the county election commission
for certification and placement on the ballot. Harris,
2008 WL 3067187, at *1. Pursuant to the statutory
procedure, the commission checked the authenticity
of the signatures and the registration of the
signatories. Id. The commission determined that the
petition did not include enough valid signatures and
refused the relators’ demand for certification. Id. at
*1*2. The relators then filed a petition for writ
mandamus in chancery court to compel certification;
the petition included allegations that the
commission’s actions violated constitutional rights.
Id. at *2. The trial court granted summary judgment
in favor of the commission under an arbitrary and
capricious standard of review. Id. at *3.
One of the relators’ constitutional arguments

59a

on appeal was that the commission’s rejection of
signatures based upon the signers’ addresses or lack
of voter registration at the time of signing deprived
them of their right of petition under article 1, section
23 of the Tennessee Constitution. Id. at *8. The
court respondedWhile some states, e.g. Colorado and Arizona,
have provided for referendum in their state
constitutions, Tennessee has not done so. As
we noted in Vincent v. State, No. 01A*01*
9510-CH-00482, 1996 WL 187573 at *3 (Tenn.
Ct. App. M.S., filed April 19, 1996), “[t]he
Constitution of Tennessee conveys to the
three
designated
departments
all
governmental power of the state. It contains
no reservation to the people of the powers of
initiative or referendum.” And we do not
agree that either the cited Petition Clause of
the Tennessee Constitution or its federal
counterpart pertain to a petition to initiate a
referendum.
Tennessee
courts
have
recognized that Article I, § 23 of the state
constitution serves to protect the citizen’s
rights “to Instruct representatives [and] to
'apply to officials.” Vincent, at *2 (emphasis
added), and the U.S. Supreme Court has
construed the Petition Clause of the federal
constitution as a guaranty “that people ‘may
communicate their will’ through direct
petitions to the legislature and government
officials.” McDonald v. Smith, 472 U.S. 479,
482 (1976).
Id. at *9. Thus, the court found no violation of the
right of petition.

60a

Also instructive is a Maryland decision
interpreting a similar provision of that state’s
constitution. In Richards Furniture Corp. v. Board
of County Commissioners ofAnne Arundel County,
196 A.2d 621, 623-25 (Md. Ct. App. 1964), a
furniture company challenged the validity and
constitutionality of a legislative enactment
regulating its operations. The Maryland appellate
court rejected all of the company’s challenges,
including its assertion that the act violated
Maryland’s constitutional provision stating that
“every man hath a right to petition the Legislature
for the redress of grievances in a peaceable and
orderly manner.” Richards Furniture, 196 A.2d at
626; MD CONST. DECLARATION OF RIGHTS art.
13. The court stated that the constitution “does not
require that a hearing be held upon suggested
legislation.” Richards Furniture, 196 A.2d at 626.
Addressing the impact of article 13, the court
reviewed the history of the right ofpetitionThe right of petition first appeared in Magna
Carta, Chapter 61, and was incorporated in
the English Bill of Rights of 1689. Corwin,
Constitution, United States, 82 Congress, 2d
Session Senate Document No. 170, p. 805.
However, the meaning of the “right to petition
the Legislature for redress of grievances” can
best be understood in the context of the preRevolutionary period between the enactment
of the Stamp Act in 1765 and the Declaration
of Independence by the Colonies in 1776.
Morgan, The Stamp Act Crisis, pp. 53-70;
Rossiter, Seedtime of the Republic, 319. The
celebrated trial in 1734 of John Peter Zenger,
the newspaper editor and pamphleteer, for

61a

seditious libel had shown the colonists the
fate to be expected by outspoken critics of
British policy. Drinker, The Four Freedoms of
the First Amendment, p. 5. The suppression
by the British of written and spoken criticism
by the Colonists of British colonial policies was
one of the real fears of the period. Cooley, op.
cit. 498; 1 Blackstone; Commentaries (Lewis
ed.), 142(3). And the rights of the Colonists, as
Englishmen, to the freedom of speech, press,
assembly and petition were among the most
cherished rights of the citizens of that time. It
was in the light of this background that the
framers of the Declarations of Rights of the
original States and the Bill of Rights of the
Federal Constitution drafted the provisions
relating to the “right to petition” the
legislative branch of the government.
It is clear, we think, that the authors and the
people who actually adopted our Declaration
of Rights intended no more than to permit any
person or peaceable assembly of persons,
without fear of reprisal or prosecution, to
communicate directly with the legislative
body by way of a statement of grievances and
a petition requesting a correction of wrongs
previously committed. The appellant is
seeking herein not a right to petition for the
redress of an alleged grievance after the
passage of a law which it does not like, but the
right of a hearing and a right to petition
before the passage of the law. The right
guaranteed by Article 13 provides no
assistance to the appellant in this regard.
Id. at 626*27; see also Courtyard Manor

62a

Homeowners’ Ass’n, Inc. v. City of Pelham, 295 So.
3d 1061, 1064-65 (Ala. 2019) (holding that state
constitution’s right of petition did not require
legislative body to accept or reject citizens’ proposed
legislative initiative); Piekarski v. Smith, 153 A.2d
587, 592 (Del. 1959) (stating that, “[h]istorically, the
right of petition means just what it says- the right to
present to the sovereign a petition or remonstrance
setting forth a protest or grievance,” and that the
right does not include “the right to debate in person
or through counsel the subject matter of the
remonstrance”).
Under Tennessee law, a court may issue a
writ of mandamus only “where a plaintiffs right to
the relief sought has been clearly established, the
defendant has a clear duty to perform the act the
plaintiff seeks to compel, and ‘there is no other plain,
adequate, and complete method of obtaining the
relief to which one is entitled.’” Manhattan, Inc. v.
Shelby Cnty., No. W2006-02017-COA-R3-CV, 2008
WL 639791, at *1 (Tenn. Ct. App. Mar. 11, 2008)
(quoting Cherokee Country Club, Inc. v. City of
Knoxville, 152 S.W.3d 466, 479 (Tenn. 2004)). Even
if the plaintiff establishes a “clear legal right,” the
issuance of the writ remains within the discretion of
the trial court. Harris v. State, 34 S.W. 1017, 1022
(Tenn. 1896). As discussed above, Mr. Gentry does
not have a clearly established right to have his
petition heard or considered by either house of the
General Assembly.
In arguing that the General Assembly had a
clear duty to consider his petition of remonstrance,
Mr. Gentry points to House Rule of Order 15 and
Senate Rule of Order 22. House Rule of Order 15
states- “Before any petition or memorial addressed

63a

to the House shall be received and read at the table,
a brief statement of the contents of the petition or
memorial shall be filed with the Chief Clerk.” The
Senate rule is similar. Mr. Gentry interprets these
rules to mean that both chambers “have a duty to
receive and read petitions at the table.” We do not
agree.
Article 2, section 12 of the Tennessee
Constitution addresses the power of the legislature
to regulate itselfi
Each House may determine the rules of
its proceedings, punish its members for
disorderly behavior, and, with the
concurrence of two*thirds, expel a
member, but not a second time for the
same offence! and shall have all other
powers necessary for a branch of the
Legislature of a free State.
Our Supreme Court has interpreted this
provision to give the legislative houses the right to
make their own rules and to be the judge of those
rules.
State v. Cumberland Club, 188 S.W. 583,
585 (Tenn. 1916). The role of the courts is limited “to
ascertaining] whether the Constitution has been
complied with.” IdA see also Mayhew v. Wilder; 46
S.W.3d 760, 772-74 (Tenn. Ct. App. 2001). Thus, the
General Assembly had no duty to read at the table or
to hear and decide Mr. Gentry’s petition of
remonstrance.
In light of the absence of a clear right to have
his petition heard and no clear duty on the part of
the General Assembly to hear it, we conclude that
the trial court acted within its discretion in denying
Mr. Gentry’s petition for a writ of mandamus.

64a

II.

Constitutionality of Supreme Court Rule 10B
and House and Senate rules.

Mr. Gentry asserts that Supreme Court Rule
10B,2 House Rule of Order 15, and Senate Rule of
Order 22 are repugnant to the Tennessee
Constitution and violate or oppress constitutionally
protected rights.
Mr. Gentry did not raise these constitutional
arguments concerning the House or Senate
procedural rules until he filed his Rule 59.04 motion
to alter or amend the trial court’s final order denying
his amended petition. Motions pursuant to Tenn. R.
Civ. P. 59 “should not be used to raise new,
previously untried theories or to present new,
previously unasserted, legal arguments.” Local
Union 760 of Inti Bhd. of Elec. Workers v. City of
Harriman, No. E2000-00367-COA-R3-CV, 2000 WL
1801856, at *4 (Tenn. Ct. App. Dec. 8, 2000). The trial
court acted properly in declining to address Mr.
Gentry’s constitutional challenge.
With respect to Mr. Gentry’s challenge to the
constitutionality of Supreme Court Rule 10B, the
trial court declined to address the issue in part
because Mr. Gentry did not raise it until he filed his
reply brief on his Rule 60.02 motion. A reply brief
cannot be used to raise new issues. See TENN. R.
CIV. P. 7.02(1); Regions Fin. Corp. v. Marsh USA,
Inc., 310 S.W.3d 382, 392 (Tenn. Ct. App. 2009).
Moreover, “only the Tennessee Supreme Court may

2 Supreme Court Rule 10B concerns disqualification or
recusal of a judge, the subject of Mr. Gentry’s petition of
remonstrance.

65a

determine the facial validity of its rules.” Long v. Bd.
ofProfl Responsibility of the Supreme Ct. of Tenn.,
435 S.W.3d 174, 184 (Tenn. 2014). Thus, the trial
court
properly
declined
to
address
this
constitutional issue.
III. Due process issues.
Mr. Gentry further argues that he was denied
due process as the result of “gross procedural errors”
that allegedly occurred with respect to his original
petition for writ, of mandamus.
We begin with a review of the relevant
procedural history. The defendants filed a motion to
dismiss Mr. Gentry’s original petition for writ of
mandamus on June 7, 2019. On June 12, 2019, Mr.
Gentry filed a motion to strike the defendants’
motion to dismiss for failure to adhere to local rules.
After a hearing on June 21, 2019, the trial court
entered an order denying Mr. Gentry’s motion to
strike. On July 8, 2019, the trial court entered a
separate order based on the same hearing stating
that it reserved ruling on the defendants’ motion to
dismiss and requesting copies of caselaw cited by the
defendants. The court allowed Mr. Gentry additional
time to respond to the defendants’ supplemental
authority, “without further oral argument.” The
court then took the motion to dismiss under
advisement. On July 8, 2019, Mr. Gentry filed a
motion to alter the court’s order denying his motion
to strike.3 He filed a corrected and amended motion
3 A few days later, Mr. Gentry filed a motion to alter the July 8,
2019 order of the court regarding the motion to dismiss. The
trial court entered an order on July 10, 2019, entitled Order
Clarifying Order on June 21, 2019 Hearing. In this order, the
court clarified that “it is only the Court’s consideration of the
66a

to alter the same order on July 13, 2019.
On July 29, 2019, Mr. Gentry filed a motion
for leave to amend his petition for writ of mandamus.
The trial court heard Mr. Gentry’s motion to
alter the order denying his motion to strike on
August 16, 2019. Relying on the requirements of
Tenn. R. Civ. P. 12.06, the court found that Mr.
Gentry’s motion “was not directed to a pleading
containing an insufficient defense or a pleading
containing any redundant, immaterial, impertinent
or scandalous matter.” The court entered an order
on August 19, 2019, denying Mr. Gentry’s motion to
alter, which the court treated as a motion to revise
because the order at issue was not a final order.
On August 19, 2019, the trial court also
entered an order granting Mr. Gentry leave to file
his amended petition for writ of mandamus, which
was filed the same day.
Mr. Gentry’s argument regarding procedural
violations stems from the defendants filing their
motion to dismiss on June 7, 2019, and setting it for
hearing on June 21. According to Mr. Gentry’s
interpretation of the local rules, the motion should
not have been set for hearing until at least 37 days
after the filing date.4 We need not, however, decide
Motion to Dismiss that is ‘without further oral argument.”’ Mr.
Gentry thereafter struck his motion concerning the July 8,
2019 order.
4 Mr. Gentry bases his analysis on Davidson County local court
rule 26.03, which addresses motions for summary judgment.
See TENN. 20TH DIST. CT. RULES OF PRACTICE § 26.03.
It is only when a court chooses to consider evidence outside the
pleadings that a motion to dismiss is converted to a motion for
summary judgment. See Schodowski v. Tellico Vill. Prop.
Owners Ass’n, Inc., No. E2015-01145-COA- R3-CV, 2016 WL
1627895, at *8 (Tenn. Ct. App. Apr. 23, 2016). Local court rule
67a

how the local rules apply in this situation. The
motion to dismiss about which Mr. Gentry claims he
was denied due process was never ruled upon by the
trial court. Once Mr. Gentry filed his amended
petition, the original petition (and all related
motions) became moot. An amended petition
“supersedes and destroys the original complaint as a
pleading.” H.G. Hill Realty Co., L.L.C. v. Re/Max
Carriage House, Inc., 428 S.W.3d 23, 35 (Tenn. Ct.
App. 2013) (citing McBurney v. Aldrich, 816 S.W.2d
30, 33 (Tenn. Ct. App. 1991)).
The trial court properly rejected Mr. Gentry’s
due process argument.5
IV. Dismissal of amended petition without motion.
Mr. Gentry asserts that the trial court abused
its discretion in dismissing the amended petition for
writ of mandamus with no motion before the court.
Our Supreme Court has interpreted the
Tennessee Rules of Civil Procedure to allow a trial
court “under certain circumstances and upon
26.03 did not apply here because the trial court did not consider
the petition of remonstrance in ruling on the defendants’
motion to dismiss.
5 Mr. Gentry also argues that he was denied due process because
the trial judge was not impartial. Mr. Gentry did not raise this
issue until he filed a post-judgment motion to recuse. A litigant
must bring alleged errors to the attention of the trial court in a
timely manner in order to preserve those issues for appeal, and
“objections to the competency of the trial judge are deemed
waived if not raised before trial.” Woodsidev. Woodside, No. 01A-01-9503-PB00121,1995 WL 623077, at *9 (Tenn. Ct. App. Oct.
25, 1995) (Koch, J., concurring) (citing Dupuis v. Hand, 814
S.W.2d 340, 342 (Tenn. 1991); Grozier v. Goodwin, 69 Tenn. 125,
128 (1878)).

68a

adequate grounds” to “[s]ua sponte6 order the
involuntary dismissal of an action.” Harris v. Baptist
Mem’lHosp., 574 S.W.2d 730, 731 (Tenn. 1978). The
Court advised that “this power must be exercised
most sparingly and with great care that the right of
the respective parties to a hearing shall not be
denied or impaired.” Id. A trial court has the
authority to dismiss a case sua sponte for failure to
state a claim for which relief can be granted. See
Huckeby v. Spangler, 521 S.W.2d 568, 571 (Tenn.
1975).
To evaluate the actions of the trial court in the
present case, it is important to bear in mind that
mandamus is a “summary remedy” that is “to be
applied only when a right has been clearly
established.” Peerless Constr. Co. v. Bass, 14 S.W.2d
732, 733 (Tenn. 1929). A defendant is not obligated
to answer a petition for writ of mandamus “that does
not present a prima facie case to justify granting the
writ.” Jellicorse v. Russell, 1 S.W.2d 1011, 1012
(Tenn. 1928). As discussed above, the plaintiff must
establish a clear right to the relief sought and a
clear duty on the part of the defendant to perform
the requested act(s) to be entitled to a writ of
mandamus. See Manhattan, Inc., 2008 WL 639791,
at *1. In Cotten v. Tennessee Board of Paroles, No.
6 “Sua sponte” is Latin for “of one’s own accord;
voluntarily.” BLACK’S LAW DICTIONARY (llth ed.
2019). Black’s Law Dictionary defines the term to
mean- “[wlithout prompting or suggestion; on its own
motion.” Id. An example of its use is- “The court took
notice sua sponte that it lacked jurisdiction over the
case.” Id.

69a

M2001-00875-COA-R3-CV, 2002 WL 1484446, at *1
(Tenn. Ct. App. July 12, 2002), this court affirmed
the trial court’s sua sponte dismissal of a petition for
writ of mandamus “because mandamus was not the
appropriate remedy and the Petitioner was not in
custody of the State of Tennessee for the purposes of
parole revocation.” In the present case, the trial court
acted within its discretion in dismissing the petition
for a writ of mandamus sua sponte because, as
discussed above, Mr. Gentry could not establish a
clear right to the relief he sought or a clear duty on
the part of the defendants to perform the requested
acts. The trial court set out the reasons for its
decision in a detailed memorandum.
V.

Falsifying evidence.

Mr. Gentry frames this issue to be whether
the defendants and their counsel can falsify evidence
and make false statements to a chancery court with
impunity. The crux of his argument is that the
defendants attached a “falsified counterfeit version”
of his petition of remonstrance to the memorandum
in support of their motion to dismiss Mr. Gentry’s
original petition for writ of mandamus.
After the defendants filed their motion and
memorandum, Mr. Gentry filed a true copy of his
petition of remonstrance as an attachment to his
response to the defendants’ motion to dismiss and
supporting memorandum.7 On September 6, 2019,

7 In its September 11, 2019 order, the trial court
stated that the defendants attached to their
memorandum “a copy of the thirteen-page
Remonstrance, although the cover page of

70a

the trial court held a hearing on several of Mr.
Gentry’s motions, including motions for sanctions
under the Tennessee Rules of Civil Procedure and
Davidson County local court rules based upon his
assertion that the defendants and their counsel
“maliciously and materially altered and concealed
evidence” by attaching an “inaccurate and
incomplete” version of the petition of remonstrance
to their memorandum. In an order filed on
September 11, 2019, the trial court denied Mr.
Gentry’s motion for sanctions and supplemental
motion for sanctions.
Appellate courts review a trial court’s
imposition of sanctions pursuant to Tenn. R. Civ. P.
37 under an abuse of discretion standard. Amanns
v. Grissom, 333 S.W.3d 90, 98 (Tenn. Ct. App. 2010).
Likewise, we review a trial court’s ruling on a Rule
11 motion under an abuse of discretion standard.
Hooker v. Sundquist, 107 S.W.3d 532, 535 (Tenn. Ct.
App. 2002). A trial court abuses its discretion when
its decision “has no basis in law or fact and is
therefore arbitrary, illogical, or unconscionable.” Id.
(citing State v. Brown & Williamson Tobacco Corp.,
18 S.W.3d 186, 191 (Tenn. 2000)).
a. Spoliation.
Respondents’ exhibit was different from the cover
pages Mr. Gentry had exhibited to his mandamus
petition.” Mr. Gentry provided as an exhibit to his
memorandum “his 72-page Remonstrance,” “but
without approximately 700 additional pages of
appendices that he stated were filed with the
Remonstrance in the House and Senate.”

7la

In his motion for sanctions, Mr. Gentry
argued that the defendants should be sanctioned
under Tenn. Rs. Civ. P. 34A.02 and 37. Rule 37 of
the Tennessee Rules of Civil Procedure governs
sanctions for failure to make or cooperate in
discovery. Rule 34A.02 provides- “Rule 37 sanctions
may be imposed upon a party or an agent of a party
who discards, destroys, mutilates, alters, or conceals
evidence.” TENN. R. CIV. P. 34A.02. The trial court
rejected Mr. Gentry’s argument for alleged
spoliation of evidence for three reasons. First, there
was no spoliation of evidence. In Tatham v.
Bridgestone Americas Holding, Inc., 473 S.W.3d
734, 746-47 (Tenn. 2015), our Supreme Court
established the following factors to be considered by
a trial court in determining the sanctions, if any, to
impose for the spoliation of evidence(1)
the culpability of the spoliating
party in causing the destruction of the
evidence, including evidence of intentional
misconduct or fraudulent intent;
(2) the degree of prejudice suffered by
the non-spoliating party as a result of the
absence of the evidence;
whether, at the time the evidence
(3)
was destroyed, the spoliating party knew
or should have known that the evidence
was relevant to pending or reasonably
foreseeable litigation; and
(4) the least severe sanction available to
remedy any prejudice caused to the non­
spoliating party.

72a

The implication from these factors is that
spoliation requires the destruction of the evidence,
which did not occur in the present case. Because Mr.
Gentry provided the trial court with a copy of the
complete version of his petition of remonstrance, Mr.
Gentry suffered no prejudice. Moreover, the
defendants’ copy of the petition of remonstrance was
not submitted as evidence; it was an attachment to
a memorandum in support of a motion.
The second reason that the trial court rejected
Mr. Gentry’s spoliation argument was that, as
previously stated, the copy of the petition for
remonstrance
attached to the
defendants’
memorandum was not submitted as evidence. In
making their motion to dismiss for failure to state a
claim and lack of subject matter jurisdiction, the
defendants admitted the truth of all relevant and
material allegations in Mr. Gentry’s petition for writ
of mandamus. See Webb v. Nashville Area Habitat
for Humanity, Inc., 346 S.W.3d 422, 426 (Tenn.
2011). The attachment of the petition of
remonstrance served only to confirm that Mr.
Gentry filed such a petition with the clerks of the
House and the Senate.
Third, as discussed above, Mr. Gentry’s
original petition became moot when he filed his
amended petition for writ of mandamus.
b. Rule 11.
Mr. Gentry argued in a supplemental motion
for sanctions, filed on August 22, 2019, that the
defendants should be sanctioned under Tenn. R. Civ.
P. 11. This motion was heard on September 6, 2019.
Tennessee Rule of Civil Procedure 11.03(l)(a)
requires a party moving for sanctions under Rule

73a

11.02 to serve the motion upon the opposing party at
least 21 days before filing the motion with the court.
The trial court denied Mr. Gentry’s motion pursuant
to Rule 11 for his failure to comply with this “safe
harbor” provision. The court further noted the lack
of factual support for Mr. Gentry’s motions for
sanctions and the mootness of the defendants’
motion to dismiss in light of Mr. Gentry’s filing of the
amended petition.
We find no abuse of discretion in the trial
court’s denial of Mr. Gentry’s motions for sanctions.
VI. Copy of Constitution on website.
Finally, Mr. Gentry argues that the trial court
erred in failing to order the defendants to present an
accurate version of the Tennessee Constitution to
the public. This argument stems from the fact that,
when Mr. Gentry presented his petition of
remonstrance to the General Assembly, the
Tennessee Constitution on the General Assembly
website contained a typographical error so that
article 1, section 23 stated that citizens have a right
“to apply to those invested with the powers of
government for redress of grievances, or other
proper purposes, by address of remonstrance,”
instead of “address or remonstrance.”8 The trial
court ruled that, because the defendants have no duty
to display the Tennessee Constitution, the court had
no authority to order them to correct the version
8 According to Mr. Gentry’s brief, he learned of the correct
wording at a hearing on June 21, 2019. As of the date of the
filing of this opinion, the error remains on the General
Assembly website.

74a

If

f

*
I

V

J

posted voluntarily on the General Assembly website.
We find no merit in Mr. Gentry’s argument
that he is entitled to mandamus relief for the
General Assembly’s typographical error. As
discussed above, article 2, section 12 of the
Tennessee Constitution gives the legislature the
power to regulate itself and includes “all other
powers necessary for a branch of the Legislature of a
free State.” Pursuant to the doctrine of separation
of powers found in article 2, sections 1 and 2 of
the Tennessee Constitution, “‘The legislature has
unlimited power to act in its own sphere, except so
far as restrained by the Constitution of the state and
of the United States.’” Mayhew, 46 S.W.3d at 774
(quoting Bank of Commerce & Trust Co. v. Sen ter,
260 S.W. 144,146 (Tenn. 1924)).
Furthermore, as the trial court pointed out,
the General Assembly has no duty to display the
Tennessee Constitution. The official version of the
Tennessee Code, including the Constitution,
appears in volumes of Tennessee Code Annotated
certified by the Tennessee Code Commission. Tenn.
Code Ann. §§ 1-1-110-1-2-114. The General
Assembly is under no duty to perform the act of
correction requested by Mr. Gentry in his mandamus
action.
Thus, the trial court acted within its
discretion in dismissing Mr. Gentry’s petition for a
writ of mandamus. We would, however, encourage
the General Assembly to make the correction.
CONCLUSION
The judgment of the trial court is affirmed.
Costs of appeal are assessed against the appellant,

75a

John Anthony Gentry, for which execution may
issue if necessary.

ANDY D. BENNETT, JUDGE

76a

Appendix D
COURT OF APPEALS OF
TENNESSEE AT NASHVILLE
ORDER DENYING PETITION FOR
REHEARING

77a

IN THE COURT OF APPEALS OF TENNESSEE
AT NASHVILLE
JOHN ANTHONY GENTRY V. FORMER
SPEAKER OF THE HOUSE GLEN CASADA ET
AL.
Chancery Court for Davidson County No. 19-644T

No. M2019-02230-COA-R3-CV

ORDER
On September 25, 2020, the appellant, John
Anthony Gentry, submitted a petition for rehearing
pursuant to Rule 39 of the Tennessee Rules of
Appellate Procedure. Upon due consideration of the
petition, this court’s opinion filed on September 17,
2020, and the record, the motion is respectfully
denied.
Costs associated with the motion are assessed to the
appellant, John Anthony Gentry, for which
execution may issue if necessary.

PER CURIAM

78a

Appendix E
SUPREME COURT OF TENNESSEE
ORDER DENYING APPLICATION
FOR PERMISSION TO APPEAL

79a

IN THE SUPREME COURT OF TENNESSEE
AT NASHVILLE
FILED
01/13/2021
Clerk of the
Appellate Courts

JOHN ANTHONY GENTRY v. FORMER
SPEAKER OF THE HOUSE
GLENCASADAETAL.
Chancery Court for Davidson County
No. 19-644-1

No. M2019-02230-SC-R11-CV

ORDER
Upon consideration of the application for permission
to appeal of John Anthony Gentry and the record
before us, the application is denied.

PER CURIAM

80a

Appendix F

PETITION OF REMONSTRANCE
RECEIVED AND RECORDED IN
JOURNALS OF TENESSEE HOUSE &
SENATE
(Appendixes Omitted)

81a

3n t\)t <&nt Imnbreb Clebentf)
Congressional Session &
General Assembly <0f
VLi)t £>tate of Tennessee
JOHN ANTHONY GENTRY;
SIMILARLY AGGRIEVED CITIZENS OF
THE STATE OF TENNESSEE
ON PETITION OF GRIEVANCES OF THE PEOPLE &
CITIZENS OF THE STATE OF TENNESSEE FOR:
UNCONSTITUTIONAL & VOID STATUTES, FAILURE
TO ADDRESS GRIEVANCES; JUDICAL REFORM; RE­
INSTITUTION OF CONSTITUTIONALLY
GUARANTEED RIGHTS

PETITION OF REMONSTRANCE
JOHN A. GENTRY
208 Navajo Court
Goodlettsville, TN 37072
(615) 351-2649
john.a.gentry@comcast.net
suijuris

ORAL ARGUMENT DEMANDED

82a

INTRODUCTION
It is acknowledged that few, if any members of the
House and Senate, neither recognize that
fundamental rights are routinely denied for corrupt
purpose, nor comprehend the great harm and cost to
individuals and to society,
This unfortunate
circumstance is not the fault of any person, but the
result of passage of time causing us to forget the
lessons of our past, and a largely complacent and
uninformed society.
Fundamental rights of due process, equal
protection, and right to petition redress of grievance
caused by state officials have been usurped. The facts
proving this assertion are incontrovertible. These
rights are as precious to us as our right to bear arms,
and our right of free speech. Indeed, arguably more
so, as one cannot defend a right of free speech or right
to bear arms without the constitutionally protected
rights of due process, equal protection and right to
petition government for redress of grievances.
This Petition of Remonstrance DEMANDS
simple, lowcost or no-cost reforms be put in place to
ensure that fundamental principles of our form of
government, and fundamental rights be restored,
and that oversight of our judiciary in collusion with
attorneys who perpetrate crimes under color of law
be provided.

JURISDICTIONAL STATEMENT
This document is a FORMAL WRITTEN
PROTEST, and PUBLIC PETITION; a Petition of
Remonstrance as titled. Jurisdiction of the General
Assembly and One-Hundred
and Eleventh

83a

Congressional
Session
is
proper,
and
a
CONSTITUTIONALLY GUARANTEED RIGHT, as
provided for in THE CONSTITUTION OF THE
STATE
OF
TENNESSEE,
and
THE
CONSTITUTION OF THE UNITED STATES OF
AMERICA.
The procedure for address by
remonstrance is provided for in House and Senate
Rules and Mason’s Manual of Legislative Procedure.
Jurisdiction is proper in the General Assembly and
One Hundred and Eleventh Congressional Session as
follows:
Mason’s Manual of Legislative Procedure, § 518,
A Legislative Body Cannot Delegate Its Powers, §
518, fl affirms:
The power of any legislative body to enact
legislation or take final action requiring
the use of discretion cannot be delegated to
a minority, to a committee, to officers or
members, or to another body.
Constitution of the United States of America,
Amendment I affirms:
Congress shall make no law respecting an
establishment of religion, or prohibiting
the free exercise thereof or abridging the
freedom of speech, or of the press; or the
right of the people peaceably to assemble,
and to petition the government for a
redress of grievances.
Tennessee Constitution, Article I Declaration of
Rights, § 1 affirms:
That all power is inherent in the people,
and all free governments are founded on
their authority, and instituted for their

84a

peace, safety, and happiness; for the
advancement of those ends they have at all
times, an unalienable and indefeasible
right to alter, reform, or abolish the
government in such manner as they may
think proper.
Tennessee Constitution, Article I Declaration of
Rights, § 2 affirms:
That government being instituted for the
common benefit,
the doctrine of
nonresistance against arbitrary power and
oppression is absurd, slavish, and
destructive of the good and happiness of
mankind.
Tennessee Constitution, Article I Declaration of
Rights, § 23 affirms:
That the citizens have a right, in a
peaceable manner, to assemble together for
their common good, to instruct their
representatives, and to apply to those
invested with the powers of government for
redress of grievances, or other proper
purpose, by address of remonstrance.
Remonstrance is defined as follows:
A formal protest against the policy or
conduct of the government or of certain
officials drawn up and presented by
aggrieved citizens. Black’s La w Dictionary
5th Edition.
1. A presentation of reasons for opposition
or grievance. 2. A formal document stating
reasons for opposition or grievance, 3. A

85a

formal complaint or protest against
governmental policy, actions, or officials.
Black’s Law Dictionary 10th Editiond
Petition is defined as follows:
A written address, embodying an
application or prayer from the person or
persons preferring it, to the power, body, or
person to whom it is presented, for the
exercise of his or their authority in the
redress of some wrong, or the grant of some
favor, privilege, or license, A formal
written request addressed to some
governmental authority. The right of the
people to petition for redress of grievances
is guaranteed by the First Amendment,
U.S. Constitution. Black’s Law Dictionary
5th Edition.
A formal written request to a court or other
official body. Black’s Law Dictionary 10th
Edition.2
The House’s 110th Rules of Order, Rule No. 79
states that Mason’s Manual of Legislative Procedure
1 It is worth noting the change in definition of “remonstrance”
between the Fifth and Tenth Editions of Black’s Law dictionary.
Clearly, “drawn up and presented by aggrieved citizenis
language removed from the Tenth edition for corrupt purpose.
This change in definition reflects the sentiment of Thomas
Jefferson regarding the judiciary and legal profession! “...an
irresponsible body, working like gravity by night and by day,
gaining a little to-day & a little tomorrow, and advancing it’s
noiseless atom like a thief, over the Geld of jurisdiction..
National Archives^ Letter from Thomas Jefferson to C.
Hammond, August 18, 1821.
2 See footnote one [l] above.

86a

is to govern any question that may arise which is not
provided for in the House’s Rules of Order. Similarly,
Senate Rules of Order, Rule No. 71 provides the
same.
Mason’s Manual of Legislative Procedure. § 143
states that questions come before the body in any of
several different ways, including- Communications
or Petitions, and Requests or Demands.
Mason’s Manual of Legislative Procedure. § 148,
H 1, further establishes “The right of petition is
usually guaranteed in the constitution and presents
a means by which questions can be presented to a
legislative body§ 148, U 2, establishes the construct
of a petition, pursuant to which this petition
complies. § 148, H 3, states that- “ When the object of
a petition is for the COMMON INTEREST or good,
or for the redress of some public grievance, it is a
public petition.” This Petition of Remonstrance is a
PUBLIC PETITION given that it is presented for the
COMMON INTEREST of the Citizens and PEOPLE
of the State of Tennessee and to ensure their PEACE,
SAFETY, AND HAPPINESS.

ORAL ARGUMENT DEMANDED
Mason’s Manual of Legislative Procedure. § 148,
1 4, affirms- “A petition is presented to the body by
the petitioners themselves.”
§ 148, H 2, requires a petition be “addressed to the
legislative body in which it is to be presented...” Due
to the critical nature of this Petition of Remonstrance
and imperative of this body to address matters herein
stated, questioning the republican character of the
government of the State of Tennessee, this Petition
of Remonstrance is addressed to the One Hundred

87a

Eleventh Congressional Session & General Assembly
Of The State of Tennessee and must be heard by the
members qualified, of both the House and the Senate.
Again, Mason’s Manual of Legislative Procedure,
§ 518, A Legislative Body Cannot Delegate Its
Powers, H1 affirmsThe power of any legislative body to enact
legislation or take final action requiring
the use of discretion cannot be delegated to
a minority, to a committee, to officers or
members, or to another body.
Since it is a fact that this Petition of
Remonstrance is addressed to the General Assembly
and joint houses, and because of the magnitude of the
questions raised challenging the republican
character of the state, DEMANDING REFORM, and
the further procedural rule that a legislative body
cannot delegate its powers, and the still further fact
that redress of grievance by address of remonstrance
is a constitutionally protected right, it is
incontestable, that this Remonstrance must be heard
in joint session.
As established above, Citizens have an
unalienable and indefeasible right, at all times, to
reform or alter their government so as to preserve the
peace, safety, and happiness, and Citizens have a
right to redress of grievances by address of
remonstrance.
Further pursuant to Tennessee Constitution, Art
I, § 17, “all courts shall be open; and every man shall
have remedy by due course of law, and right and
justice administered without sale, denial, or delay.”
Since it is guaranteed in our constitution an
unalienable and indefeasible right to reform, or alter

88a

government, and Citizens have a right of redress by
address of remonstrance, and remedy by due course
of law, these guarantees require fair due process
which includes a right to be heard.
Herein,
Petitioner asserts this right and demands oral
argument before the full General Assembly, less
those disqualified due to their inherent conflict of
interest.
In the U.S. Supreme Court case, Mathews v.
Eldridge, 424 US 319 * Supreme Court 1976, our
Supreme Court stated?
The "right to be heard before being
condemned to suffer grievous loss of any
kind, even though it may not involve the
stigma and hardships of a criminal
conviction, is a principle basic to our
society." Joint Anti-Fascist Comm. v.
McGrath, 341 U. S. 123, 168 (1951)
(Frankfurter, J., concurring).
In Armstrong v. Manzo, 380 US 545, 552 Supreme Court 1965, the earlier Supreme Court
stated;
A fundamental requirement of due process
is "the opportunity to be heard." Grannis v.
Ordean, 234 U. S. 385, 394. It is an
opportunity which must be granted at a
meaningful time and in a meaningful
manner.
Fundamental elements of due process include a
right to be heard and present oral argument. In the
case, Goldberg v. Kelly, 397 US 254 - Supreme Court
1970, our Supreme Court of the United States stated
the following;

89a

In the present context these principles
require ... an effective opportunity to
defend by confronting any adverse
witnesses and bv presenting his own
arguments and evidence orally.
Therefore, and on premises considered, petitioner
hereby asserts his constitutional right of due process
and asserts right to be heard orally before the
General Assembly to whom this Petition of
Remonstrance is presented. Petitioner respectfully
demands that Senate and House Rules be adhered to,
including Mason's Manual of Legislative Procedure.
§ 148, H 4, and § 518, 1 1.
Oral Argument is sought before the General
Assembly only for the purpose of presenting why this
Petition Of Remonstrance should be carefully
considered. Due to the complexities of the matters
presented, only cursory evidence will be presented
herein and through oral argument. Further hearings
must be conducted so as to consider complete
evidence and proof of allegations and IMPERATIVE
OF REFORM and REDRESS.

DISQUALIFICATION OF MEMBERS
WITH INTEREST DEMANDED
Pursuant to Mason’s Manual of Legislative
Procedure, § 522, 1, It is the general rule that no
members can vote on a question in which they have
a direct personal or pecuniary interest and § 502
affirmsEvery member entitled to vote should be
counted in determining whether a quorum
is present, but members disqualified on
account of interest from voting on any

90a

question cannot be counted for the purpose
of making a quorum to act on that question.
Petitioner respectfully requests members of the
House and Senate who are also members of the BAR
or attorneys, or who have close familial ties who are
members of the BAR or attorneys, disqualify
themselves from consideration and voting on this
matter.
This Petition of Remonstrance essentially; (l)
challenges unconstitutional conduct of the judiciary
and legal profession, (2) challenges statutes as
unconstitutional that grant emolument, provide false
immunity, or confound due process, and (3) demands
protections be provided THE PEOPLE from
unconstitutional conduct of the judiciary and legal
profession.
It is common sense that attorneys and members
of the BAR have a clear conflict of interest pertaining
to this remonstration and should willingly disqualify.
As a perfect example, Petitioner recently met with
Representative Garrett, who is an attorney. During
the meeting, Petitioner informed Rep. Garrett of
DEMAND for audio/visual to be installed in all
courtrooms w/ live and recorded proceedings to be
made available to the public. Despite being a first
term representative, and having never served on the
Finance, Ways and Means Committee, and without
any idea of the potential cost, and likely without
knowledge of finance options available to the state,
and or, financial or budgetary resources available to
the state, Rep. Garrett quickly responded, “It costs
too mucH\
Without having basis for such a statement as, “It
costs too much”, strongly suggests a conflict of
interest, and a predisposition to ensure that courts

91a

are allowed to continue to conduct proceedings
without transparency.
Make no mistake, the usurpation of fundamental
rights of due process and equal protection have been
usurped due to the pecuniary interests of the legal
profession. It is common sense that statutes enacted
that grant emolument and unconstitutional
immunity to the legal profession were enacted for the
pecuniary interests of the legal profession and
judiciary. This Petition of Remonstrance demands
correction of these unfortunate circumstances, and
attorneys and members of the BAR have a clear
conflict of interest and should voluntarily disqualify.
Mason’s Manual of Legislative Procedure § 522, f
1 affirms:
It is the general rule that no members can
vote on a question in which they have a
direct personal or pecuniary interest. The
right of members to represent their
constituencies is of such major importance
that members should be barred from voting
on matters of direct personal interest only
in clear cases and when the matter is
particularly personal.
This rule is
obviously not self-enforcing and unless the
vote is challenged, members may vote as
they choose.
The phrase* “This rule is obviously not selfenforcing”. is clear. “Not self-enforcing” means it
falls to other members of the body to enforce the rule.
For any members of the body who are attorneys and
refuse to disqualify voluntarily, Petitioner implores
the other members of the House and Senate, to
challenge their vote pursuant to Mason’s § 522.

92a

The further phrase in § 522 that: “The right of
members to represent their constituencies is of such
major importance...” begs the questions: “Who
exactly is the constituency of the members of the
House and Senate who are also attorneys? Is their
constituency and loyalty to the BAR and judiciary or
WE THE PEOPLE?” This Petition of Remonstrance
is about reaffirming constitutionally protected rights
and is in COMMON INTEREST of all Tennesseans
who are not members of the legal profession or
judiciary. A member of the House or Senate, who is
also an attorney or member of the BAR, who refuses
to disqualify, and votes against DEMANDS herein
stated, evidences a member whose loyalty is to their
profession, and not to THE PEOPLE.

STATEMENT
This Petition of Remonstrance is presented on
behalf of the Citizens, PEOPLE, and government of
the State of Tennessee, in demand for return to the
republican principals upon which this state and our
nation were founded.
Testing whether THE
PEOPLE retain rights constitutionally protected, of
due process, equal protection, open courts, trial by
jury: and for redress of grievances against
government policy, and state officials. In the case,
United States v. Cruikshank, 92 US 542, 23 - Sup.
Ct, 1876 (at 553), the Supreme Court stated: “the
very idea of a government, republican in form,
implies a right ofits citizens to petition for redress of
grievances.”
Here before the One Hundred and Eleventh
Congressional Session and General Assembly for the
State of Tennessee is an opportunity to be recorded
in history as the legislative body that began a great

93a

healing
of our
State,
and
indeed
our
Republic.
Petitioner implores the qualified
members of the General Assembly to embrace this
opportunity and stand in defense of our Constitution
and Republic3.
Judges and state officials have been given
tremendous power. Preventing abuse of that power
is necessary to the imperative, to preserve the state’s
republican character, to ensure the physical,
emotional, and financial health and well-being of the
state’s Citizenry and PEOPLE, and to ensure overall
economic stability.
In the year 1822, Tennessee’s 3rd governor,
William Carroll4, stated to the general assembly- “A
well-regulated and independent judiciary is so
essential to the character of the State... that it has a
strong claim upon your attention at all times.” In
Tennessee today, there is no objective oversight of
our judiciary, and Tennesseans are routinely
subjected to federal law and rights violations, and
have no means to seek redress, and no means to
enforce constitutionally protected rights.
The government of the State of Tennessee has so
far departed from the principles upon which our
country was founded, the State has forsaken its
republican character5 and subjects its people to
3 U.S. Const., Art. IV, § 4- The United States shall guarantee to
every state in this union a republican form of government.
4 Governor Carrol is credited with initiating numerous legal
reforms.
6 Congress must necessarily decide what government is
established in the State before it can determine whether it is
republican or not. ..., the authority of the government under
which they are appointed, as well as its republican character, is
recognized by the proper constitutional authority. Luther v.
Borden, 48 US 1, 12 L. Ed. 581, - Supreme Court, 1849.

94a

despotism. The facts proving this assertion are
undisputed, and one need only consider objectively to
see this fact. In the case, Pacific States Telephone &
Telegraph Co. v. Oregon, 223 US 118, 32 - Sup. Ct.,
1912, our highest court stated... to afford no method of testing the
rightful character of the state government,
would be to render people of a particular
State hopeless in case of a wrongful
government, (at 146)
In routine practice, throughout the courts of
Tennessee, judges in collusion with attorneys and
other agents and agencies of the state, conspire to
deprive rights and perpetrate crimes under color of
law with impunity. Color of law is defined as followsThe appearance or semblance, without the
substance, of legal right. Misuse of power,
possessed by virtue of state law and made
possible only because the wrongdoer is
clothed with the authority of state, is action
taken under “color of law”. Black's Law
Dictionary 5th Edition.
These crimes routinely perpetrated upon THE
PEOPLE under COLOR OF LAW, include, but are
not limited to•

18 U.S.C § 241 - Conspiracy against rights;
If two or more persons conspire to injure,
oppress, threaten, or intimidate any person
in any in the free exercise or enjoyment of
any right or privilege secured to him by the
Constitution or laws of the United States,
or because of his having so exercised the
samel They shall be fined under this title or

95a

imprisoned not more than ten years, or
both;
•

18 U.S. Code § 242 - Deprivation of rights
under color of law Whoever, under color of
any law,..., willfully subjects any person in
any State, ... to the deprivation of any
rights, privileges, or immunities secured or
protected by the Constitution or laws of the
United States, ...shall be fined under this
title or imprisoned not more than one year

•

Tenn. Code Ann. § 39-14-112 - Extortion;
(a) A person commits extortion who uses
coercion upon another person with the
intent to- (l) Obtain property, services, any
advantage or immunity;

Respected members of the judiciary have warned
of the great peril we find ourselves facing today.
Speaking at a conference sponsored by the BAR at
Columbia Univ., as reported on May 28, 1977, by The
New York Times, Supreme Court Chief Justice
Warren E. Burger warned: “but the harsh truth is
that if we do not devise substitutes for the courtroom
processes, and do not do it rather quickly, we may
well be on our way to a society overrun by hordes of
lawyers, hungry as locusts, and brigades ofjudges in
numbers never before contemplated,
In his book, “THE FRATERNITY. Lawyers and
Judges in Collusion. Paragon House, 2004, endorsed
by Senator John McCain and other legislators and
dignitaries, The Honorable Judge. John Fitzgerald
Molloy tells us that the legal profession must change
lest chaos consume our courts.

96a

But, caution! If we are to move away from
the potentially fatal favoritism that the
Fraternity has achieved for itself, it will
require delicate tailoring because the
present system is still working - and, in
some respects, well. But, change course we
must, for we are on the “edge of chaos,” as
an objective observer of this system has
concluded.6
Changing course does not necessarily mean
throwing away a precious baby with the
bathwater. There is great good in parts of
our system - proven by our standard of
living and freedom from tyranny,
oppression, and discrimination.7 But the
legal system that achieved this is simply
not the same legal system that we have
today, as it has been massaged to the
benefit of the few - the Fraternity.
Changes as fundamental as now needed
should be achieved in increments8, keeping
always to the twin objectives of providing a
judicial system that will effectively reveal
the truth and that will discourage forces
6 Quoting from Mary Ann Glendon’s A Nation Under Lawyers,
(New York- Farrar, Straus & Giroux, 1995), p. 285
7 Judge Molloy wrote his book as a confessional, and was
published in 2004. Facts to be presented to the General
Assembly, will show that the legal profession and judiciary are
now today, acting in tyranny and oppression.
8 As Judge Molloy suggests- Changes as fundamental as now
needed should be achieved in increments.
The reforms
demanded as of right, and herein are just that - fundamental
and incremental, with some already guaranteed in our
constitution but usurped.

97a

that are anti-social, i.e., discourage
burglary, rape, murder, etc. And it is in
this category of the “anti - social” that the
dominance of our society by the Fraternity
should be placed.
This means that every opportunity should
be taken to sever the Fraternity into its two
constituent parts - lawyers and judges - so
as to deprecate the awesome strength that
it obtains by having the bench and the bar
as one fraternal organization,
This
separation should take place in as many
ways as possible and whenever possible.
The Fraternity “Lawyers and Judges in
Collusion” p. 227-228
Consider a judge who is a “jury of one”, easily
corrupted9, who often sees the same attorneys in case
after case, day in and day out, and often fraternizing
together outside the courtroom. Consider how that
circumstance alone facilitates attorneys and judges
in collusion, the opportunity to “strategize” in each
case for corrupt purpose, and especially with the
attorneys knowing the exact financial resources of
both parties - to the penny.
Add to that “recipe”, the legal profession’s solid
organization, high intelligence, and convenience of
unconstitutional statutes that provide them false
immunities, special privileges, and statutes and
court rules that confound due process and deprive
protected rights; and it becomes a simple matter for
attorneys and judges in collusion to “orchestrate”
proceedings, through various “dog-whistle” and cue
9 See Federalist Paper 83, written by Alexander Hamilton

98a

phrases, to extract all financial resources from the
parties. These unfortunate circumstances result in
“mock trials” which our founders declared an act of
tyranny in our Declaration of Independence.
Our courts are no longer on the “edge of chaos” as
quoted by Judge Molloy, but rather in a state of
chaos! Perjury is suborned of their clients by
attorneys so as to perpetuate vexatious litigation and
generate unnecessary billable hours.
Obvious
perjurious testimony is routinely used as basis of
decision, and when perjury is proven; perjury
statutes are not enforced, neither in the trial courts,
nor in our appellate courts. Our courts now serve the
primary purpose of generating as much revenue as
possible for the legal profession, without regard for
fairness or justice, causing great emotional, and
financial harm to the parties of the case, their
children, and to the economy overall.
Whether
by
design,
or
happenstance
accumulation of one unconstitutional circumstance
on top of another, our present society effectively finds
itself subject to a new “aristocracy” comprised of
members of the BAR, operating in the “practice of
law”, or from the bench, and/or from attorneys in
legislative seats,
This new “aristocracy”, in
character and form, (l) lobbies the legislature, (2)
enacts unconstitutional statutes for their own benefit
as members of the legislative bodies, (3) establishes
their own unconstitutional rules of procedure, to
complicate process and to confound due process, (4)
creates their own oversight agencies that do not
provide objective oversight and while operating in
the dark, (5) establishes ethical rules providing only
an illusion of ethical standards, all the while holding
themselves above the rules, ethical standards, and

99a

statutes the put in place - holding themselves above
the law. The BAR and the bench, in collusion, use
the convenience of the statutes they enact, and
control of the courts and oversight functions, to
violate rights and perpetrate crimes with impunity.
The facts proving these assertions are undeniable,
and one need only look with open eyes to know this is
true.
Oversight agencies, federal and state court
judges, all look the other way and conceal the
evidence of misconduct and operate in the dark. Law
enforcement and legislators always direct those
complaining of judicial misconduct to the agencies
that protect them through willful gross negligence,
thus aiding and abetting rights violations and crimes
perpetrated under color of law. The BAR and the
Judiciary lobby congress in violation of separation of
powers doctrine and infringe upon a right reserved to
the people. The statutes lobbied by the BAR and
judiciary are then enacted though non-quorum
consensus of BAR members that should disqualify
due to conflict of interest but never do. To compound
injury, attorneys and judges are the ones who draft
and edit the final language of our statutes, to suit
corrupted purpose.
Consider the wisdom of our founders who
included in our constitution, Art. II, § 26 stating: “No
judge of any court of law or equity, ..., shall have a
seat in the General Assembly.
Yet despite that
wisdom, we presently have judges in de facto
legislative seats in the Tennessee Board of Judicial
Conduct and Tennessee Code Commission,
performing the legislative function of providing
oversight of the judiciary and drafting legislation, a
power granted solely to the House and joint houses.

100a

Compound the unconstitutional judicial oversight of
the judiciary - by the judiciary, with the fact that the
BAR and judiciary have sole oversight of attorneys
licensed by the state, and who maintain seats in both
legislative houses, then there exists control of two
branches of government by a fraternity of lawyers
and judges in collusion.
Further consider the wisdom of our founders who
included in our Declaration of Rights, Art. I § 1, an
unalienable and indefeasible right to reform, alter or
abolish our government, Art. I § 6 an inviolate right
of trial by jury, Art. I § 19, an invaluable right to
speak, write, and print on any subject including the
official conduct of men in public capacity, Art. I § 23,
right to redress of grievance by address of
remonstrance, and Art. 5, Impeachments.
These protected rights and provisions set forth in
our constitution are why Thomas Jefferson declared
the Tennessee Constitution the “least imperfect and
most republican”.
These declared rights and
provisions were set forth in our constitution,
according to the wisdom of the founders, because
they learned from lessons of the past and knew these
eventualities would come to pass. These rights and
provisions are prima facie evidence of the need to
protect against tyranny and oppression of THE
PEOPLE by the judiciary. Our founders were so
concerned to preserve declared rights of THE
PEOPLE, they further declared in Tenn. Const., Art.
XI, § 16:
The declaration of rights hereto prefixed is
declared to be a part of the Constitution of
the state, and shall never be violated on
any pretense whatever. And to guard
against transgression of the high powers

101a

we have delegated, we declare that
everything in the bill of rights contained, is
excepted out of the general powers of the
government, and shall forever remain
inviolate.
Let us not pretend that rampant corruption does
not exist in our courts. Let us not pretend that judges
and attorneys are all saints and never deserving of
impeachment or discipline, despite the fact that
there has not been an impeachment of a judge since
1958 and little if any disciplinary action.
In
Federalist Paper 83, written by Alexander Hamilton“ The excellence of the trial by jury in civil cases
appears to depend on circumstances foreign to the
preservation ofliberty. The strongest argument in its
favor is, that it is a security against corruption.” Yet,
THE PEOPLE are routinely and unconstitutionally
denied trial by jury for the purpose of subjecting
them to the despotism and oppression of corrupted
court proceedings.
Tenn. Const. Art. I, § 17 states that all courts
shall be open but somehow the “administrative
courts” of the Tenn. Bd. Judicial Conduct and Board
of Professional Responsibility, and courts of record
such as the Ct of Appeals, all operate in the dark,
without public or legislative oversight, and
complaints and appellant briefs are kept
“confidential” or concealed from the public, thus
concealing the misconduct of attorneys and judges.
Without publicity, all other checks are
insufficient- in comparison of publicity, all
other checks are of small account.
Recordation, appeal, whatever other
institutions might present themselves in

102a

the character of checks, would be found to
operate rather as cloaks than checks; as
cloaks in reality, as checks only in
appearance. J. Bentham, Rationale of
Judicial Evidence 524 (1827). (at 569)
In the case, Richmond' Newspapers, Inc. v.
Virginia, 448 US 555 - Supreme Court 1980, Chief
Justice Burger, provided a comprehensive summary
of the history and value of open courts that included
the following;
The crucial prophylactic aspects of the
administration ofjustice cannot function in
the dark; no community catharsis can
occur if justice is "done in a corner [or] in
any covert manner." Supra, at 567. It is not
enough to say that results alone will satiate
the natural community desire for
"satisfaction."
A
result
considered
untoward
may
undermine
public
confidence, and where the trial has been
concealed from public view an unexpected
outcome can cause a reaction that the
system at best has failed and at worst has
been corrupted, (at 571 - 572).
Not only is there no objective oversight of the legal
profession and judiciary through “self-policing”,
there are no performance measurements whatsoever.
In corporate America, businesses meticulously
measure performance of employees and contractors
down to minute detail. Performance measurements
take many forms including customer satisfaction
surveys, manager evaluations, independent thirdparty surveys. Some leading-edge companies even

103a

utilize third-party blind surveys of employees on the
performance of upper management.
Where is the scorecard on judges? Where is the
measuring of performance of judges? There is none.
So even if the general public did engage in elections
of judicial officials, there is no information available
to the public to scrutinize, or with which to gauge if
they are voting for a knowledgeable and fair judge,
let alone one corrupted such as Casey Moreland,
recently sentenced in federal court, and who
remained on the bench despite multiple complaints
against him. How is the legislature able to manage
compensation and reward good judges, or how is the
legislature to make determination whether or not a
bad actor judge should be removed or impeached?
The legislature cannot, because the legal profession
and judiciary operate in the dark, without
transparency,
and
without
any
oversight
whatsoever. The current situation is a culmination
of circumstance that invites and propagates
corruption.
Not only is there a lack of self-policing, and lack
of performance measurement, but judges and
attorneys are corruptly held above the law. It is an
undeniable fact that attorneys will neither bring suit
on behalf of a non-legal professional, against another
member of BAR, nor against a member of the
judiciary, particularly when the suit arises out of
family or child custody court cases. It is also an
undeniable fact, as the proof will show, that both
state and federal judges, including state and federal
appellate court judges proactively and criminally
protect the criminal and unconstitutional conduct of
judges and attorneys for crimes and rights violations
perpetrated under color of law. This is yet another

104a

declared act of tyranny as aggrieved in our
Declaration of Independence!
Many of the grievances stated in our Declaration
of Independence are the same injustices to which
Tennessee litigants are routinely subjected. These
“long train of abuses and usurpations” provide sound
justification for demanding reform, just as the
grievances stated in our Declaration of Independence
justified our independence from Great Britain. To
name a few ... •
He has dissolved Representative Houses
repeatedly, for opposing with manly
firmness his invasions on the rights of the
people;
For protecting them, by a mock Trial, from
punishment for any Murders (crimes)
which they should commit on the
Inhabitants of these States;
For depriving us in many cases, of the
benefits of Trial by Jury;
For taking away our Charters, abolishing
our most valuable Laws, and altering
fundamentally
the
Forms
of our
Governments;
For suspending our own Legislatures, and
declaring themselves invested with power
to legislate for us in all cases whatsoever.
In an Executive Order, our President recognized
the harm caused by corruption as follows:
Human rights abuse and corruption
undermine the values that form an
essential foundation of stable, secure, and
functioning societies! have devastating

105a

impacts on individuals! weaken democratic
institutions! degrade the rule of law!
perpetuate violent conflicts! facilitate the
activities of dangerous persons! and
undermine economic markets. Executive
Order Blocking the Property of Persons
Involved in Serious Human Rights Abuse
or Corruption, December 21, 2017
These harms enumerated by our President, are
the exact same harms resulting of state court
corruption, and why reform is necessary. Since these
same harms enumerated by our President are the
same harms caused by corrupted state court
proceedings, hereto is imperative for this General
Assembly to take action.
Consider the phrase' “have devastating impacts
on individuals ” Recently many of the people of this
nation were captivated by the confirmation hearings
of our most recently appointed Supreme Court
Justice, Kavanaugh. As was widely publicized,
Justice Kavanaugh was forced to address
unsupported allegations made against him.
Again, let us not pretend, in courtrooms across
the state, litigant after litigant is the victim of
unsupported and false allegations used as basis for
decision, while the falsely accused is deprived due
process to prove allegations false. These decisions
are venal and intentional for the corrupted purpose
of vexatious litigation! knowing the wrongfully
accused will use the entirety of their emotional and
financial
resources
seeking
justice
(thus
perpetuating vexatious litigation). And again, even
when perjury and unsupported allegations are
proven false, our trial and appellate courts refuse to

106a

enforce perjury statutes in clear denial of equal
protection of the laws.
As one can well imagine, this vexatious and
corrupt litigation caused by the BAR and judiciary in
collusion, leads to substance abuse, suicide, and both
parties financially and emotionally bankrupt. In
family court cases particularly, spouses and the legal
system are weaponized with one parent wrongfully
alienated, causing extreme emotional and mental
damage to both the alienated parent and to the
children. Coupled with the fact that society shuns
victims, many become isolated from their support
network of friends and family.
How many more suicides must there be? How
many more to become addicted to substance abuse
before action is taken? How many more to be left
emotionally devastated and financially insolvent?
How many more children kept from loving parents?
How long will we pretend this problem does not exist
and how long will we continue to fail to recognize
simple corrective measures that can be put in place?
Or..., will we wait until it is too late, and the
damage cannot be undone..., the corruption too
entrenched?
Consider the phrase- “and undermine economic
markets” The result of persons emotionally and
financially devastated by court corruption has long
term adverse economic consequences,
Former
productive members of society and the workforce
become so emotionally devastated, it becomes
impossible for them to remain as productive as they
once were, and many lose their jobs. This emotional
devastation tears at the very fabric of our nation, not
only at an individual level, but economically as well.

107a

It is not uncommon for legal expenses in a lone
family court or divorce case to exceed hundreds of
thousands of dollars, with some divorce cases costing
families more than one-half million dollars
(+$500,000), as a result of monopolistic rates and
vexatious litigation. Very often, these cases drag on
for years for no other purpose than to slowly bleed
families of their wealth through contrived conflict.
This fact alone evidences a corrupt and broken legal
system. It should never, under any circumstance,
cost hundreds of thousands of dollars to divide up the
assets of two people getting divorced.
Moreover, with life savings depleted, and families
buried in debt, they can no longer provide for their
children as before, including a complete incapacity to
take advantage of college savings plans or pay for the
education of their children. This has even longer and
far-reaching adverse consequences to individuals
and to society.
Coupled with the resulting
dysfunctional behavior and PTSD caused by abuse of
the legal system, the fabric of our nation tears
irreparably.
It was conveyed to Petitioner by Attorney Sarah
Richter Perky, BPR No. 024676, that divorce cases
involving family businesses most always lead to the
closure of family businesses.
The proof will show
that this very often proves true, and that this failure
of family court system, results in lost jobs and loss of
revenue to the state. Clearly, if the result of
corrupted and or vexatious court proceedings leads to
the closures of businesses, this greatly harms our
economy and state budget. The lost sales tax revenue
alone from a small family business, that remits on
average $1,000 per month to the state is harmful to
the state. Compound that with the lost franchise and

108a

•

excise tax, and employer SUTA taxes, etc., amplified
by the number of businesses destroyed, and
compounded over time, and the lost revenue to the
state is significantly material costing the state
millions in lost revenue.
Further consider the lost sales tax revenue from
individual spending. According to the 2018-2019
Budget, fifty-four percent (54%) of the revenue of the
state budget is collected though state sales tax.
Excluding housing expenditures, effectively all
individual spending is spent on goods and services
subject to state sales tax. When individuals and
families are subjected to corrupted state court
proceedings, their life savings are first depleted, and
then they amass debt through personal loans and
credit cards to pay unnecessary legal expenses.
Many eventually become insolvent and are forced
into bankruptcy. Where before, much of their
disposable income was spent on goods and services
subject to state sales tax, after being subjected to
corrupted court proceedings, they no longer have
disposable income to spend on goods and services,
and all of their income then goes to debt payments
instead, adversely affecting sales tax revenue. Very
obviously, this is not a long-term sustainable
business model.
If the General Assembly wants to see first-hand,
the full ramifications of unchecked corruption and a
legal profession in control of two branches of
government, look to the State of California.
Presently there is a large migration of skilled and
professional labor from the State of California
because the standard of living in California, and
conduct of the state government there is no longer

109a

tenable to many California Citizens with many of
them coming to Tennessee.
Case in point, see Appendix M, which summarizes
California state statutes requiring a meal break if an
employee works more than five hours in a day. Also
see Appendix N, Chamber of Commerce summary of
California state statutes pertaining to meal and rest
breaks. As noted in Appendix N, “Meal and rest
break compliance continues to be the source of a
great deal oflitigation for California employers
It is common sense reasoning that the meal break
statute in California was not enacted due to an
outcry of the workforce being denied meal breaks by
their employers. No! Enactment of that statute was
the result of the legal profession lobbying the state
congress to create a “new product line” and tort for
the legal profession to effectively extort money from
businesses under color of law. The result of that
statute is costing business, both domestic and out-ofstate businesses, millions of dollars in unnecessary
legal expenses. This adversely affects the ability of
those businesses to invest in growth and to invest in
their workforce. This too materially impacts the
state budget by reducing taxable business income,
further reducing tax revenue to the state.
Again, it is common sense that it is not a
sustainable business model to continue to transfer
wealth from individuals and businesses to members
of the legal profession, pursuant to unconstitutional
statutes, and through rights deprivations and mock
trials conducted by attorneys and judges in collusion,
in litigation that serves no true purpose of law, but
only unnecessary and artificial conflict contrived to
generate revenue for the legal profession.

110a

Consider the root of the word attorney which is to
attorn. Black’s Law Dictionary defines the word
attorn as' To turn over> to transfer to another money
or goods’, to assign to some particular use or service.
Our present legal profession creates no value
(transforming raw materials into something of
value), sells no product desired by society. The
profession as it stands today, and for the most part,
merely transfers property, often unconstitutionally
and through rights deprivations.
It is common sense that to transfer wealth from;
(l) businesses that create value, (2) individuals that
innovate business (targeted high earners), (3)
Citizens that spend disposable income and generate
sales tax revenue, and then transfer that wealth to
legal professionals who do not create, innovate, or
drive the economy, is a non-sustainable business
model that contracts GDP for the state and nation.
As stated by Judge Molloy above, there are
essential functions of our judiciary and legal
profession; “keeping always to the twin objectives of
providing a judicial system that will effectively
reveal the truth and that will discourage forces that
are antisocial.” However, the legal profession all too
often encourages forces that are anti-social (extortion
under
color
of
law,
rights
deprivation,
unconstitutional
statutes
and
rules),
thus
“questioning whether a nation conceived in liberty,
and dedicated to the proposition that all men are
created equal, so conceived and so dedicated, can long
endure.10”
It is not contended that all court proceedings are
corrupted and certainly there is value in our legal
10 Paraphrase t lof the Gettysburg Address.
Ilia

system, and as also stated by Judge Molloy, we
should not throw out the baby with the bathwater.
However, the facts evidenced in appendixes and
further evidence to be presented, leave no doubt that
incremental changes must be made, and must be
made expeditiously.
Imagine a nation where justice is once again
ensured in our courts, and where cases are resolved
in a few months instead of years. Imagine, the
prosperity restored that caused our nation greatness.
Imagine this nation as conceived, once again an
inspiration to the world. The initial steps necessary
to achieve this are not difficult, cost little or nothing,
with some already constitutionally required. The
reforms and redresses sought herein are more than
reasonable and should be embraced. Frankly stated,
if the General Assembly does not also desire these
same reforms and redresses, evidences a General
Assembly that, like the judiciary, desires to protect
unconstitutional and criminal conduct and subjection
of THE PEOPLE to despotism and tyranny.
Tennessee Constitution, Article I, § 1 states that
power is inherent in THE PEOPLE. THE PEOPLE
are represented by members of the legislature and
primarily by the HOUSE. Has the power of THE
PEOPLE been usurped, and the power of their
legislatures rendered impotent by the power of the
BAR and judiciary? Is this how far we have fallen,
that republican principals, and the right to redress of
grievances has been forsaken? Say this is not true.
Prove this is not true through your actions, and
through proper hearing and consideration of this
Petition of Remonstrance.
Take proper action and void unconstitutional
statutes. Put into effect, reforms and redresses

112a

herein DEMANDED. Remove or impeach bad actor
judges.
Impeach one bad judge, and the legislature
representative of THE PEOPLE will have the
attention of the judiciary. Impeach all those herein
evidenced of their crimes, and this General Assembly
will not only have the attention of the judiciary, but
such constitutionally mandated action will shake the
foundation of corruption so profoundly, members of
the judiciary and legal profession will most certainly
give pause before further perpetrating crimes and
rights violations against WE THE PEOPLE.
Take back our republican form of government!
Adhere to your oaths! Stand in defense of your
constitution as you swore to do! Do so and other state
legislatures will follow your courageous example. Do
so and a great healing of our nation will begin to
commence.
Pursuant to Tenn. Const. Art X, § 2Each member of the Senate and House of
Representatives, shall before they proceed
to business take an oath or affirmation to
support the Constitution of this state, and
of the United States and also the following
oath-1
do solemnly swear (or affirm)
that as a member of this General Assembly,
I will, in all appointments, vote without
favor, affection, partiality, or prejudice;
and that I will not propose or assent to any
bill, vote or resolution, which shall appear
to me injurious to the people, or consent to
any act or thing, whatever, that shall have
a tendency to lessen or abridge their rights
and privileges, as declared by the
Constitution of this state.

113a

In Latin, the legal maxim - NON ESTARCTIUS
VINCULUM
INTER
HOMINES
QUAM
JUSJURANDUMtranslates approximately to: There
is no closer (or firmer) link among men than an oath.
The reforms and redress herein sought, restore
constitutionally protected rights, and provide for the
safety, happiness and well-being of the Citizens and
PEOPLE of the State of Tennessee.
If the General Assembly does not agree that court
proceedings should be available to the public via
livestream and recorded video, then the General
Assembly desires courts that operate in the dark, so
as to facilitate crimes and rights violations which is
in violation of oath of office. “It costs too much” is a
false argument based on the fact the state has
budgeted one-million dollars ($1,000,000) for grants
to the counties to enhance courtroom security.
If the General Assembly does not agree that all
litigants must be advised of their right of due process
and what due process is comprised of, then the
General Assembly desires that litigants remain
ignorant of their rights, so as to facilitate crimes and
rights violations which is in violation of oath of office.
If the General Assembly does not agree that
statutes that provide false immunities, grant
emolument, and/or that usurp constitutionally
protected rights should be voided, then the General
Assembly desires to protect rights violations, and
provide false immunities, and grant emoluments
which is in violation of oath of office.
If the General Assembly does not agree to retain
sole power of impeachment, then the General
Assembly desires unconstitutional transfer of power
to the judiciary, for oversight of the judiciary, which
is in violation of oath of office.

114a

If the General Assembly does not agree to
impeach judges evidenced of crimes perpetrated
against THE PEOPLE, then the General Assembly
desires to subject THE PEOPLE to try their cases
before judges evidenced of knowingly and willfully
depriving protected rights, and who commit crimes
under color of law for corrupted purpose.
These reforms and redresses are not to be feared,
but should embraced as lost republican principles.
The awesome power achieved by having the bench
and the bar as one fraternal organization is but a
house of cards, easily tumbled, by simply following
the instructions and safe guards provided to us by
our founders in our constitution. Your oaths require
this of you: and in your hearts, you know this
reformation must be achieved, lest our republic
ultimately fail.
To prove this, let fair and impartial legislators
consider facts and arguments of constitutional law as
follows!

STATEMENT OF FACTS & EVIDENTIAL
PROOF
The following documents prove that: (l) judges
and attorneys conspired to and perpetrated crimes,
and violated protected rights under color of law, (2)
there is no objective oversight of attorneys and
judges, (3) judges and attorneys are held above the
law in both state and federal courts.
These
documents (exhibits to Appendixes to be provided in
subsequent hearings), effectively prove allegations
and necessity of reform beyond reasonable doubt.
These Appendixes are detailed as follows:

115a

Appendix AThompson

Complaint to TBJC: Judge

Appendix B- Amended Verified ComplaintCivil Rights Violation Judge Thompson
Appendix C:
Wrongful Dismissal of
Complaint by TBJC
Appendix DState Court ComplaintFraud, Abuse of Process, Civil Conspiracy.
Atty Defendants- Pamela Anderson Taylor,
Brenton Hall Lankford
Appendix E: Federal Court Complaint:
RICO, Civil Rights & Reform. State of TN,
Atty Defendants: Taylor, Lankford, and
Perky
Appendix F: Supreme Court of United
States Motion To Disqualify All Supreme
Court Justices
Appendix G: Supreme Court of the United
States Petition for Writ of Certiorari: State
of TN, Atty Defendants: Taylor, Lankford,
Perky
Appendix H: Supreme Court of the United
States Petition for Writ of Certiorari:
Judge Thompson
Appendix I: Supreme Court of the United
States Petition for Rehearing:
Judge
Thompson
Appendix J: Supreme Court of the United
States Petition for Rehearing: State of TN,
Atty Defendants: Taylor, Lankford, Perky

116a

Appendix K: Supreme Court of the United
States Motion To Expedite
Appendix L:
Transcript of Taylor,
Lankford Fraud and Abuse of Process
Case; proving Judge McClendon conspired
to deprive rights through abuse of power
and fraud upon the court
Appendix O; Complaint & Supplemental
Complaint to Tenn. Bd of Prof.
Responsibility
Appendix P: Memorandum Evidencing
Conduct of Federal Magistrate Judge That
is Impeachable In Nature
Appendix Q:
Transcript of Court
Proceedings Proving Extortion Under
Color Law, and Violations of 18 U.S.C. §§
241 and 242
Appendix R: Affidavit of Truth Attesting to
Crimes Perpetrated Under Color of Law
Appendix A, B, C clearly evidence rights
violations defined as criminal conduct in 18 U.S.C.
§241 and §242 by Judge Thompson, ignored by the
T.B.J.C. and wrongfully dismissed by the U.S.
District Court, thus aiding and abetting those
violations and crimes.
Appendix D was a fraud and abuse of process
complaint against attorneys Pamela Anderson
Taylor and Brenton Hall Lankford wrongfully
dismissed by Judge Amanda McClendon through her
abuse of power, conspiracy to deprive rights, and her
intentional fraud upon the court and false
application of law. Any law student knows res

117a

judicata is no defense in a case with different parties,
different causes of action, and where no final
judgement had been rendered. Any law student
knows litigation privilege is no defense for fraud and
abuse of process. Clearly attorneys were held above
the law for crimes and tortious conduct, by Judge
Amanda McClendon with her knowing appellate
courts would affirm her wrongful dismissal in further
conspiracy. Appendix L is a transcript of proceedings
in that case, proving Judge McClendon conspired to
deprive rights.
Appendix E is a federal lawsuit filed under federal
RICO and Civil Rights statutes and as a reform cause
of action. Included in that lawsuit were Exhibits A
through W proving allegations beyond reasonable
doubt.
Appendix E proves Judge Thompson
conspired with attorneys to deny protected rights
and to perpetrate crimes. Appendix E and further
evidence to be provided proves Atty Sarah Richter
Perky conspired against her own client. Appendix E
and Third Cause of Action stated therein, evidences
the breakdown of state’s oversight agencies and
appellate court. When it was evidenced in the record
that the federal magistrate judge was conspiring
with the attorney defendants of the case and
engaging in conduct impeachable in nature, referral
to the magistrate was withdrawn and the case was
dismissed by Dist. Ct. Judge Trauger without
permitting intended response.
See Appendix P
evidencing conduct of federal magistrate judge
impeachable in nature.
Appendix F is a motion filed in the Supreme Court
of the United States and provides compelling
argument of the breakdown of our legal system, and
how the judiciary is provided false immunity, and

118a

how the judiciary fails to self-police resulting in
rights violations and crimes perpetrated by the
judiciary with impunity. Petitioner implores the
General Assembly to read this Appendix thoroughly.
Appendix G is a Petition for Writ of Certiorari
filed in the Supreme Court of the United States,
regarding the Complaint attached as Appendix E.
This writ proves wrongful dismissal of the case, and
that attorneys and judges are held above the law
even in our highest court. The case is docketed in
Ct
of
Sup.
U.S.
herehttps V/www.supremecourt.gov/search.aspx7filename
-Idocket/docketfiles/html/p ublic/18 -170. html
Appendix H is a Petition for Writ of Certiorari
filed in the Supreme Court of the United States,
regarding the Complaint attached as Appendix A.
This writ proves wrongful dismissal of the case, and
that judges are held above the law even in our
highest court. The case is docketed in Sup. Ct of U.S.
herehttps V/www.supremecourt.gov/search.aspx7filename
=/docket/docketfiles/html/public/17-1479.html
Appendixes I and J are Petitions for Rehearing
docketed in the Supreme Court of the United States.
These documents further prove that attorneys and
judges are held above the law, and the unwillingness
of the judiciary to hold judges and attorneys
accountable to federal civil and criminal statutes.
These documents further evidence that even the
justices of our highest court hold themselves above
the law. Take note of the last page of Appendix J
which is “Additional material from this filing is
available in the Clerk’s Office” That “additional
material” is actually a copy of the federal lawsuit
(Appendix E herein), concealed from public view by

119a

the Clerk’s Office of the Supreme Court of the United
States, so concealed to preserve FALSE PUBLIC
TRUST, and to hide the misconduct of the judiciary
and legal profession in collusion.
Appendix K is a motion filed in the Supreme
Court of the United States. That motion evidences
the fact that the Clerk’s Office of the Supreme Court
of the United States, corruptly concealed fourteen
(14) of seventeen (17) appendixes from public view.
See Appendix K, pages 9 - 15. Those fourteen (14)
appendixes were concealed from public view so as to
hide the criminal and unconstitutional conduct of
federal District Court and Circuit Court judges and
magistrates.
Appendix L is a transcript of proceedings in a
hearing of a case bringing suit against bad actor
attorneys Pamela Anderson Taylor and Brenton Hall
Lankford, for fraud, abuse of process, etc. That
transcript proves beyond any doubt whatsoever, that
the Judge Amanda McClendon conspired to deprive
due process, held attorneys above the law, and
committed fraud on the court through intentional
false application of law.
Appendix 0 are a complaint and supplemental
complaint filed with the Tennessee Board of
Professional Responsibility, proving that agency does
not provide objective oversight of attorneys.
Appendix P is a Memorandum filed in U.S.
District Court, Middle District Tennessee evidencing
conduct of a federal magistrate judge impeachable in
nature, conduct that was engaged in to protect
unconstitutional and criminal actions perpetrated by
bad actor attorneys, in an effort to hold them above
the law.

120a

Appendix Q is a transcript of court proceedings
proving Judge Woodruff conspired with Attorneys
Russ Heldman and Robert Todd Jackson to extort
more
than
one-hundred
thousand
dollars
(+$100,000) under color law, and violations of 18
U.S.C. §§ 241 and 242 by Judge Woodruff.
Appendix R is an uncontested affidavit of truth
attesting to crimes perpetrated under color of law, as
evidenced in Appendix Q. It is a criminal offense
write a false affidavit.
Since the affidavit is
uncontested and because the affiant was not arrested
for executing a false affidavit, it is clear the affidavit
is factually true. Morris v National Cash Register,
44 S.W. 2d 433 (Tex. Civ. App. 1931), the holding
clearly states that ‘uncontested allegations in
affidavit must be accepted as true\ Also, Group v.
Finletter, 108 F. Supp. 327 - Dist. Court, Dist. of
Columbia 1952, “Defendant has filed no counteraffidavit, and therefore for the purposes of the motion
before the Court, the allegations in the affidavit of
plaintiff must be considered as true, Federal Rules of
Civil Procedure, Rule 9(d)”. Federal Rules of Civ.
Procedure Rule 9(d): OFFICIAL DOCUMENT OR
ACT. In pleading an official document or official act,
it suffices to allege that the document was legally
issued or the act legally done.

REASONS FOR GRANTING THE
PETITION AND IMPLEMENTING
REFORMS
I.

Constitutionally Guaranteed Rights Are
Unenforceable In Any Court, Under Any
Circumstance

121a

The undeniable fact that constitutionally
guaranteed rights are no longer enforceable for
Tennesseans, alone provides sound basis for General
Assembly to redress grievances and implement
reforms. No matter the crime or rights violation,
Tennesseans cannot enforce their rights against
state court judges, even when only seeking equitable
relief, (l) If a citizen complains of rights violations
or crimes perpetrated against them by a state court
judge to The Tenn. Bd. of Judicial Conduct (TBJC),
the complaint is dismissed. The TBJC does not
dispute the fact that the TBJC dismisses 100% of
complaints filed by non*legal professionals. (2) If suit
is brought against the state court judge in state or
federal court, the state asserts that “sovereign
immunity” protects them in their official capacity
and so too are these cases dismissed, even when only
equitable relief is sought. (3) In both federal and
state courts, if suit is brought against a state court
judge in his personal capacity, the state asserts
“judicial immunity” protects them in their personal
capacity, and again, the courts always dismiss these
cases too, even when only equitable relief is sought.
(4) If suit is brought against the state for rights
violations perpetrated by a judge, the defense of
“sovereign immunity” is used as a false cloak to deny
enforcement of constitutionally guaranteed rights.
(5) If a Tennessean attempts to bring suit against a
“governmental entity” for rights or federal law
violations, the state has enacted unconstitutional
statute providing false and unconstitutional
immunity from suit (see below) as well the sovereign
immunity defense.
Similarly, redress is also unavailable for rights
violations and tortious conduct perpetrated by

122a

attorneys, as proven in Appendix D, E, G, J, L, and
O.
These undisputed facts leave no doubt that
Tennesseans are provided no means to redress
grievances against the state, its officials or attorneys
for rights violations and criminal conduct. This
further fact also provides sound basis for this
General Assembly to redress grievances and
implement reforms.
According to the Chief Clerk of the House of
Representatives, Ms. Tammy Letzler, the last time a
Remonstrance was submitted to Tennessee’s General
Assembly was in the year 1850. It should have never
become necessary for this Petitioner to Remonstrate
before this General Assembly. Your petitioner has
humbly sought the protection of his government and
redress through every possible channel, including
law enforcement agencies, oversight agencies, state
and federal courts, and even our highest court - all
in vain.
This matter brought before this General
Assembly, is quite simply, history repeating itself.
Have we not learned from the lessons of the past?
Does one not comprehend the similarities between
this matter and the causes of our founders that led to
our Declaration of Independence?
Consider the
words of Patrick Henry in his “Give me liberty or give
me death speech.”
Shall we try argument? Sir, we have been
trying that for the last ten years. Have we
anything new to offer upon the subject?
Nothing. We have held the subject up in
every light of which it is capable; but it has
been all in vain. Shall we resort to entreaty
and humble supplication? What terms

123a

shall we find which have not been already
exhausted? Let us not, I beseech you, sir,
deceive ourselves. Sir, we have done
everything that could be done, to avert the
storm which is now coming on. We have
petitioned; we have remonstrated; we have
supplicated; we have prostrated ourselves
before the throne, and have implored its
interposition to arrest the tyrannical hands
of the ministry and Parliament. Our
petitions have been slighted; our
remonstrances have produced additional
violence and insult; our supplications have
been disregarded; and we have been
spurned, with contempt, from the foot of
the throne. In vain, after these things, may
we indulge the fond hope of peace and
reconciliation. There is no longer any room
for hope. If we wish to be free, if we mean
to preserve inviolate those inestimable
privileges for which we have been so long
contending, if we mean not basely to
abandon the noble struggle in which we
have been so long engaged, and which we
have pledged ourselves never to abandon
until the glorious object of our contest shall
be obtained, we must fight! I repeat it, sir,
we must fight! An appeal to arms and to the
God of Hosts is all that is left us!
Already today, we see vigilante justice occurring
because THE PEOPLE have no means for redress of
grievances against state officials, particularly those

124a

involved in family court and child custody cases11. In
recent news, little covered by the media; a shootout
on the steps of a courthouse outside Chicago; eight
social workers and attorneys killed in a shooting
rampage in Arizona; and the all too common story of
a spousal suicide-murder that includes children.
How many more of these stories before proper action
is taken to address the underlying problem of
rampant court corruption and vexatious litigation?
Correlation can even be found in the school shootings
of which the entire nation is appalled, where the
shooters are the product of parental alienation and
vexatious litigation.
This is exactly the concern our president stated in
executive order, referenced above- “Human rights
abuse and corruption perpetuate violent conflicts!
facilitate the activities of dangerous persons.”
Rather than addressing the underlying problem
causing the need for courthouse security, which is
injustice served by corrupted court proceedings, the
state has budgeted one million dollars ($1,000,000)
for the single purpose of studying enhancement of
court security, which is in analogy, to prescribe an
aspirin for a headache caused by brain tumor. In his
book, THE FRATERNITY, Lawyers and Judges in
collusion, Judge Molloy noted that prior to corruption
of our legal processes, court security had been
unnecessary (Chapter 5, page 81). If further failure
of the government persists in failing to redress
11 It is important to note that petitioner does not have children,
and is not a victim parental alienation. As a result of his
advocacy, communicating with thousands of persons across the
nation, the pain of parental alienation, and criminal abduction
of children under color of law, studies evidence tremendous
emotional and mental damage to both parents and children.

125a

grievances, then eventually THE PEOPLE will find
themselves in the circumstance of our founders with
no choice but to abolish the government and start
over.
As also stated in Patrick Henry’s speech- “Ihave
but one lamp by which my feet are guided! and that
is the lamp ofexperience. I know ofno way ofjudging
of the future but by the past.” No person can predict
the future, but our present circumstance of
tyrannical courts can have but only one outcome,
which is reform either from within the government
or through THE PEOPLE, with the former being
preferred to the latter. Knowing the lessons of the
past, and through study of history, our present
circumstance suggests we are only one or two
generations away from large scale and organized
demand for reform. Why wait for such a tipping
point, when it remains within the power of the
legislature to begin implementing corrective
measures. Many lives can be saved, and our economy
strengthened, if proactive action is taken now.
The Constitution of Tennessee Guarantees
An Unalienable And Indefeasible Right To
Reform Government
The Const, of the State of Tenn., art. I, § 1 (See
Appendix Q) states;
II.

“That all power is inherent in the people,...
they have at all times, an unalienable and
indefeasible right to alter, reform, or
abolish the government in such manner as
they may think proper.”
In the case, Marbury v. Madison, 5 US 137, 2 L.
Ed. 60, 2 - Sup. Ct. 1803, quoting Blackstone: “it is a
general and indisputable rule, that where there is a

126a

legal right, there is also a legal remedy by suit, or
action at law,..." {at 163). Further in the Marbury
opinion, the Supreme Court states the people have
an original right to establish for their future
government, such principles as shall conduce their
own happiness, (id at 176, 179)
III.

The Doctrine of Nonresistance is “Absurd”
And The Intent Of The State’s Congress To
Encourage Reform Actions Is Clear
Considering Sections 1 and 2 of Article I of the
state’s constitution, the intent of the state’s
constitutional convention in 1870 was obvious in
establishing power inherent in THE PEOPLE and
duty to ensure a republican form of government.
Joshua W. Caldwell, author of STUDIES IN THE
CONSTITUTIONAL HISTORY OF TENNESSEE,
who had the “good fortune” to be acquainted with
members of 1870 convention, conveyed this fact in his,
book. 11 No Tennessean... fails to quote Mr. Jefferson’s
(Thomas) declaration that the Constitution was (<the
least imperfect and most republican of the state
constitutions.”
Tennessee Constitution, Article I, § 2 affirms:
That government being instituted for the
common
benefit,
the
doctrine
of
nonresistance against arbitrary power and
oppression is absurd, slavish, and
destructive of the good and happiness of
mankind.
Our Declaration of Independence states much the
same-

127a

But when a long train of abuses and
usurpations, pursuing invariably the same
Object evinces a design to reduce them
under absolute Despotism, it is their right,
it is their duty, to throw off such
Government, and to provide new Guards
for their future security.
“It is their duty,” “the doctrine ofnonresistance...
is absurd, slavish, and destructive of the good and
happiness of mankindUpon reading this
remonstrance, these words should have new and
profound meaning to this General Assembly.
Your
petitioner,
as
a
former
Force
Reconnaissance Marine, who served his country
honorably for more than eight years, well
understands duty to protect, preserve, and defend
the constitution..., as an American Citizen to ensure
our birthright, and as a veteran under sworn oath.
Frankly stated; every time a corrupted judge
colludes with an attorney to intentionally and
wrongfully deny fair due process, they spit upon the
graves of our fallen who gave their last full measure
to defend our constitution.
That is the purpose of this Petition of
Remonstrance... “that from these honored dead we
take increased devotion to that cause for which they
gave the last hill measure of devotion—that we here
highly resolve that these dead shall not have died in
vain—that this nation, under God, shall have a new
birth offreedom—and that government ofthe people,
by the people, for the people, shall not perish from
the earth.” —■ Abraham Lincoln
Your Petitioner did not choose this path, and has
no desire for this civic engagement with his
government..., but such is his duty as an American

128a

Citizen and according to his oath. To do otherwise
would be “absurd' slavish, and destructive ofthe good
and happiness ofmankind.”

TENNESSEE CODE COMMISSION MUST
BE DISOLVED AND CERTAIN
“STATUTES” REPEALED OR MADE VOID
All statutes challenged as unconstitutional and
complained of herein* (l) provide false immunities to
attorneys and members of the BAR, judges, state
officials, or “governmental entities” (2) were
“enacted” to confound due process for corrupted
purpose, or (3) were “enacted” for the benefit of BAR
members, certain professionals, and judges as
unconstitutional emolument. It is no surprise THE
PEOPLE are subjected to these constitutionally
repugnant “statutes” since members of the BAR are
writing legislation without oversight and without act
of congress in violation of the separation of powers
doctrine.
In October 2001, Justice Antonin Scalia,
speaking before the Senate Judiciary Committee on
the topic of the role of judges under the U.S.
Constitution stated*
“What is the reason you think that America
is such a free country, what is it in our
constitution that makes us what we are?
And I guarantee you that the response will
get is... the answer would be freedom of
speech, freedom of the press... those
marvelous provisions of the bill of rights.
But I tell them, if you think that a bill of
rights is what sets us apart, you’re crazy!

129a

Every Banana Republic in the world has a
bill of rights. ...just words on paper, what
our framers would have called a parchment
guarantee.
... The real key to the
distinctiveness of America is the structure
of our government ... the independence of
our judiciary... very few countries have two
separate bodies in the legislature, equally
powerful. ... It is the separation of powers
that is the main protection...”
https7/www.youtube.com/watch?v=Ggz_gd

--uoo&t

Indeed, this petitioner agrees with Justice Scalia,
due to the fact of the present circumstance of a single
branch of government of the legislature and judiciary
effectively controlled by the judiciary and legal
profession, has made the bill of rights, a worthless
parchment guarantee, wholly unenforceable. This
must stop. Separation of powers doctrine, and our
Declaration of Rights must be restored and made
enforceable.
Tenn. Code Ann. § 1-1-101
(a) There is created a Tennessee code
commission of five (5) members composed
of the chiefjustice of the supreme court, the
attorney general and reporter, a director of
the office of legal services for the general
assembly, and two (2) other members
appointed by the chief justice.
Tenn. Const. Art. II, § 26 affirmsNo judge of any court of law or equity,
secretary of state, attorney general,
register, clerk of any Court of Record, or

130a

person holding any office under the
authority of the United States, shall have a
seat in the General Assembly;
Tenn. Const., Art II, § 26 clearly affirms that NO
JUDGE, ATTORNEY GENERAL, or PERSON
HOLDING ANY OFFICE, shall have a seat in the
General Assembly, and yet here we have a “laundry
list” of persons specifically excluded from seats in the
General Assembly sitting in de facto legislative seats.
This fact is so repugnant to our form of government
and separation of powers doctrine, it frustrates
rational thought. The Tennessee Code Commission
must be dissolved, and T.C.A., Title 1 repealed or
rendered void. Indeed, since THE PEOPLE are
subjected to members of the judiciary having
unconstitutional “authority” to “edit” congressional
acts, the entire Tenn. Code Ann. must be reviewed
thoroughly to discern which parts are congressional
acts and which are not, and to further discern
whether “edits” circumvented the intent of congress.
Pursuant to Tenn. Code Ann. § 1-1-105
(a) The Tennessee code commission is
hereby authorized and directed to
formulate and supervise the execution of
plans for the compilation, arrangement,
classification,
annotation,
editing.
indexing, printing, binding, publication,
sale, distribution and the performance of
all other acts necessary for the publication
of an official compilation of the statutes,
codes and session laws of the state of
Tennessee of a public and general nature,
now existing and to be enacted in the
future,
including
an
electronically

131a

searchable database of such code, which
official compilation shall be known as
"Tennessee Code Annotated."
As referenced above in Tenn. Code Ann. § 1-1-101
and § 1-1-105, a chief justice (attorney), attorney
general (attorney), director of the office of legal
services (also likely an attorney), and members
appointed by the chief justice (also likely attorneys)
comprise the Tennessee Code Commission who are
“authorized” to annotate, “edit”, and compile
statutes, “coded’ and session laws.
Black’s Law Dictionary, Fifth Edition defines
terms as follows“Statutes” as acts of legislature declaring,
commanding, or prohibiting something.
“Statutes at Large” are an official
compilation of the acts and resolutions of
each session of congress. “
“Session laws” are statutes enacted by a
particular session of congress and a
“Session” is sitting of the legislature.
“Code” is defined as a systematic collection,
compendium or revision of laws, rules or
regulations.
Herein lies the problem in that members of the
judiciary and BAR “compiling” Tennessee Code
Annotated.
T.C.A. 1-1-105 clearly reads the
commission is authorized to compile statutes, “coded
and session laws for the state. This falsely asserts
the commission has the authority to compile, edit,
and annotate “coded’. This begs the question: “ What
are the ‘codes’ to be compiled and who creates the
‘codes’ and under what lawful authority?’ Black’s

132a

clearly defines “Code” (singular) as systematic
collection, compendium or revision of laws, rules or
regulations. Accordingly, “Code” is a compilation of
lawful acts of congress, while “coded’ are not
something to be compiled along with the lawful acts
of congress.
Essentially, T.C.A. 1-1-105 unconstitutionally
creates a commission who have unlawful authority to
compile “coded’, perhaps made up by themselves, and
who are “authorized” to “edit” and “annotate” acts of
congress. Clearly, the legislative authority of the
state is vested in the General Assembly consisting of
the Senate and House of Representatives, pursuant
to Tenn. Const. Art. II, §3. Who reviews the “editing
and annotating” of the attorneys and judges who
comprise the Tenn. Code Comm., and does the Tenn.
Code Ann. reflect the intent of Congress?
The first step that must be taken in determining
whether the “statutes” challenged and contained in
Tenn. Code Ann. are constitutional, is to first
determine if they were in fact acts of congress, and
whether the language reflects the intent of congress,
or whether some are merely “coded’ purported as
lawful statutes under color of law.
Moreover, it must also be determined whether or
not the legislature can lawfully delegate authority to
a commission comprised of attorneys and judges, who
have authority to “edit and annotate” and compile
“coded’ along with the lawful acts of congress.
Petitioner contends such authority cannot be
lawfully delegated as provided for in Tenn. Const. Art
II, § 3 and Mason’s Manual of Legislative Procedure,
§518,1(1.
Respectfully stated,
the legislature
has
apparently “authorized” five (5) persons, who are all

133a

likely attorneys or judges, the power to “edit and
annotate” lawful acts of congress and compile “codes”
created by who knows, along with acts of congress
and apparently so without any oversight whatsoever.
Considering T.C.A. 1-1-111, this is an awesome
but unconstitutional delegation of power(a)
Upon appropriate certification of
approval by the commission filed with the
secretary of state as provided in § 1*1*110,
the compilation in each volume and
supplement so certified shall be in force.
Therefore, pursuant to T.C.A. Tl-lll(a) above,
judges and attorneys as unelected members of the
commission certify their own “edits” to acts of
congress and they “shall be in fared’.
In
subparagraph (b) noted below, the commission’s
“certificate of approval” is prima facie evidence of the
statutory law of this state used in all courts,
agencies, etc., etc.
Esteemed Senators and Representatives, please
take pause and carefully consider the language“shall constitute prima facie evidence ofthe statutory
law ofthis state and be received, recognized, referred
to and used in all courts, agencies, departments,
offices ofand proceedings in the state as the official
compilation of the statutory law.” As we learned
above, “Statutes” are acts of legislature declaring,
commanding, or prohibiting something, As we
learned above, the commission has unlawful
authority to compile, edit, and annotate “codes” made
up by whom we don’t know. And we know that
“codes” are not session laws or statutes at large. This
language permits the commission to purport their

134a

“edits” and incorporated “codes”, under color of law12
as lawful acts of congress. As stated in T.C.A. 1-1111(b):
(b) The text of the statutes, codes and code
supplements (but not the annotations,
footnotes and other editorial matter)
appearing in the printed copies of the
compilation, containing a copy of the
commission’s certificate of approval, shall
constitute prima facie evidence of the
statutory law of this state and be received,
recognized, referred to and used in all
courts, agencies, departments, offices of
and proceedings in the state as the official
compilation of the statutory law, and may
be cited as Tennessee Code Annotated or by
the abbreviation "T.C.A."
The commission comprised primarily (if not
completely) of attorneys and judges, is further
granted the power to lobby the congress in T.C.A. §11-114 without registration as lobbyists as required in
T.C.A. Title 3, Chapter 6:
The commission may prepare and submit
to succeeding sessions of the general
assembly its recommendations for the
revision in substance and form or the
repeal or amendment of certain statutes or
any portion thereof, and submit bills for the
12 The appearance or semblance, without the substance, of legal
right. Misuse of power, possessed by virtue of state law and
made possible only because the wrongdoer is clothed with the
authority of state, is action taken under “color of law”. Black’s
Law Dictionary 5th Edition.

135a

accomplishment of such proposed revision,
repeal or amendment. T.C.A. §1-1-114
This is yet another violation of the separation of
powers doctrine in granting power to the Chief
Justice of the Supreme Court of Tennessee (and
members of the BAR), to lobby congress “for the
revision in substance and form or the repeal or
amendment of certain statutes or any portion
thereof, and submit bills for the accomplishment of
such proposed revision, repeal or amendment.
One can well imagine the outrage if Chief Justice
Roberts of the Supreme Court of the United States
made recommendations to U.S. Congress “for the
revision in substance and form or the repeal or
amendment of certain statutes or any portion
thereof, and submit bills for the accomplishment of
such proposed revision, repeal or amendment.” One
can also well imagine the outrage if Chief Justice
Roberts of the Supreme Court of the United States
were “editing” and compiling the lawful acts of the
U.S. Congress. Again, these facts are so repugnant to
our form of government and separation of powers
doctrine, it frustrates rational thought.
Petitioner has also recently learned that the
Executive Branch lobbies the General Assembly.
Petitioner encourages discussion as to whether or not
such lobbying violates the separation of powers
doctrine.
These facts further evidence declared acts of
tyranny as stated in our Declaration of
Independence.
For suspending our own Legislatures, and
declaring themselves invested with power
to legislate for us in all cases whatsoever.

136a

He has called together legislative bodies at
places unusual, uncomfortable, and distant
from the depository of their Public Records,
for the sole purpose of fatiguing them into
compliance with his measures.
“Legislative bodies at places unusual” is exactly
what the Tennessee code commission is and does.
The members of Tennessee Code Commission are
Reverse Practicing the Declaration of Independence.
Further now consider the language of Tenn.
Const. Art VI, § 1 which affirms:
The judicial power of this state shall be
vested in one Supreme Court and in such
Circuit, Chancery and other Inferior
Courts as the Legislature shall from time
to time, ordain and establish; in the judges
thereof, and in justices of the peace. The
Legislature may also vest such jurisdiction
in Corporation Courts as may be deemed
necessary. Courts to be holden by justices
of the peace may also be established.
Black’s Law Dictionary defines Judicial Power as
follows:
The authority vested in courts and judges
to hear and decide cases and to make
binding judgments on them: the power to
construe and apply the law when
controversies arise over what has been don
or not done under it.
As part of their judicial authority, the judiciary
may be called upon to make determination as to
whether an act of congress encoded in state statute
is constitutional or not. Since the Tennessee Code

137a

Commission (l) “is hereby authorized and directed to
formulate and supervise the execution of plans for
the compilation,
annotation, editing, ... of the
statutes, codes and session laws of the state of
Tennessee of a public and general nature, now
existing and to be enacted in the future,...” and
because (2) “...of the commission's certificate of
approval, shall constitute nrima facie evidence of the
statutory law of this state and be received,
recognized, referred to and used in all courts,..” and
further that, (3) “The commission may prepare and
submit to succeeding sessions of the general
assembly its recommendations for the revision in
substance and form or the repeal or amendment of
certain statutes or any portion thereof, and submit
bills...” renders the Chief Justice and Attorney
General incapable of one of their primary functions
which is to determine or defend the constitutionality
of state statutes.
T.C.A. 29*14-107, requires a person challenging
statute, ordinance, etc., to serve the attorney general
with a copy of the proceeding as follows29*14*107. Parties to proceedings.13
(a) When declaratory relief is sought, all
persons shall be made parties who have or
claim any interest which would be affected
by the declaration, and no declaration shall
13 It is worth noting the deceptive title of 29*14-107 “Parties to
proceedings” found under Chapter 14 Declaratory Judgments.
This further evidence deceptive practices to the Tennessee Code
Commission.
T.C.A. 29*14*107 (b) is routinely used by
corrupted courts to ignore statute “validity” or constitutionality
challenges for failure to adhere to a deceptively labeled
“statute” which may be one of the “codes” enacted under color of
law and purported to be a statute enacted by congress.

138a

prejudice the rights of persons not parties
to the proceedings.
(b) In any proceeding which involves the
validity of a municipal ordinance or
franchise, such municipality shall be made
a party, and shall be entitled to be heard,
and if the statute, ordinance, or franchise
is of statewide effect and is alleged to be
unconstitutional, the attorney general and
reporter shall also be served with a copy of
the proceeding and be entitled to be heard.
Again, the Chief Justice and Attorney General are
incapable of impartial constitutionality challenge of
state statutes due to being members of the
commission who “edit” and certify, propose bills, etc.
How possibly can the Chief Justice and Attorney
General provide impartial consideration as to the
constitutionality of state statutes if they are the ones
writing, editing and certifying the statutes? Again,
this confounds rational thought.
In the case, Peterson v. Peterson, 320 P. 3d 1244
* Idaho- Supreme Court 2014, Justice Eismann
provided a comprehensive analysis of what is code
and what is law and that the “The Idaho Code is not
the law. The code commission has no legislative
authority.”
In 1947, the legislature created the "1947
Idaho Code Commission" to consist of three
members of the Idaho State Bar who were
not holders of any public office or position,
were actively engaged in the practice of
law, and were to be appointed by the
governor from a list of seven qualified
persons whose names were submitted by

139a

the board of commissioners of the state bar.
Ch. 224, § 1, 1947 Idaho Sess. Laws 541,
543. The commission was "empowered,
directed and authorized to cause to be
edited, compiled, annotated, printed,
bound (including provision for insertion of
pocket supplements) and published the
existing codes and statutes of the State of
Idaho of permanent and general nature,
including enactments of the Twenty-Ninth
regular session of the Legislature." Id. Like
the prior compilations, upon completion,
publication,
and
approval
of the
compilation by the commission and a
proclamation by the governor announcing
its publication, the compilation was to be
received "as evidence of the statute law of
the State of Idaho." Ch. 224, § 7, 1947 Idaho
Sess. Laws 541, 546 (emphasis added).
The 1947 legislation provided that the
compilation completed by the 1947 Idaho
Code Commission would be known "by such
name as the Commission shall determine."
Ch. 224, § 7, 1947 Idaho Sess. Laws. 541,
545.
The Commission named the
publication it produced the Idaho Code. In
1949, the legislature adopted that as the
official name, Ch. 167, § 2, 1949 Idaho Sess.
Laws 355, 356, and it created a "continuing
code commission" to keep the Idaho Code
current without the necessity of forming a
commission to compile the statutes from
time to time, Ch. 167, §§ 1, 3, 1949 Idaho
Sess. Laws 355, 356-57. The legislation
authorized the "publication of pocket parts

140a

to the volumes of the Idaho Code, or as
necessary the republication of single or
more volumes, or the addition of volumes,
or by other devised designed and intended
to maintain the Idaho Code up to date." Ch.
167, § 1, 1949 Idaho Sess. Laws 355, 356.
The 1949 legislation provided that "the
Tdaho Code* published pursuant to Session
Laws of 1947, Chapter 224, shall be
received in all courts and by all justices,
judges, public officers, commission and
departments of the state government and
all others as evidence of the general laws of
Idaho then existing and in force and effect."
Ch. 167, § 9, 1949 Idaho Sess. Laws 355,
359 (emphasis added). That wording has
remained. I.C. § 73-209 (2006).
The Idaho Code is a compilation of laws
enacted by the legislature; it is not a
codification in the sense that the
legislature has enacted the contents of the
current version of the Idaho Code as the
laws of Idaho. "The present Idaho Code is a
compilation of laws, evidentiary, but not a
codification thereof." Golconda Lead Mines
v. Neill, 82 Idaho 96, 102, 350 P.2d 221, 224
(1960).
Thus, the compilation of statutes in the
Idaho Code is merely evidence of the laws
enacted by the legislature as set forth in
the session laws. The Idaho Code is not the
law. The code commission has no
legislative authority. Peterson v. Peterson,

141a

320 P. 3d 1244 - Idaho- Supreme Court
2014, (at 1249).
Pursuant to Mason’s Manual of Legislative
Procedure, § 16, Fraud Will Invalidate ActsWhere there is more than a mere technical
violation of the rules of procedure, the
violation may invalidate the act, and an act
will be invalidated where there is fraud or
bad faith.
It is the personal observation of Petitioner, who is
a Certified Public Accountant, that the Tennessee
Code Annotated is compiled in such a manner for the
purpose of deception. Petitioner alleges that the
titles of statutes are intentionally misleading so as to
deceive the public and confound the layperson.
Petitioner alleges the “statutes” as detailed and
compiled are not all lawful acts of Congress, but
“codes” created and compiled by the commission,
deceptively purported to be acts of congress.
These statutes may be void at the outset because
they were enacted by a non-quorum of members of
the bodies comprised of members who should have
been disqualified from vote14. The statutes herein
challenged as unconstitutional were enacted not
through mere “technical violation” but by non­
quorum legislative bodies comprised of members that
should have disqualified due to a clear conflict of
interest and bad faith and a commission unlawfully
empowered to “edit” lawful acts of congress and the
power to lobby congress without registration.
Furthermore, the commission is unlawfully
14 This is assuming the vote would not have carried without
the vote of members that should have disqualified.
142a

comprised of and chaired by the Chief Justice of the
Tennessee Supreme Court, and Attorney General,
both of whom are specifically excluded from seats in
the General Assembly, including their present de
facto seats. Therefore, regardless of whether these
statutes are unconstitutional, they are invalidated by
major procedural error and bad faith.
Attorney members of the body, being well
educated in procedural, ethical, and statutory and
constitutional provisions, know full well they should
disqualify from any vote in which they have an
interest. Mason’s Manual of Legislative Procedure,
§ 502 clearly states members of the body disqualified
on account of interest should not be counted in
computing a quorum. Furthermore, § 522 affirms- “It
is the general rule that no members can vote on a
question in which they have a direct personal or
pecuniary interest.” In the case, Wilson v. Iowa City,
165 NW 2d 813 - Iowa: Supreme Court 1969; “We
have held in several cases a vote contrary to a conflict
ofinterest rule is void, but in each case the vote was
necessary to the passage of the resolution.” In the
case, Williams v. State, 315 P. 2d 981 ■ Ariz- Supreme
Court
1957: quoting Dillon on Municipal
Corporations, § 444:
"One who has power, owing to the frailty of
human nature will be too readily seized
with the inclination to use the opportunity
for securing his own interest at the expense
of that for which he is intrusted. * * * The
law will in no case permit persons who have
undertaken a character or a charge to
change or invert that character by leaving
it and acting for themselves in a business

143a

in which their character binds them to act
for others."
One can reasonably question whether members of
the BAR should be allowed to sit in legislative seats
at all. Tenn. Const. Art. II, § 26 affirms1
No judge of any court of law or equity,
secretary of state, attorney general,
register, clerk of any Court of Record, or
person holding any office under the
authority of the United States, shall have a
seat in the General Assembly) nor shall any
person in this state hold more than one
lucrative office at the same time) provided,
that no appointment in the Militia, or to
the Office of Justice of the Peace, shall be
considered a lucrative office, or operative
as a disqualification to a seat in either
House of the General Assembly.
Petitioner contends the judiciary has unlawfully
taken control over the licensure of attorneys, and
that control of licensure provides the judiciary
control of the legal profession, and control over the
licensure of attorneys who are sitting in legislative
seats. Having this unlawful authority15 over the
licensure of attorneys, provides opportunity and
power to the judiciary to coerce votes of attorney
members of the houses of the General Assembly in
violation of Tenn. Const. Art. II, § 26 through
potentially de facto legislative seats and in further
violation of the separation of powers doctrine.
In 1916, the United States Supreme Court
affirmed in opinion, that a law “must be construed, if
15 Lawful authority further discussed below.

144a

fairly possible, so as to avoid not only the conclusion
that it is unconstitutional, but also grave doubts
upon that score.” United States v. Jin FueyMoy, 241
US. 394, 401, Sup. Ct. (1916); see also Clark v.
Martinez, 543 US. 371, 380-81. Sup. Ct. (2005).
Here, there is no “grave doubt”. The below listed
state statutes are in violation of multiple
constitutional provisions and principles.
In Federalist No. 43, in consideration of Article I
§ 9, U.S. Constitution, James Madison asked- "But
who can say what experiments may be produced by
the caprice of particular States, by the ambition of
enterprising leaders...?" Today, we have one answer
to that question... Clearly members of BAR have
successfully lobbied state Congress, effectively
lobbied themselves, to enact a statute granting
special privilege and false immunities to themselves,
in violation of state and federal constitutions.
As further stated by James Madison in Federalist
43:
"In a confederacy founded on republican
principles, and composed of republican
members, the superintending government
ought clearly to possess authority to defend
the system against aristocratic or
monarchial
innovations.
The
more
intimate the nature of such a union may be,
the greater interest have the members in
the political institutions of each other; and
the greater right to insist that the forms of
government under which the compact was
entered into should be SUBSTANTIALLY
maintained. But a right implies a remedy;
and where else could the remedy be
deposited, than where it is deposited by the

145a

Constitution? Governments of dissimilar
principles and forms have been found less
adapted to a federal coalition of any sort,
than those of a kindred nature. "As the
confederate republic of Germany," says
Montesquieu, "consists of free cities and
petty states, subject to different princes,
experience shows us that it is more
imperfect than that of Holland and
Switzerland. " "Greece was undone," he
adds, "as soon as the king of Macedon
obtained a seat among the Amphictyons."
In the latter case, no doubt, the
disproportionate force, as well as the
monarchical form, of the new confederate,
had its share of influence on the events. It
may possibly be asked, what need there
could be of such a precaution, and whether
it may not become a pretext for alterations
in the State governments, without the
concurrence of the States themselves.
Indeed, at the time of the founding, it was obvious
to the members of our new Republic to repudiate, and
guard against, a government comprised of
monarchial or aristocratic rule and privileged
persons. “ What need there could be of such a
precaution?' Today, we now know the need of that
precaution and why Article I § 9, U.S. Constitution
was included in our federal constitution and Art. I, §
30 of our state constitution. Fortunately, having
suffered the grievances detailed in our Declaration of
Independence, our founding fathers included in the
constitution, the emoluments clause, constitutionally
protected rights, and other provisions, and we need

146a

only look to our past history to know well why such
privileges should be vehemently guarded.
Moreover, the conduct of the legislature is in
violation of oath of office, and contrary to the well­
being of the people, and in violation of both state and
federal constitutions. The Const, of the State of
Tenn., Art. X. § 2 states!
Each member of the Senate and House of
Representatives, shall before they proceed
to business take an oath or affirmation to
support the Constitution of this state, and
of the United States and also the following
oath: I
do solemnly swear (or affirm)
that as a member of this General Assembly,
I will, in all appointments, vote without
favor, affection, partiality, or prejudice!
and that I will not propose or assent to any
bill, vote or resolution, which shall appear
to me injurious to the people, or consent to
any act or thing, whatever, that shall have
a tendency to lessen or abridge their rights
and privileges, as declared by the
Constitution of this state.
Most certainly the statutes complained of herein
are injurious to the people, usurping their
guaranteed rights to bring suit against the state and
seek redress for false arrest, malicious prosecution,
civil rights violations, etc., etc. Tenn. Const. Art I §
17, states all courts shall be open for an injury done
him in his lands, goods, person, or reputation.
I.

State Statute Providing Unconstitutional
Immunity - TCA 29-20-205! Governmental
Tort Liability, Actus repugnans non potest in
esse produci

147a

State statute, Tennessee Code Annotated (TCA)
29-20*205 is repugnant to the principles upon which
our Republic was founded.
This law is selfincriminating, and prima facia evidence that the
state must be required to reform. Knowing that
conduct such as;
“gross negligence, false
imprisonment pursuant to a mittimus from a court,
false arrest, malicious prosecution, intentional
trespass, abuse of process, libel, slander, deceit,
infliction ofmental anguish, invasion ofprivacy, civil
rights violations, and malicious prosecution without
probable cause/' should all be anomaly conduct by
governmental entities, this begs the question- “ Why
would the State enact in statute, and provide
immunity for conduct that should be an anomaly...,
conduct for which redress should be available?” The
only answer to this question is that this conduct by
state officials and “governmental entities” is not the
occasional anomaly, but common occurrence, and the
state seeks to protect its corrupt activities by
unlawfully preventing suits against the state
through the enactment of unconstitutional law.
Perhaps it is further true that the Tenn. Code Comm,
“edited” lawful acts of congress to circumvent the
intent of congress?
The purpose of our legal system is to prevent not
punish crime. By enacting TCA 29-20*205, the state
removes all deterrent for such conduct. For the state
to nullify deterrent law by enacting a law providing
unconstitutional immunities, and then through its
oversight agencies to grossly and negligently dismiss
all complaints made against state court officials,
demonstrates a profound necessity of reform.
Most certainly TCA 29*20-205, is injurious to the
people, usurping their guaranteed right to bring suit

148a

against the state and seek redress for false arrest,
malicious prosecution, civil rights violations, etc., etc.
Tenn. Const. Art I § 17, states all courts shall be open
for an injury done him in his lands, goods, person, or
reputation. TCA 29-20-205 usurps this right for
redress of harms caused by state agencies.
In 1916, the United States Supreme Court
affirmed in opinion, that a law “must be construed, if
fairly possible, so as to avoid not only the conclusion
that it is unconstitutional, but also grave doubts
upon that score? United States v. Jin FueyMoy, 241
US. 394, 401, Sup. Ct. (1916% see also Clark v.
Martinez, 543 US. 371, 380-81. Sup. Ct. (2005.
Here, TCA 29-20-205 is repugnant to state and
federal constitutions. In Latin, Actus repugnans non
potest in esse producitranslates approximately to! a
repugnant act cannot be brought into being (that is,
cannot be made effectual).
II.

State Statute Corrupting Due Process - TCA
24'9'101 Deponents Exempt from Subpoena
to Trial But Subject to Subpoena to
Deposition

TCA 24-9-101 is a statute in violation of U.S.
Const. Amend XIV, § 1, and Tenn. Const. Art. I, § 17
due process clauses,
Our entire system of
jurisprudence rests on the well-established
procedures of direct and cross-examination of
witness testimony. TCA 24-9*101 unconstitutionally
provides that certain persons are exempted from
testifying at trial, but subject to subpoena to a
deposition.
In recent legislation, the state voted to expand the
list of persons exempt from testimony through
proposed legislation which makes licensed clinical

149a

social workers exempt from subpoena to trial. TCA
24-9-101
sets the
stage for economically
disadvantaged litigants to be subjected to one-sided
deposition testimony. The likely and devastating
outcomes resulting from this unconstitutional
legislation are deprivation of due process, children
wrongfully taken, persons wrongfully declared
mentally unfit, etc. Such outcomes are the clear
intent and purpose of this unconstitutional statute.
Judges and juries should not be deprived the
opportunity to gauge for themselves and credibility
of witnesses and litigants should not be deprived an
element of due process to confront adverse witness
testimony.
The final clause of TCA 24-9-101, grants the state
trial courts authority to award attorney fees to a
party successfully defending against a subpoena to
trial, which is nothing more than an unjust
punishment, and seizure of property without jury,
inflicted upon a party seeking fair due process.
TCA 24-9-101 is also in violation of Tenn. Const.,
Art. I, § 30; “That no privileges shall ever be granted
or conferred in this state. It is most certainly a
special privilege to be exempt from subpoena to trial
further establishing the unconstitutionality of TCA
24-9-101.
TCA 24-9-101 is also in violation of Tenn. Const.,
Art. I, § 9
That in all criminal prosecutions, the
accused hath the right to be heard by
himself and his counsel; to demand the
nature and cause of the accusation against
him, and to have a copy thereof, to meet the
witnesses face to face, to have compulsory
process for obtaining witnesses in his favor,

150a

and in prosecutions by indictment or
presentment, a speedy public trial, by an
impartial jury of the county in which the
crime shall have been committed, and shall
not be compelled to give evidence against
himself.
III.

TCA 28-3-104 Personal Tort Actions: Actions
against Certain Professionals is
Unconstitutional Under Both State and
Federal Constitutions

“Congress surely did not intend to assign to state
courts and legislatures a conclusive role in the
forma tive function ofdefining and characterizing the
essential elements of a federal cause of action.”
Wilson v. Garcia, 471 US 261 - Supreme Court 1985,
471 US 261, 105, 1938, 85 L. Ed. 2d 254 - Supreme
Court, 1985. “The relative scarcity of statutory
claims when § 1983 was enacted makes it unlikely
that Congress would have intended to apply the
catchall periods of limitations for statutory claims
that were later enacted by many States.” (at 278).
“Thus, in considering whether all § 1983 claims
should be characterized in the same way for
limitations purposes, it is useful to recall that § 1983
provides "a uniquely federal remedy against
incursions under the claimed authority of state law
upon rights secured by the Constitution and laws of
the Nation." Mitchum v. Foster, 407 US 225, 92 S.
Ct. 2151, 32 L. Ed. 2d 705 - Supreme Court, 1972.
TCA 28-3-104(a)(l)(B) affirms: “...the following
actions shall be commenced within one (l) year after
the cause of action accrued: Civil actions for

151a

compensatory or punitive damages, or both, brought
under the federal civil rights statutes”
Suits brought under the federal rights statutes
are brought in federal court, not state courts. Yes, it
is accepted (perhaps falsely) that state legislatures
have authority to enact statutes setting time
limitations for civil suit for state statute violations
and torts. Yes, if the U.S.C. does not define a statute
of limitations, federal courts turn to state statutes for
time limitations in “like-kind” causes of action.
Regardless, states do not have authority to create
statutes of limitations on federal statutes. Due to the
fact that this law explicitly affirms- “Civil actions...
brought forth under the federal civil rights statute,S’ '•
(l) this subsection of statute does not set time
limitations on state suits brought in state courts
under state statute, (2) this statute is expressly
directed at federal suits, brought in federal courts,
under federal statutes, which makes this law
unconstitutional. Congress has never granted power
to the various states to set time limit bars on suits in
federal courts under federal laws, and TCA 28-3-104
does exactly that - and TCA 28-3-104 is therefore
unconstitutional.
In truth, Tennessee does not have authority to
legislate any statute of limitation for any injury
caused to a person’s land, goods, person, or
reputation. Tenn. Const., Art. I, § 17 affirms: “That
all courts shall be open', and every man, for an injury
done him in his lands, goods, person or reputation,
shall have remedy by due course oflaw, andright and
justice administered without sale, denial, or delay”
“WITHOUT SALE, DENIAL, OR DELAY’, means
exactly as it reads - “WITHOUT DENIAL”. Indeed,
any and every “statute of limitation” is an

152a

unconstitutional denial of justice. All statutes of
limitations are to say- “Sorry..., you waited too long,
so you are DENIED JUSTICE” or, “Sorry..., too bad
you didn’t know at the time, but now it is too late to
seek redress, so you are DENIED JUSTICE”. Justice
and due course of law are not for sale. Justice and
due course of law is not to be denied. Justice and due
course of law is not to be delayed. These facts could
not have been stated clearer in our state constitution.
Again, State of Tenn. Const., art. X. § 2 affirms:
do solemnly swear (or affirm) that
as a member of this General Assembly, I
will, in all appointments, vote without
favor, affection, partiality, or prejudice;
and that I will not propose or assent to any
bill, vote or resolution, which shall appear
to me injurious to the people, or consent to
any act or thing, whatever, that shall have
a tendency to lessen or abridge their rights
and privileges, as declared by the
Constitution of this state.The state
constitution
explicitly
states
that
legislators are to swear oath to not propose
or assent to any bill, or consent to any act
or thing, whatever, that shall have a
tendency to “lessen or abridge their rights
and privileges”, as declared by the
Constitution of this state.”
Clearly TCA 28-3-104 unjustly lessons and
abridges remedy by due course of law, and
administration of justice, and the legislators
enacting TCA 28*3-104 are in violation of their oath
of office, and therefore TCA 28*3*104 is
unconstitutional under the State’s constitutional

153a

provisions. It must be obvious that in enacting TCA
28*3*104, the state is circumventing the intent of
U.S. Congress’s enactment of federal civil rights
statutes and lessoning the right of its people to seek
redress of harm caused by rights violations and
discriminatorily privileged “certain professionals”.
Perhaps too, the Tenn. Code Comm, “edited” the
intent of Congress.
TCA 28*3*104 is also in violation of the equal
protection clause of U.S. Const. Amend. XIV § 1,
Tenn. Const., art. I. § 30, and U.S. Const. Art. I § 9.
TCA 28*3*104(c) clearly grants special privilege to
persons of “trust”; attorneys and CPA professionals,
while denying that same “privilege” to medical
professionals. The title alone of TCA 28*3*104
“Personal tort actions; actions against certain
professionals”
tells
us
TCA
28*3*104
is
unconstitutional. “Certain Professionals”? What
about other professionals?
Why aren’t other
professionals provided equal protection of the law as
required by U.S. Const. Amend. XIV § 1? TCA 28*3*
104 is nothing more than a “special privilege”
granted in violation of federal and state constitution
emolument clauses.
TCA 28*3*104 is in violation of U.S. Const.
Amendment XIV, equal protection clause. TCA 28*3*
104 (c)(1) affirms- “Actions and suits against licensed
public accountants, certified public accountants, or
attorneys for malpractice shall be commenced within
one (l) year after the cause of action accrued...”
Conversely, there is a larger deadline for medical
malpractice lawsuits encoded in TCA 29*26*116- “In
no event shall any such action be brought more
than three years after the date on which the
negligent act or omission occurred...” Considering

154a

that the professions of accountancy, medicine, and
law are professions that are self-regulated, provide
service to society, and require formal education and
qualification, the statute of limitations provided in
the law should be equal for these professions.
Obviously, this law was enacted to eliminate legal
malpractice suits, while preserving revenue streams
to the legal profession from medical malpractice
suits.
The unconstitutional immunities and shorter
statute of limitations provided for in TCA 29-20-205
and 28-3*104, are also in violation of the emoluments
clause, U.S. Const, art I § 9 in that persons holding
office, and or, trust under them are granted special
privilege and emolument, as well as Tenn. Const.,
Art. I, § 305 “That no privileges shall ever be granted
or conferred in this state.
TCA 29*20-205 is also in contradiction of TCA 283-104 which provides a one-year statute of
limitations for false imprisonment, and malicious
prosecution, etc. False imprisonment and malicious
prosecution are most often tortious actions
perpetrated by the state through its “governmental
entities” (agents). To provide a statute of limitations
in TCA 28*3-104 for false imprisonment and
malicious prosecution, and then provide immunity
from these torts in TCA 29*20*205 is contradictory
statute.
IV.

TCA 23-2-102 Attorney Lien on Right of
Action is Unconstitutional Under Both State
and Federal Constitutions

Tenn. Code Annotated § 23-2-102. Lien on right of
action.

155a

Attorneys and solicitors of record who begin a suit
shall have a lien upon the plaintiffs or complainant’s
right of action from the date of the filing of this suit.
U.S. Constitution, Art. I § 9 Clause 8 affirmsNo title of nobility shall be granted by the
United Affirms- and no person holding any
office of profit or trust under them, shall,
without the consent of the Congress, accept
of any present, emolument, office, or title,
of any kind whatever, from any king,
prince, or foreign state.
The Constitution of the State of Tennessee, Art. I,
§ 30 affirmsThat no hereditary emoluments, privileges,
or honors, shall ever be granted or
conferred in this state.
There can be no doubt, Tenn. Code Ann. § 23*2*
102 is an emolument and privilege granted to
persons in public trust - Attorneys. Clearly this
statute was enacted in violation of State Constitution
and U.S. Constitution. Clearly attorneys are a
distinct class of persons. There is no doubt Tenn.
Code Ann. § 23*2-102 provides an extra protection to
a “set of men” in collecting fees not provided to other
professions. Therefore, Tenn. Code Ann. § 23*2*102
is not only in violation of emoluments clauses, Tenn.
Code Ann. § 23*2*102, was also enacted in violation
of Amend XIV, U.S. Const.
Considering enactment of Tenn. Code Ann. § 23*
2*102, it becomes apparent that Tennessee has
forgotten lessons of the past, and the grievances that
caused our nation to declare independence from

156a

Great Britain. It is apparent the legislators who
enacted Tenn. Code Ann. § 23-2-102 did not consider
Art. I, § 30 of the state’s constitution. Perhaps too,
the Tenn. Code Comm, “edited” the intent of
Congress.
Like any profession, the legal profession should
rely on good customer service and a process that does
not bankrupt one or both of the parties. This begs
the question- “If attorneys are providing good
customer service, why should there be need for
enactment ofa statute such as Tenn. Code Ann. §232-102?' Enactment of such a statute is prima facie
evidence of a breakdown in the legal system, and
attorney clients are either not satisfied with services
received, or they are left unable to pay by the process,
or both, “necessitating' such statute.
In his book, “THE FRATERNITY, Lawyers and
Judges in Collusion”, The Honorable Judge John
Fitzgerald Molloy, details how the legal profession
had transformed over the last several decades. Judge
Molloy details the most profound transformation
occurred as a result of billing practices of the legal
profession. Around the year 1947, Judge Molloy’s
firm billed based on the following factors- “1) what we
had achieved for the client, 2) what was the client
able to pay, and 3) what the client expected to pay.”
idp. 3. By the year 1969, all top-rated lawyers began
billing on the “time*is-money” concept and thus came
into effect today’s billing standard of six-minute
increments. Judge Molloy stated“And, as this time-is‘money concept
became gospel, the time necessary to get
things done extended wondrously — oh,
yes! — wondrously!” p. 5

157a

Judge Molloy then went on to explain how this
new “time-is-money” concept, incentivized the legal
profession to create new procedural rules,
complicating the legal process, “to make less, what
lay persons could do for themselves/’ (establishment
of a monopoly).
Not only is TCA 23-2-102 unconstitutional under
the state and federal constitutions, TCA 23-2-102
encourages collusion between judges and attorneys
to extort unearned attorney’s fees under color of law.
Appendix Q is a transcript evidencing collusion to
extort under color of law and provides a perfect
example. In that case, the litigant was extorted more
than one-hundred thousand dollars ($100,000) while
being denied due process, denied trial by jury, and
through criminal threat of force under color of law
perpetrated by the judge.
Let us be honest together and recognize glaring
facts. The number one complaint filed with the
Tennessee Board of Professional Conduct is for
exorbitant and fraudulent attorney’s fees. Perhaps
hereto the Tennessee Code Commission, “enacted”
their own legislation, compiling their own “code” into
the lawful acts of congress under color of law.
V.

TCA 23-3-103 Unauthorized Practice of Law
is Unconstitutional Under Both State and
Federal Constitutions

Petitioner
asserts
T.C.A.
23-3-103
is
unconstitutional in that it unlawfully establishes a
monopoly, and deprives protected rights of due
process and remedy by due course of law, provided
for in U.S. Const. Amend., XIV, § 1, and Tenn. Const.
Art I, § 17. Moreover, as discussed above, the validity

158a

of this “statute” is challenged as discussed above, and
may very well be one of the “coded* compiled into
T.C.A. and not an actual act of congress.
The language of this statute is so restrictive, it
too is the equivalent of requiring a medical license to
sell aspirin.
23-3-101. Chapter definitions.
As used in this chapter, unless the context
otherwise requires(3) "Practice of law" means the appearance
as an advocate in a representative capacity
or the drawing of papers, pleadings or
documents or the performance of any act in
such capacity in connection with
proceedings pending or prospective before
any court, commissioner, referee or any
body, board, committee or commission
constituted by law or having authority to
settle controversies, or the soliciting of
clients directly or indirectly to provide such
services.
Since the language of T.C.A. 23-3-101 and 233-103 is so restrictive, the statute effectively
establishes a monopoly in violation of Tenn. Const.
Art. I, § 22, “That perpetuities and monopolies are
contrary to the genius ofa free state, and shall not be
allowed!*
It is a well-known fact, and the proof will show,
that attorneys routinely conspire against their own
clients for the purposes of; (l) vexatious litigation to
generate unnecessary billable hours, and (2) civil
conspiracy for various reasons. It is a further wellknown fact, and the proof will show, that attorneys

159a

refuse to provide representation to any person
seeking to bring a cause of action against another
attorney or member of the BAR, or a member of the
judiciary for; (l) tortious acts such as abuse of
process, mal-practice, etc., (2) rights violations, or (3)
crimes perpetrated under color of law.
It is well-established in Tennessee that litigants
have a right of self-representation in Tennessee
courts, and Tenn. Const., Art I, § 17 guarantees that
all persons, “for an injury done him in his lands,
goods, person, or reputation, shall have remedy by
due course oflaw, and right andjustice administered
without sale, denial, or delay.”
In the case, Meyer v. Nebraska, 262 US 390 Supreme Court 1923, it was affirmedThe established doctrine is that this liberty
may not be interfered with, under the guise
of protecting the public interest, by
legislative action which is arbitrary or
without reasonable relation to some
purpose within the competency of the State
to effect.
In the case, Schware v. Board of Bar Examiners of
NM, 353 US 232 - Supreme Court 1957
A State cannot exclude a person from the
practice of law or from any other
occupation in a manner or for reasons that
contravene the Due Process or Equal
Protection Clause of the Fourteenth
Amendment.
The end result is attorneys and judges who have
lobbied for these special emolument privileges, now
arrogantly claim they are the only ones entitled to

160a

them which is monopoly leveraging. Members of the
BAR use this unconstitutional statute as defense
mechanism to protect corrupted proceedings.
The case law of the United States Supreme
Court "reflect the obvious concern that
there be no sanction or penalty imposed
upon one because of his exercise of
constitutional
rights.”
Gray
v.
Commonwealth, Pa- Commonwealth Court
2017
The facts of (l) the unconstitutional conduct of the
Tennessee Code Commission “editing” acts of
congress, and compiling “codes” purported to be
statute, (2) attorneys refusal to represent persons
bringing causes of action against attorneys and
judges, (3) the lack of objective oversight of the legal
profession and judiciary, (4) conspiratorial conduct of
members of the judiciary and legal profession in
collusion to deprive rights and extort property under
color of law through vexatious litigation designed to
perpetuate
unnecessary
billable
hours
at
monopolistic rates, renders THE PEOPLE effectively
incapable of defending fundamental rights when the
courts have been weaponized against them.
Compound these facts with the purported
enactment of T.C.A. 23*3*103, further deprives
Citizens and THE PEOPLE, from assistance of
counsel outside the membership of the BAR who are
the very ones causing them harm. Therefore, T.C.A.
23*3*103 deprives fundamental rights rendering the
statute unconstitutional.

UNCONSTITUTIONAL COURT RULES
MUST BE RENDERED VOID

161a

Tennessee Rules of Civil Procedure, Rule 38.02:
Demand, is unconstitutional and limits an inviolate
right to trial by jury. Rule 38.02 states:
Any party may demand a trial by jury of
any issue triable of right by jury by
demanding the same in any pleading
specified in Rule 7.01 or by endorsing the
demand upon such pleading when it is
filed, or by written demand filed with the
clerk, with notice to all parties, within
fifteen (15) days after the service of the last
pleading raising an issue of fact.
Tennessee Const. Art. I, § 6 affirms: “That the
right of trial by jury shall remain inviolate, and no
religious or political test shall ever be required as a
qualification for jurors.” Black’s Law Dictionary
defines Inviolate as: “Intact! not violated! free from
substantial impairment. In the case, Lakin v. Senco
Products, Inc., 987 P. 2d 463 - Or: Supreme Court
1999, the Supreme Court of Oregon determined
“Inviolate” means the same thing today as it did in
the 1800’s when the Tennessee Constitution was
ratified.
In 1828, the word "inviolate” meant
"unhurt!
uninjured!
unprofaned,
unpolluted! unbroken." Noah Webster,
American Dictionary of the English
Language, Vol. 1, p. 113 (1828). Although it
post-dates adoption of Article I, section 17,
in 1889 "inviolate" meant "not violated! free
from violation or hurt of any kind! secure
against violation or impairment." The
Century Dictionary, Vol. Ill, p. 3174 (1889).
Thus, for purposes of this case, whatever

162a

the right to a jury trial in a civil case meant
in 1857, it has the same meaning today.
The plain wording of Article I, section 17,
does not answer the question whether the
right to a jury trial then meant, and,
therefore, now means, that the legislature
may not adopt a statute imposing a cap on
the amount of noneconomic damages
recoverable in a civil case, (at 468)
Tennessee Rules of Civil Procedure, Rule. 38
limits demand for trial by jury unconstitutionally.
Just as state congresses cannot adopt a statute
imposing a cap that limits a right to trial by jury,
neither can the courts impose limits requiring
demand in writing or at specified times.
Furthermore, the same conclusions of law stated
in Miranda v. Arizona, 384 US 436 ■ Supreme Court
1966, prove that THE PEOPLE are deprived their
inviolate right trial to by jury by never being
informed of their right for the purpose of depriving
them of their fair due process, and to perpetuate
unnecessary billable hours through vexatious
litigation. In the Miranda opinion, the Supreme
court made clear that the (l) “accused must be
adequately and effectively apprised of his rights and
the exercise of those rights must be fully honored, (2)
The warning of the right to remain silent must be
accompanied by the explanation that anything said
can and will be used against the individual in court.
This warning is needed in order to make him aware
not only of the privilege, but also of the consequences
of forgoing it, and (3) Only through such a warning is
there ascertainable assurance that the accused was
aware of this right.

163a

Today, then, there can be no doubt that the
Fifth Amendment privilege is available
outside of criminal court proceedings and
serves to protect persons in all settings in
which their freedom of action is curtailed in
any significant way from being compelled
to incriminate themselves. We have
concluded that without proper safeguards
the process of in-custody interrogation of
persons suspected or accused of crime
contains inherently compelling pressures
which work to undermine the individual's
will to resist and to compel him to speak
where he would not otherwise do so freely.
In order to combat these pressures and to
permit a full opportunity to exercise the
privilege against self-incrimination, the
accused must be adequately and effectively
apprised of his rights and the exercise of
those rights must be fully honored.
Miranda v. Arizona, 384 US 436 - Supreme
Court 1966 (at 467)
The warning of the right to remain silent
must be accompanied by the explanation
that anything said can and will be used
against the individual in court. This
warning is needed in order to make him
aware not only of the privilege, but also of
the consequences of forgoing it. It is only
through
an
awareness
of these
consequences that there can be any
assurance of real understanding and
intelligent exercise of the privilege.
Moreover, this warning may serve to make
the individual more acutely aware that he
164a

is faced with a phase of the adversary
system—that he is not in the presence of
persons acting solely in his interest, (id at
469)
Accordingly, we hold that an individual
held for interrogation must be clearly
informed that he has the right to consult
with a lawyer and to have the lawyer with
him during interrogation under the system
for protecting the privilege we delineate
today. As with the warnings of the right to
remain silent and that anything stated can
he used in evidence against him, this
warning is an absolute prerequisite to
interrogation. No amount of circumstantial
evidence that the person may have been
aware of this right will suffice to stand in
its stead- Only through such a warning is
there ascertainable assurance that the
accused was aware of this right, (id at 472).
The exact same argument is true regarding the
right of due process and right to trial by jury but THE
PEOPLE are never warned, never advised of their
rights in “courts of law’, and are then so deprived for
corrupt purpose, and subjected to the confidence
schemes of attorney and judges in collusion.
Although the confidence man is sometimes
classed
with
professional
thieves
pickpockets, and gamblers, he is really not
a thief at all because he does no actual
stealing. The trusting victim literally
thrusts a fat bank roll into his hands. It is
a point of pride with him that he does not
have to steal.

165a

Confidence men are not "crooks" in the
ordinary sense of the word. They are suave,
slick and capable. Their depredations are
very much on the genteel side. Because of
their high intelligence, their solid
organization, the widespread convenience
of the law, and the fact that the victim
[sometimes]
must
admit
criminal
intentions if he wishes to prosecute, society
has been neither willing nor able to avenge
itself
affectively.
(Scamming-'
The
Misunderstood Confidence Man, Yale
Journal ofLaw & the Humanities p.250)
As an example, here is a common scam
perpetrated by attorneys and judges in collusion.
First the targeted victim is identified, and in family
court cases, it is typically the high earner, or the
person least at fault for the divorce. The first
information attorneys require before accepting a
divorce case is a detailed listing of assets and
liabilities, so they will know exactly how much money
can be extracted from the trusting victim(s). The
parties, uninformed of the corruption of our courts,
and through FALSE PUBLIC TRUST, assume they
will be provided fair and impartial proceedings and
adherence to the “law”. They are never advised of
their rights of due process, right to trial by jury, and
right to remonstrate grievance of wrongdoing by
government officials. As in Miranda, this is a clear
deprivation of constitutionally protected rights.
In coordination with opposing counsel, the
opposing party makes false and unsupported
allegations, often suborned perjury encouraged by an
attorney, and upon which the judge in collusion then
bases unjust decision. These unjust rulings are made

166a

knowing that the falsely accused party will expend
all their emotional and financial resources
disproving false and unsupported allegations.
“No official with an IQ greater than room
temperature in Alaska could claim that he
or she did not know that the conduct at the
center of this case violated both state and
federal law. (perjury statutes)” Hardwick
v. County of Orange, 844 F. 3d 1112 - Ct of
App, 9th Cir., 2017 (at 1119).
Continuing in FALSE PUBLIC TRUST, the
wrongfully accused, continues to believe that when
further evidence is provided to the court, the court
(corrupted judge), will then render justice. Typically,
it takes as much as one-year passage of time, exposed
to corrupted and vexatious litigation, for the
wrongfully accused, to finally understand and
recognize that no matter what evidence they present,
no matter what proper legal argument is made, they
will never be provided fair due process, and they will
always be denied justice. It is then that they begin
to seek redress of grievance by petition to oversight
agencies, or suits in federal courts, only to further
find all the agencies and courts have been corrupted.
It is common sense, that these corrupted practices of
the legal profession and judiciary in the trial courts
would not be engaged in, except for knowing they can
do so with impunity. See Appendix F, for expanded
argument.
The first step to combat this corruption of our
courts is to advise persons of their rights, including
their inviolate right to trial by jury (if necessary).

167a

THE TENNESSEE BOARD OF JUDICIAL
CONDUCT IS UNCONSTITUTIONAL
TRANSFER OF POWER
The Tennessee Board of Judicial Conduct (TBJC),
is a governmental entity that never should have come
into being and is repugnant to our Constitution. The
TBJC is an unconstitutional transfer of power from
the legislature to the judiciary to oversee the
judiciary. Article V, § 2 of the Tennessee
Constitution affirms: “The House of Representatives
shall have the sole power of impeachment.”, and § 3
of the same Art. further affirms: “The House of
Representatives shall elect from their own body three
members, whose duty it shall be to prosecute
impeachments.”
The phrases “shall have sole power of
impeachment”, “shall elect from their own body”, and
“whose duty it shall be to prosecute impeachments”
could not be clearer. It is the DUTY of the House to
prosecute impeachment, and the House is required
and “SHALL ELECT” three members to prosecute
impeachment.
It is for good reason our Constitution set forth
these duties of the House. The House is
representative of the people, elected to office, with
the solemn responsibility to protect the welfare of
their constituents. Conversely, the TBJC’s officers
and members are appointed and comprised primarily
of judges performing duties clearly mandated to the
legislature in our constitution, and in violation of
Separation of Powers doctrine. Astoundingly, Tenn.
Const. Art. II, § 26 affirms: “No judge of any court of
law or equity, shall have a seat in the General
Assembly...” and yet here we have judges in de facto

168a

legislative seats clearly performing the duties of the
House, in clear violation of our Constitution. THIS
MUST STOP.
Our Constitution states that “All courts shall be
open” and while legislative proceedings are
conducted in the open and under scrutiny of
livestream and recorded video, review of complaints
against judges are concealed from public view and
the TBJC unconstitutionally operates in the dark so
as to preserve FALSE PUBLIC TRUST. Indeed,
even the record retention policy of the TBJC,
suggests intent to conceal judicial misconduct.
Despite it being the House’s responsibility to
prosecute impeachments and hear complaints, one
can well expect that the judiciary, through the TBJC,
will defy the General Assembly and refuse to provide
copies of complaints and evidence filed with the
TBJC. Petitioner challenges this body to demand
review of complaints. The judiciary will likely and
falsely assert their contorted view of “separation of
powers”
According to Petitioner’s research, and the
SUMMARY of OVERSIGHT OF JUDICIAL
CONDUCT IN TENNESSEE 1971 TO 2011,
prepared by the Administrative Office of the Courts,
the last time a judge was impeached by the General
Assembly was 1958, and prior to the creation of the
Judicial Standards Commission (JSC) in 1971, now
the TBJC. This is not surprising, since we have the
fox watching the hen house, and no judge will take
action against another judge, except in corrupted
interest, or where there is infighting. Indeed,
Supreme Court Justice Gorsuch stated:
any
criticism of his brothers and sisters of the robe is an

169a

attack or a criticism on everybody wearing the robe
as a judge.”
Your people are suffering greatly. Corrupted
judicial proceedings conducted by judges who have no
objective oversight are causing great harm. The
travesties of our judiciary perpetrated upon our
fellow Americans, very often leads to substance
abuse to dull the pain of injustice, and all too often
leads to suicide and sometimes even vigilante
justice. THIS TOO MUST STOP.
In considering proper legislation and quorum to
TBJC
establish the
(or abolish),
further
consideration should be given to the conduct of the
TBJC. I would direct the General Assembly’s
attention to the fact that the TBJC has not once
recommended impeachment, and has dismissed
100%
of
complaints
filed
by
noxrlegal
professionals. It is a statistical impossibility that
100% of complaints are without merit. See attached
Auditor’s Compilation proving this fact based on the
TBJC’s own annual reports (previously provided to
US Congress in requested brief and emailed to this
General Assembly). That Auditor’s Report is not a
statistical analysis, but simple addition and
subtraction^ Complaints received, minus complaints
acted upon, equals complaints dismissed.
Tennessee judge, Casey Moreland was arrested
by federal authorities and recently sentenced in
federal court. Judge Moreland had been on the bench
since 1998, and the TBJC admitted to the media, that
multiple complaints to the board, against Judge
Moreland had been received and dismissed. A USA
Today reporter stated in her article: “Documents
suggest Moreland had continued control in those
cases, and that may be symptom of a larger

170a

problem.” Further in that article is a quote of David
Cook, a former member of the TBJC- “It could just be
a bureaucratic mix*up, but it certainly has every
appearance of a conflict and does not inspire
confidence in the judicial system.”
In a Tennessean news article, it was reported
Moreland kept a list of 13 people on his iPhone
labeled “witnesses” and he paid more than $6,000 so
a woman would recant her allegations against
Moreland and he plotted to have drugs planted in her
car to be “discovered” in a staged traffic stop. Judge
Moreland’s wife testified he moved out of their home
due to infidelity allegations, was diagnosed with a
depressive disorder in 2009, and struggled with
mental illness and alcohol abuse. The fact that the
TBJC received and dismissed multiple complaints
against a judge of such character, evidences the
TBJC provides no objective oversight of the judiciary.
It is common sense logic that judges would not
engage in that type of conduct except for the fact that
they know they can do so with impunity, and that the
TBJC is not functioning as intended.
It is further suggested to the General Assembly to
consider the “return on investment” and work
product of the TBJC, and whether the services they
provide merit the expense to the state and its
citizens. Very likely the caseload of 1.4 complaints
per day is manageable by the House. Respectfully, if
a few judges are impeached, such as the ones
presented herein, it is very probable the rest of the
judiciary will begin to conduct themselves with
honor, and within the confines of the constitution,
and complaints against the judiciary will decrease
dramatically.

171a

During preparation of this Petition of
Remonstrance, it has come to Petitioner’s attention,
through members of the bodies, that the General
Assembly intends to “sunset” the TBJC, and perhaps
transfer that authority to the Supreme Court of
Tennessee. Perhaps, this is for the purpose of
circumventing this Remonstrance and declaring the
issue “moot” as court’s often do when forced to adhere
to the law of the land and constitutional provisions.
Petitioner strongly cautions members of the Senate
and House from transferring the authority of the
TBJC to the Supreme court as THE PEOPLE can
expect more of the same lack of objective oversight in
the judiciary having oversight of the judiciary. The
Tenn. Const. Art. V, clearly states the House has the
sole power of impeachment and it is the duty of the
House to oversee the conduct of the judiciary.

THE TENNESSEE BOARD OF
PROFESSIONAL RESPONSIBILITY IS
UNCONSTITUTIONAL TRANSFER OF
POWER
The
Tennessee
Board
of
Professional
Responsibility is but yet another unconstitutional
mechanism of the BAR and judiciary in collusion, to
protect corrupted court proceedings. If an attorney
complains about the conduct of a judge, very often
that attorney is brought before the discipline counsel
under false, and unsupported allegations. The Tenn.
Bd. of Prof. Resp. is used by the judiciary to hold the
licensure of attorneys hostage when a well-minded
attorney calls into question the conduct or integrity
of a member of the judiciary, or when an attorney
advocates a position “unpopular” to the judiciary.

172a

In subsequent hearings, members of the BAR will
present testimony to this General Assembly that
they have been retaliated against by members of the
judiciary for the purpose of protecting corrupted
court proceedings, and or, for taking a position
“unpopular” or contrary to judiciary.
In addition to the normal privilege tax imposed by
the state, the judiciary also imposes a tax used to
fund the Tenn. Bd. of Prof. Resp. This is of course
unconstitutional due to the fact that the judiciary
does not have lawful authority to impose taxes. It is
further alleged that pursuant to lawful act of
congress, court rules must be approved by congress,
and that Tenn. Sup. Ct. Rule 9- Disciplinary
Enforcement, has never been approved by congress,
and that the Tennessee Supreme Court is acting
outside their jurisdiction and authority.
Again, as referenced above, Tenn. Const. Art VI,
§ 1 which affirmsThe judicial power of this state shall be
vested in one Supreme Court and in such
Circuit, Chancery and other Inferior
Courts as the Legislature shall from time
to time, ordain and establish; in the judges
thereof, and in justices of the peace. The
Legislature may also vest such jurisdiction
in Corporation Courts as may be deemed
necessary. Courts to be holden by justices
of the peace may also be established.
Also, as referenced above, Black’s Law Dictionary
defines Judicial Power as follows:
The authority vested in courts and judges
to hear and decide cases and to make
binding judgments on them- the power to

173a

construe and apply the' law when
controversies arise over what has been
done or not done under it.
It is the state that licenses attorneys to practice
law, not the judiciary or BAR. The constitution does
not grant lawful authority to the judiciary to legislate
or oversee licensure of any profession, including the
“profession of law”. Only judicial power is granted to
the judiciary and no other powers.
In the words of an undisclosed member of the
BAR:
“The third is about the intimidation of
attorneys. So Attorney’s not only have to
pay a privilege tax just like everybody else
who has a license which goes to the state
treasury, attorneys have to pay the
supreme court an additional fee to operate
the Board ofprofessional responsibility and
then ifthey are disciplined they have topay
attomeyfs fees on top of that.
And then if they put him on probation the
attorney has to pay another attorney to
supervise them.
The power and control that the supreme
court has over attorneys is greater than
you even understand.
I challenge the constitutionality of the
attorney discipline system and of course
the supreme court found that it was
constitutional."
This General Assembly should take pause and
carefully consider the words of an attorney and
member of the BAR: “ The power and control that the

174a

supreme court has over attorneys is greater than you
even understand'”
The repugnancy of this concept of the judiciary
having power over attorneys who appear before
them, is yet another unconstitutional concept that
frustrates rational thought and is repugnant to our
form of government and in violation of constitutional
provisions.
Consider the words of this attorney... “if they are
disciplined, they have to pay attorney's fees on top of
that..., And then if they put him on probation the
attorney has to pay another attorney to supervise
them.
Very obviously, the judiciary does not have power
to legislate. The judiciary only has judicial power
(defined above). The judiciary cannot force payment
of attorney fees, nor does the judiciary have power to
coerce payment to another attorney for supervising
them. Effectively, this amounts to extortion under
color of law.
Pursuant to Tenn. Const. Art. I, § 8, “That no man
shall be taken or imprisonedor disseized of his
freehold, liberties or privileges, or outlawed\ or
exiled, or in any manner destroyed or deprived ofhis
life, liberty or property, but by the judgment of his
peers, or the law of the land
It is an
incontrovertible fact that attorneys are deprived trial
by jury in Bd of Prof. Responsibility proceedings.
This begs the further question- “Under what lawful
authority, and under what law of the land are
attorneys subject to in paying attorney’s fees, and
fees for another attorney to supervise them?”
Perhaps one of the “codes” compiled by the Tennessee
Code Commission without lawful act of congress?

175a

Having licensure of attorneys subject to the
“oversight” of the judiciary and BAR, through an
agency controlled by the judiciary, unconstitutionally
sets the stage for coercive oversight of well-minded
attorneys.
Premises considered, the Tennessee
Board of Professional Responsibility should be
abolished, power returned to the THE PEOPLE
inherent in their representation in the House.
Just has the House has the sole power of
impeachment, the House and the legislature have
oversight of the licensure of all professions, including
the profession of law. Also, as stated above'
Petitioner contends the judiciary has
unlawfully taken control over the licensure
of attorneys, and that control of licensure
provides the judiciary control of the legal
profession, and control over the licensure of
attorneys who are sitting in legislative
seats. Having this unlawful authority over
the licensure of attorneys, provides
opportunity and power to the judiciary to
coerce votes of attorney members of the
houses of the General Assembly in
violation of Tenn. Const. Art. II, § 26
through potentially de facto legislative
seats and in further violation of the
separation of powers doctrine.

PROPOSED ARTICLES OF
IMPEACHMENT AND/OR REMOVAL
FROM OFFICE
Pursuant to Tennessee Constitution, Article V, §
1, the House of Representatives shall have the sole
power of impeachment. Pursuant to Article V, § 4,

176a

judges shall be liable to impeachment, whenever they
may commit any crimp in their official capacity which
may require disqualification but judgment shall only
extend to removal from office, and disqualification to
fill any office thereafter.
Further pursuant to Tennessee Constitution,
Article VI, § 6!
Judges and attorneys for the state may be
removed from office by a concurrent vote of
both Houses of the General Assembly, each
House voting separately; but two-thirds of
the members to which each House may be
entitled must concur in such vote. The vote
shall be determined by ayes and noes, and
the names of the members voting for or
against the judge or attorney for the state
together with the cause or causes of
removal, shall be entered on the journals of
each House respectively. The judge or
attorney for the state, against whom the
Legislature may be about to proceed, shall
receive notice thereof accompanied with a
copy of the causes alleged for his removal,
at least ten days before the day on which
either House of the General Assembly shall
act thereupon.
Tennessee Code Ann. § 17-1*104. Oath of office,
states as follows:
Before entering upon the duties of office,
every judge and chancellor in this state is
required to take an oath or affirmation to
support the constitutions of the United
States and that of this state, and to
administer justice without respect of

177a

persons, and impartially to discharge all
the duties incumbent on a judge or
chancellor, to the best of the judge’s or
chancellor's skill and ability. The oath shall
be administered in accordance with title 8
or any other applicable law.
18 U.S.C § 241 - Conspiracy against rights; If two
or more persons conspire to injure, oppress, threaten,
or intimidate any person in any in the free exercise
or enjoyment of any right or privilege secured to him
by the Constitution or laws of the United States, or
because of his having so exercised the same; They
shall be fined under this title or imprisoned not more
than ten years, or both;
18 U.S. Code § 242 - Deprivation of rights under
color of law Whoever, under color of any law, ...,
willfully subjects any person in any State, ... to the
deprivation of any rights, privileges, or immunities
secured or protected by the Constitution or laws of
the United States, ...shall be fined under this title or
imprisoned not more than one year
Tenn. Code Ann. § 39-14-112 - Extortion; (a) A
person commits extortion who uses coercion upon
another person with the intent to- (l) Obtain
property, services, any advantage or immunity;
IN MAINTENANCE AND SUPPORT OF
IMPEACHMENT AGAINST THE FOLLOWING
FOR CRIMES AND MISDEMEANOURS AND
CONDUCT IN VIOLATION OF OATH OF OFFICE.
I.

Judge Joe H. Thompson, Circuit Court Judge,
Sumner County

178a

Judge Joe H. Thompson, is Circuit Court Judge
for Sumner County at Gallatin, with office located at:
105 Public Square, Gallatin, TN 37066, Phone 615452-6771.
Incident to his position as a circuit court judge,
Joe H. Thompson engaged in criminal and
unconstitutional conduct with respect to a litigant
that is incompatible with the trust and confidence
placed in him as a judge as followsArticle I
Petitioner John A Gentry was a litigant in a
divorce case appearing before Judge Joe H.
Thompson.
On
numerous
occasions,
during
court
proceedings, Judge Thompson repeatedly and grossly
deprived Mr. Gentry fair due process, which included
deprivation of right to be heard, right to present
evidence, right to confront adverse witness
testimony, right to present argument orally. Such
conduct is in violation of 18 U.S. Code § 242 and
commission of crime while in office.
Wherefore, Judge Joe H. Thompson is guilty of
crime and should be removed from office.

Article II
Petitioner John A Gentry was a litigant in a
divorce case appearing before Judge Joe H.
Thompson.
On two occasions, during court proceedings,
Judge Thompson conspired to injure, oppress,
threaten, and intimidate free exercise of fair due
process. Such conduct is in violation of 18 U.S. Code
§ 241 and commission of crime while in office.

179a

Wherefore, Judge Joe H. Thompson is guilty of
crimes and should be removed from office.
Article III
Petitioner John A Gentry was a litigant in a
divorce case appearing before Judge Joe H.
Thompson.
On several occasions, during court proceedings,
Judge Thompson conspired to extort money under
color of law. Such conduct is in violation of Tenn.
Code Ann. § 39-14-112 - Extortion, 18 USC §
1951(b)(2), and commission of crime while in office.
Wherefore, Judge Joe H. Thompson is guilty of
crimes and should be removed from office.
Article IV
Petitioner John A Gentry was a litigant in a
divorce case appearing before Judge Joe H.
Thompson.
During court proceedings, Judge Thompson
conspired to evade subpoenaed evidence and
testimony. Such conduct is in violation 18 USC §
1512 and commission of crime while in office.
Wherefore, Judge Joe H. Thompson is guilty of
crimes and should be removed from office.
II.

Judge Joseph A. Woodruff

Judge Joseph A. Woodruff is Circuit Court Judge
in the Chancery Court For The 21st Judicial District
at Williamson County, with office located at- 135 4th
Avenue South, Suite 286 Franklin, TN 37064, Phone
615-425-4009.
Incident to his position as a circuit court judge,
Joseph A. Woodruff engaged in criminal and
unconstitutional conduct with respect to a litigant

180a

that is incompatible with the trust and confidence
placed in him as a judge as followsArticle I
Petitioner Ronna Lyn Ueber was a litigant in a
divorce case and ancillary separate cause of action to
obtain judgment for collection of attorney fees
appearing before Judge Joseph A. Woodruff,
On
numerous
occasions
during
court
proceedings, Judge Joseph A. Woodruff repeatedly
and grossly deprived Ronna Lyn Ueber fair due
process, which included deprivation of right to be
heard, right to present evidence, right to confront
adverse witness testimony, right to present
argument orally. Such conduct is in violation of 18
U.S. Code § 242 and commission of crime while in
office.
Wherefore, Judge Joseph A. Woodruff is guilty of
crime and should be removed from office.
Article II
Petitioner Ronna Lyn Ueber was a litigant in a
divorce case and ancillary separate cause of action to
obtain judgment for collection of attorney fees
appearing before Judge Joseph A. Woodruff.
During court proceedings, Judge Joseph A.
Woodruff conspired to injure, oppress, threaten, and
intimidate free exercise of fair due process. Such
conduct is in violation of 18 U.S. Code § 241 and
commission of crime while in office.
Wherefore, Judge Joseph A. Woodruff is guilty of
crimes and should be removed from office.
Article III
Petitioner Ronna Lyn Ueber was a litigant in a
divorce case and ancillary separate cause of action to

181a

obtain judgment for collection of attorney fees
appearing before Judge Joseph A. Woodruff.
During ancillary case court proceedings, Judge
Joseph A. Woodruff conspired to extort money under
color of law. Such conduct is in violation of Tenn.
Code Ann. § 39-14-112 - Extortion, 18 USC §
1951(b)(2), and commission of crime while in office.
Wherefore, Judge Joseph A. Woodruff is guilty of
crimes and should be removed from office.
Article IV
Petitioner Ronna Lyn Ueber was a litigant in a
divorce case and ancillary separate cause of action to
obtain judgment for collection of attorney fees
appearing before Judge Joseph A. Woodruff.
During court proceedings, Joseph A. Woodruff
conspired to accept illegally obtained subpoenaed
documents including personal banking information.
Such conduct amounts to aiding and abetting
criminal conduct and he is guilty as principal of
commission of crime while in office.
Wherefore, Judge Joseph A. Woodruff is guilty of
crimes and should be removed from office.
Article V
Petitioner Ronna Lyn Ueber was a litigant in a
divorce case and ancillary separate cause of action to
obtain judgment for collection of attorney fees
appearing before Judge Joseph A. Woodruff.
During court proceedings, Joseph A. Woodruff
conspired to take jurisdiction in a case where he had
none, and then conspired to “create jurisdiction” for
the purpose of perpetrating crimes listed in Articles
I through IV above, and also to extort through
unlawful attorney’s fees from both parties.

182a

Wherefore, Judge Joseph A. Woodruff is guilty of
crimes and should be removed from office.

Article VI
Petitioner Ronna Lyn Ueber was a litigant in a
divorce case and ancillary separate cause of action to
obtain judgment for collection of attorney fees
appearing before Judge Joseph A. Woodruff.
During court proceedings, Joseph A. Woodruff
conspired to issue unlawful arrest warrant, and set
excessive bail on an out of state person. Such conduct
is in violation of 18 U.S. Code § 241, 242 and
commission of crime while in office.
Wherefore, Judge Joseph A. Woodruff is guilty of
crimes and should be removed from office.
III. Judge Amanda McClendon
Judge Amanda McClendon is Circuit Court Judge
in the Second Circuit for Davidson Country,
Tennessee, Twentieth Judicial District, with office
located at: l Public Square, Suite 506, Nashville, TN
37201, Phone 615-862-5905
Incident to her position as a circuit court judge,
Amanda McClendon engaged in criminal and
unconstitutional conduct with respect to a litigant
that is incompatible with the trust and confidence
placed in him as a judge as follows:
Article I
Petitioner John A Gentry was a Plaintiff in a
fraud and abuse case appearing before Judge
Amanda McClendon.
Judge Amanda McClendon repeatedly and
grossly deprived Mr. Gentry fair due process, which
included deprivation of: right to be heard, right to
present evidence, right to confront adverse witness

183a

testimony, right to present argument orally. Such
conduct is in violation of 18 U.S. Code § 242 and
commission of crime while in office.
Wherefore, Judge Amanda McClendon is guilty of
crime and should be removed from office.

Article II
Petitioner John A Gentry was a Plaintiff in a
fraud and abuse case appearing before Judge
Amanda McClendon.
Judge Amanda McClendon refused equal
protection of the law. Such conduct is in violation of
18 U.S. Code § 241, 242 and commission of crime
while in office.
Wherefore, Judge Amanda McClendon is guilty of
crime and should be removed from office.
Article III
Petitioner John A Gentry was a Plaintiff in a
fraud and abuse case appearing before Judge
Amanda McClendon.
During court proceedings, Judge Amanda
McClendon conspired to injure, oppress, threaten,
and intimidate free exercise of fair due process. Such
conduct is in violation of 18 U.S. Code § 241 and
commission of crime while in office.
Wherefore, Judge Amanda McClendon is guilty of
crime and should be removed from office.
Article IV
Petitioner John A Gentry was a Plaintiff in a
fraud and abuse case appearing before Judge
Amanda McClendon.
During court proceedings, Judge Amanda
McClendon committed fraud upon the court through
intentional false application of res judicata and

184a

litigation privilege doctrines,
Such conduct is
commission of crime while in office.
Wherefore, Judge Amanda McClendon is guilty of
crime and should be removed from office.
IV.

Tennessee Court of Appeals at Nashville,
Appellate Court Judges
Incident to their position as appellate court
judges, the Tennessee Court of Appeals judges have
engaged in criminal and unconstitutional conduct
with respect to all appellate court litigants that is
incompatible with the trust and confidence placed in
them as a judge as followsArticle I
The Tennessee Court of Appeals aides and abets
rights violations and refuses to enforce perjury
statutes and refuses to report judicial misconduct. It
is true and incontestable that crimes and rights
violations occurring in the lower courts would not
occur, except for the intentional gross negligence,
and fraud upon the court of the appellate court
judges.
Wherefore, all Appellate Court judges are guilty
of crimes and should be removed from office.

Article II
The Tennessee Court of Appeals conspired to
deprive a litigant fair due process of appellate court
proceedings in violation of 18 U.S.C. §§ 241 and 242.
See Appendix E Third Cause of Action.
Wherefore, Appellate Court judges are guilty of
crimes and should be removed from office.
Article III

185a

The Tennessee Court of Appeals previously issued
invoices for “State Litigation Tax” in the amount of
$13.75. The bottom of each invoice reads in part'
“Failure to pay the litigation tax within 15 days from
the date of this invoice will subject your appeal to
dismissal'. Clerks in the Appellate Court Clerk’s
Office have stated that cases are often dismissed for
failure to pay a $13.75 invoice. More recently, the Ct
of Appeals has accelerated the pay by date from 15
days to 7 days. There can be no valid business
purpose in accelerating payment for “State Litigation
Tax” for such a small amount. The fact that cases are
dismissed under such circumstance is clear evidence
of a confidence scheme and intentional deprivation of
constitutionally protected rights in violation of 18
U.S.C. §§ 241 and 242.
Wherefore, Appellate Court judges are guilty of
crimes and should be removed from office.
V.

Chief Justice of the Tennessee Supreme
Court
Justice Jeffrey S. Bivins is Chief Justice of the
Supreme Court of Tennessee and Chair of the
Tennessee Code Commission, with office located atSupreme Court Building, Suite 321, 401 7th Avenue
North, Nashville, TN 37219.
Incident to his position as Chief Justice, he has
engaged in declared acts of tyranny and violation of
our most sacred separation of powers doctrineArticle I
He has called together legislative bodies at places
unusual, uncomfortable, and distant from the
depository of their Public Records, for the sole
purpose of fatiguing them into compliance with his
measures.

186a

Article II
He has dissolved Representative Houses
repeatedly, for opposing with manly firmness his
invasions on the rights of the people.
Article III
He has combined with others to subject us to a
jurisdiction foreign to our constitution, and
unacknowledged by our laws; giving his Assent to
their Acts of pretended Legislation.
Article IV
For protecting them, by a mock Trial from
punishment for any crimes which they should
commit on the Inhabitants of this state.
VI. Attorney General for the State of Tennessee
Attorney General Herbert H. Slatery III is
Attorney General & Reporter for the State of
Tennessee with office located
Justice Jeffrey S. Bivins is Chief Justice of the
Supreme Court of Tennessee and Chair of the
Tennessee Code Commission, with office located in
Nashville, TN 37202.
Incident to his position as Attorney General, he
has engaged in declared acts of tyranny and violation
of our most sacred separation of powers doctrineArticle I
He has called together legislative bodies at places
unusual, uncomfortable, and distant from the
depository of their Public Records, for the sole
purpose of fatiguing them into compliance with his
measures.
Article II

187a

He has dissolved Representative Houses
repeatedly, for opposing with manly firmness his
invasions on the rights of the people.
Article III
He has combined with others to subject us to a
jurisdiction foreign to our constitution, and
unacknowledged by our laws; giving his Assent to
their Acts of pretended Legislation.
Article IV
For protecting them, by a mock Trial from
punishment for any crimes which they should
commit on the Inhabitants of this state.

Article V
For holding himself above the law and above
review by any court.

MISCELLANEOUS GRIEVANCE
On or about November 14, 2018, Petitioner visited
the office of the Chief Clerk of the House of
Representatives, Tammy Letzler, inquiring about in
which office a Petition of Remonstrance should filed.
Ms. Letzler, informed me that she was unaware of
what a Remonstrance was but that she would
research and follow up with me at a later time.
On November 15, 2018, Petitioner sent a follow­
up thank you email to which no response was
received. On November 26, 2018, Petitioner sent
another follow-up email, and again, no response was
received.
On or about November 28, 2018, having received
no communication from Chief Clerk Tammy Letzler,
Petitioner again visited her office, and met with her

188a

briefly in the corridor outside her office. During a
brief conversation in the corridor, Chief Clerk Letzler
informed Petitioner that the last time a
remonstrance was filed in the State of Tennessee was
in the year 1850. Chief Clerk Letzler suggested to
Petitioner that he should introduce a bill to the
legislature, apparently suggesting a remonstrance
was not the proper way to seek redress of grievances
against government policy or government officials.
As evidenced above, it is most certain that a right
to redress of grievance by address of remonstrance is
a constitutionally provided right. As evidenced
above, it is beyond doubt that inherent in the
republican character of a state, is the right to petition
the government for redress of grievances. This right
is fundamental to our form of government and
guaranteed in both state and federal constitutions.
The conduct of Chief Clerk Letzler, in ignoring
email
communication,
suggesting
Petitioner
introduce a bill to the legislature, failing to provide
instruction on where to file a remonstrance, strongly
suggests intent to deprive a constitutionally
guaranteed right of remonstrance, possibly in
violation of criminal codes 18 U.S. Code § 241, and
242.
At best, the conduct of Chief Clerk Letzler is in
violation of oath, and evidences lack of competence in
performance of duty.
Petitioner respectfully
DEMANDS that Chief Clerk Letzler be informed of
her duty to preserve rights guaranteed in our
constitution, and be responsive to THE PEOPLE to
whom she serves.

REFORMS DEMANDED & REDRESS OF
GRIEVANCES

189a

I.

Impeachment of Those Found Guilty of
Crimes Committed While in Office.
Pursuant to Tenn. Const. Art. V, § 1, The House
of Representatives shall have the sole power of
impeachment. Pursuant to Tenn. Const. Art. V, § 4,
judges of the Supreme Court, judges of the inferior
courts, and attorneys for the state, shall be liable to
impeachment, whenever they may, in the opinion of
the House of Representatives, commit any crime in
their official capacity which may require
disqualification.
The above Proposed Articles of Impeachment
allege crimes, declared acts of tyranny, violation of
oath of office. The attached appendixes and proof to
be further presented prove beyond reasonable doubt,
that those accused are guilty of crimes and declared
acts of tyranny inflicted upon the inhabitants,
Citizens, and PEOPLE of the State of Tennessee.
For their crimes and acts of tyranny, they should
be impeached so as to never again hold office in
public trust. For the House to discharge or ignore its
duty in this regard, is to further subject the
inhabitants, Citizens, and PEOPLE of the State of
Tennessee to despotism and oppression, thus
forsaking the state’s republican character in
violation of THE CONSTITUTION OF THE
UNITED STATES.
Tenn. Const. Art. VI, § 6 further provides the
House authority to remove from office, judges and
attorneys of the state by concurrent vote of both
houses, should they be found to have engaged in
conduct incompatible with the trust and confidence
placed in them.
II.

Drug Testing of Judges & Attorneys

190a

Many professions require drug testing as a
prerequisite to employment for good reason. For
attorneys and especially judges, mandatory drug
tests before taking office, and for attorneys when
being licensed to practice must be required. It is
further suggested that judges from the pool of the
judiciary be randomly selected and tested for illegal
substances.
THE PEOPLE should not be subjected to try their
cases before judges who may be drug dependent of
use illegal substances for obvious reasons.
Since members of the judiciary more commonly
come from a more economically privileged class,
those members of the judiciary who may use illegal
substance recreationally or habitually, are more
likely to utilize more expensive illegal substances.
An expensive drug habit will likely predispose them
to engage in corruption as a means to finance
expensive illegal substance use or abuse. Random
drug testing will minimize or eliminate the potential
for criminal or unconstitutional conduct.
Ill.

Live Stream and Recorded Court Proceedings
Must Be Made Available To The Public
Tenn. Const. Art. I, § 17 affirms: “That all courts
shall be open”. It is for good reason our founders
included this protection in our constitution. As
stated by U.S. Supreme Court Justice Burger in
opinion in the case Richmond Newspapers, Inc. v.
VirginiaThe crucial prophylactic aspects of the
administration of justice cannot
function in the dark! no community
catharsis can occur if justice is "done in
a corner [or] in any covert manner."

191a

Supra, at 567. It is not enough to say
that results alone will satiate the
natural
community
desire
for
"satisfaction." A result considered
untoward may undermine public
confidence, and where the trial has been
concealed from public view an
unexpected outcome can cause a
reaction that the system at best has
failed and at worst has been corrupted,
(at 571 - 572).
“Star Chambers”, “In Chamber Proceedings”, and
any and all closed*door sessions of the courts with
less than both parties and both counsels present
(including pro se litigants), must be declared by
session statute unlawful and prohibited. Since our
constitution states that all courts shall be open, any
and all “In Chamber” and similar closed-door
sessions of court are in violation of Tenn. Const. Art.
I, § 17 and must be declared so by this General
Assembly.
All Court proceedings must be made available to
the public via audio visual recorded proceedings, and
made available online through the court’s website(s).
It is a false statement to assert “it costs too much”
considering the 2018-2019 budget includes
$1,000,000 for the single purpose of “Courtroom
Security- To provide non-recurring funding for grants
to counties to implement or improve security systems
in courtrooms.” What better way to improve
courtroom security than to ensure justice is served
fairly through truly open courts, thus minimizing the
need for courtroom security?

192a

Further false arguments of protecting victims,
juveniles, etc. can be addressed through the use of
aliases and other similar measures.
On July 9, 2018, Senator Grassley, chairman of
the Senate Judiciary Committee, made the case in a
video address for increasing transparency and
confidence in the federal judiciary by allowing
cameras in federal courtrooms.
httpsV/www.facebook.com/grassley/videos/10156439
972170797/UzpfSTEwMDAwODI5NTAwNzg0Njoy
Mjc5NTEzODg5MDAxNzU2/
In his video address, Senator Grassley states'
"... it brings transparency, it brings an
educational opportunity, so I think it is
about time we have rules mandating
cameras in the courtroom, including the
Supreme Court here so people can see
how the judicial branch of government
functions, so they can be educated about
it, but the more important thing is to
have respect for the judicial branch and
in turn grea ter respect for rule ofla w. ”
If somehow the state does not desire to makes its
courts safe for the people by installing audio/visual
equipment, the legislature must declare it illegal in
session statute, to prohibit litigants from providing
their own audiovisual equipment,
Many
courthouses in Tennessee, post rules that cameras
and recording equipment are not permitted. Some
courthouses require permission of the court to record
court proceedings in violation of Tenn. Const. Art. I,
§17.
The General Assembly must declare in session
statute that it is unconstitutional to prohibit or

193a

require permission to record court proceedings. The
General Assembly must take action to begin
outfitting all courtrooms with audio-visual
equipment and make recorded proceedings available
to the public online.
IV.

All Courts Shall be open, and the Tennessee
Court of Appeals Should Not Conceal The
Record from Public Access.
The Tennessee Court of Appeals is operating
unconstitutionally by concealing the record from
public view. On the Court of Appeals website, at the
court’s “discretion”, many documents are concealed,
and not made available to the public for viewing or
download. Many documents are not made available
so as to hide the misconduct of attorneys and judges
that occurs in the lower courts.
Recently Petitioner was notified that the record in
his own personal case was to be destroyed but that
he could withdraw the record if desired. Petitioner
notified the appellate court of his desire to withdraw
the record.
While standing at the counter in the Clerk’s Office
of the Court of Appeals at Nashville, to withdraw the
record, the clerks removed all the motions, briefs,
and orders from the record, prior to turning over the
record to Petitioner. Petitioner inquired if he could
also have the motions, briefs, and orders since those
documents too were part of the record. The clerk
responded, that those documents were the property
of the court and would not be released. Inquiring
further if those documents were to be retained by
court, Petitioner was informed that the documents
would be destroyed. This fact renders the Tennessee
Court of Appeals as NOT a COURT OF RECORD due
to the facts that certain documents are excluded from

194a

the online record at the “discretion” of the court and
clerk’s office, and that those documents excluded
from the electronic record are ultimately destroyed,
thus rendering the Court of Appeals NOT A COURT
OF RECORD.
The General Assembly must declare in session
statute that the Tennessee Court of Appeals is to
make ALL DOCUMENTS (Appellant/Appellee
Briefs, Motions, Memorandums, Orders, etc.)
available online for public viewing and download and
maintain a complete permanent record electronically
available to the pubic. Our federal courts already do
this via the Public Access To Court Electronic
Records (PACER) website and database.
V.

Litigants Must Be Advised Of Their Right Of
Due Process
Respectfully stated, this DEMAND, cannot
rightfully be denied by the General Assembly, and
must be put into effect immediately.
Upon
presentation of Remonstrance, Petitioner moves for a
vote of the joint houses of the Senate and House.
As stated above- In the Miranda opinion, the
Supreme court made clear that the (l) “accused must
be adequately and effectively be apprised of his
rights and the exercise of those rights must be fully
honored, (2) The warning of the right to remain silent
must be accompanied by the explanation that
anything said can and will be used against the
individual in court. This warning is needed in order
to make him aware not only of the privilege, but also
of the consequences of forgoing it, and (3) Only
through such a warning is there ascertainable
assurance that the accused was aware of this right.
In the same basis as stated in opinion of the
Supreme Court of the United states in Miranda,

195a

litigants must be advised of their right of due process
which includes: (l) Right to be heard,' (2) Right to
Present Evidence, (3) Right to confront adverse
witness testimony, (4) Right to fair and impartial
court, (5) Right to trial by jury in civil cases and at
any time the impartiality of the court is questioned.
CONSTRUCT & PROCESS
Upon commencement of any and all litigation,
both civil and criminal, all parties to any case, both
Defendant(s) and Plaintiff(s) must be advised and
acknowledge advisement and understanding, in
writing, of their constitutionally protected rights.
This writing is to be evidenced by their signature and
witnessed by a member of the court, and recorded
permanently into the court of record.
BEGIN DOCUMENT
Rights retained by THE PEOPLE in all courts.
Tenn. Const. Art. I, § 17: That all courts shall be
open; and every man, for an injury done him in his
lands, goods, person or reputation, shall have remedy
by due course of law, and right and justice
administered without sale, denial, or delay.
Due course of law means you have a right of DUE
PROCESS. Essential elements of DUE PROCESS as
determined by the Supreme Court of the United
States include the following:
• You have a right to be heard;
• You have a right to present evidence
according to the rules of evidence;
• You have a right to present your
evidence orally;
• You have a right to confront adverse
witness testimony of ANY person(s) face
to face;

196a

•

You have an inviolate right to trial by
jury in both civil and criminal cases;
• You have a right to a fair and impartial
court;
• You have a right to record proceedings
with audio/visual equipment if not
provided by the court;
' • If in your own opinion, and at any time,
if you feel you are being deprived a fair
and impartial court (JUDGE), you have
a right to stop proceedings and STAY
ALL ORDERS, and DEMAND TRIAL
BY JURY;
• It is a federal crime to violate
constitutionally protected rights under
18U.S.C. §§ 241 and 242.
• If you have evidence beyond doubt that a
member of the judiciary has violated any
of these rights, you have a right to
Petition of Remonstrance to seek
impeachment of any judge to be filed
with the Clerk's Office of the House of
Rep re se nt ative s.
Do you understand these rights? If you understand
your rights presented above, acknowledged so by
your signature.
Litigant Name Printed: ________________
Litigant Signature-

_________________

Witness Name Printed: ________________
Witness Signature-

________________

END DOCUMENT

197a

VI.

Unconstitutional Statutes Granting
Emolument, Providing False Immunities, and
Usurping Rights Are Void
As discussed above, statutes challenged must be
made void or repealed. When the constitutionality of
a state statute is challenged, the challenge is
presented first to the state Supreme Court. Due to
the fact that the Chief Justice of the Tennessee
Supreme Court is a member of the Tennessee Code
Commission, who edits, compiles, and organizes the
Tennessee Code Annotated, and certifies acts of state
congress placing them if force, the Tennessee
Supreme Court is incapable of impartial review.
Therefore, it will fall to the Supreme Court of the
United States to review and make determination,
should the General Assembly decide not to
void/repeal.
VII.

Oversight of the Judiciary Must Be Restored
to the House
ARTICLE V. Impeachments. § 1. The House of
Representatives shall have the sole power of
impeachment. The process of Remonstrance and
Demand for Impeachment for crimes should be put
in place and streamlined.
This process should include the following• Complaint is to be accepted by the House of
Representatives. It is suggested committee(s)
be put in place by the House to review
complaints.
• The “voting members” of the committee(s)
should never include a member who is an
attorney due to clear conflict of interest. An
attorney may be a part of the committee to
provide advisement.

198a

•
•

•

•

Petitioners have a right to attend proceedings
and present orally.
If the committee determines a complaint is
without merit, the complainant has a right to
petition either the full House, or request
review by a jury of twelve (12) from the jury
pool, with proceedings to be conducted in the
House Hearing Rooms, with House member
oversight.
If the jury concurs that the
complaint has merit, the petition is presented
to the House for vote.
If crimes are evidenced and the House concurs
that crimes are evidenced, impeachment
proceedings should commence under Art. V.
If the conduct complained of is such that it is
incompatible with the trust and confidence
placed, then removal proceedings should
commence under Art. IV, § 6.

VIII.

Licensure of Attorneys Must Be Restored To
the Legislature & Tenn. Bd. of Prof. Resp.
Abolished
For reasons stated above, the Tennessee Board of
Professional Responsibility must be abolished. The
state must create a new agency with oversight and/or
controlled by the House.
IX.
The Tennessee Code Commission Must Be
Abolished
■For obvious reasons stated above, the Tennessee
Code Commission must be abolished. The entire
Tennessee Code must be reviewed to ensure the Code
reflects the lawful acts of congress.
Repealed
statutes must be reviewed to make determination of
lawful repeal. The compilation, structure, etc. of the
Tennessee Code must be restored to the General

199a

Assembly, or Secretary of State. It is respectfully
suggested to follow the process used in publishing of
the United States Code.
X.
Performance Measurements of Judges Must
Be Put In Place
Blind surveys mandatory by litigants, court
workers, attorneys, members of juries should be put
in place. There is a common phrase of varying sorts
by different groups. In business the phrase might be;
“What gets measured, gets managed” or “Measure
what you treasure”
Perhaps law students attend court proceedings
and complete survey. Perhaps CPE credits for
attorneys who court watch and complete surveys.
The results of surveys should be made available
to the public online and reviewed on a regular basis
by the House.
XI.
Personal Redress of Grievance Demanded
Your petitioner John Anthony Gentry has
suffered grievous loss due to the failure of the state
to provide him fair and impartial courts, and due to
the repeated and gross violations of his protected
rights by state officials.
Petitioner therefore,
respectfully and humbly requests the state to
reimburse him all of his litigation and court costs
(including attorney fees paid), incurred in both state
and federal courts. As a Certified Public Accountant,
Petitioner is well capable of providing detailed listing
of costs and fees incurred, supported by credit card
and bank statements and receipts.
Petitioner
anticipates this reimbursement to total less than
Fifty-thousand dollars ($50,000). Considering the
emotional and financial devastation caused by state
officials, and countless hours spent over several
years,
researching,
writing
complaints,

200a

memorandums, motions, appeals, this should be
considered a very humbly sought redress.
Petitioner further requests the General Assembly
to declare the judgments of Judge Amanda
McClendon, in Case No. 16C2615, void for fraud on
the court and false application of law, and civil
conspiracy to deprive equal protection and due
process of law. Petitioner seeks this redress so that
he may bring suit once again, before a jury of peers
and a fair and impartial court to seek redress for
fraud,
constructive
fraud,
civil conspiracy,
deprivation of rights, abuse of process, and
intentional infliction of emotional anguish against
the perpetrators Pamela Anderson Taylor and
Brenton Hall Lankford. It is due to the criminal and
tortious conduct of Pamela Anderson Taylor and
Brenton Hall Lankford, that this matter is now
brought before this Honorable General Assembly.

Respectfully Submitted,

John Anthony Gentry, CPA
208 Navajo Court
Goodlettsville, TN 37072
johng@wethepeoplev50.com
(615) 351-2649

201a

Oath
State of Tennessee

)

County of______
I, John Anthony Gentry, after being first duly
sworn according to law, do hereby make oath and
affirm that all statements included in this
PETITION OF REMONSTRANCE and attached
appendixes, are true and correct to the best of my
knowledge, information and belief

John Anthony Gentry

Sworn to and subscribed before me, this
the
day of
2019
Notary Public
My Commission Expires

202a

Appendix G
CONSTITUTION OF THE
UNITED STATES (excerpts)
Constitution of the United States, Art. IV Section 4
The United States shall guarantee to every State in
this Union a Republican Form of Government, and
shall protect each of them against Invasion; and on
Application of the Legislature, or of the Executive
(when the Legislature cannot be convened) against
domestic Violence.
Constitution of the United States, Art. VI, If 3
The Senators and Representatives before
mentioned, and the Members of the several State
Legislatures, and all executive and judicial Officers,
both of the United States and of the several States,
shall be bound by Oath or Affirmation, to support
this Constitution; but no religious Test shall ever be
required as a Qualification to any Office or public
Trust under the United States.
Constitution of the United States, Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof or abridging the freedom of speech,
or of the press; or the right of the people peaceably
to assemble, and to petition the government for a
redress of grievances.

203a

Constitution of the United States, Amendment
XIV, Section 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law* nor deny to any person within its
jurisdiction the equal protection of the laws.

TENNESSEE CONSTITUTION
(excerpts)
Tennessee Constitution, Art. I Section 1
That all power is inherent in the people, and all free
governments are founded on their authority, and
instituted for their peace, safety, and happiness; for
the advancement of those ends they have at all
times, an unalienable and indefeasible right to alter,
reform, or abolish the government in such manner
as they may think proper.
Tennessee Constitution, Art. Section 2
That government being instituted for the common
benefit, the doctrine of nonresistance against
arbitrary power and oppression is absurd, slavish,
and destructive of the good and happiness of
mankind.
Tennessee Constitution, Art. I Section 23

204a

That the citizens have a right, in a peaceable
manner, to assemble together for their common
good, to instruct their representatives, and to apply
to those invested with the powers of government for
redress of grievances, or other proper purposes, by
address of remonstrance.
Tennessee Constitution, Art. X Section 2
Each member of the Senate and House of
Representatives, shall before they proceed to
business take an oath or affirmation to support the
Constitution of this state, and of the United States
and also the following oath- I
do solemnly
swear (or affirm) that as a member of this General
Assembly, I will, in all appointments, vote without
favor, affection, partiality, or prejudice; and that I
will not propose or assent to any bill, vote or
resolution, which shall appear to me injurious to the
people, or consent to any act or thing, whatever, that
shall have a tendency to lessen or abridge their
rights and privileges, as declared by the
Constitution of this state.
Tennessee Constitution, Art. XI Section 16
The declaration of rights hereto prefixed is declared
to be a part of the Constitution of the state, and shall
never be violated on any pretense whatever. And to
guard against transgression of the high powers we
have delegated, we declare that everything in the
bill of rights contained, is excepted out of the general
powers of the government, and shall forever remain
inviolate.

205a

